<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS  OF  VETERANS  AFFAIRS  AND HOUSING  AND  URBAN  DEVELOPMENT,

                                  AND

               INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001 

                                

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman

 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama                        
 VIRGIL H. GOODE, Jr., Virginia
                                    


                                                                                                                                                
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin,
          Dena L. Baron, and Jennifer Whitson, Staff Assistants
                                ________

                                 PART 1

              NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-676 O                   WASHINGTON : 2000



                   COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                       DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                  JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois             NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                  MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                    JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                  STENY H. HOYER, Maryland
 TOM DeLAY, Texas                         ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                       MARCY KAPTUR, Ohio
 RON PACKARD, California                  NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                  PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York                 NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina        JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                    ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma          JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                     JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan                ED PASTOR, Arizona
 DAN MILLER, Florida                      CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                     DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                   MICHAEL P. FORBES,New York
 RODNEY P. FRELINGHUYSEN, New Jersey      CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi             ROBERT E. ``BUD'' CRAMER, Jr.,
 GEORGE R. NETHERCUTT, Jr.,                 Alabama
Washington                                MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,               LUCILLE ROYBAL-ALLARD, California
California                                SAM FARR, California
 TODD TIAHRT, Kansas                      JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                     CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                         ALLEN BOYD, Florida
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)0



DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                         Wednesday, March 15, 2000.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                               WITNESSES

DANIEL S. GOLDIN, ADMINISTRATOR
BRIAN KEEGAN, CHIEF ENGINEER
MALCOLM PETERSION, COMPTROLLER
EDWARD WEILER, ASSOCIATE ADMINISTRATOR FOR SPACE SCIENCE
GHASSEM ASRAR, ASSOCIATE ADMINISTRATOR FOR EARTH SCIENCE
JOSEPH ROTHENBERG, ASSOCIATE ADMINISTRATOR FOR SPACE FLIGHT
SAM VENNERI, ASSOCIATE ADMINISTRATOR FOR AEROSPACE TECHNOLOGY

                       Chairman's Opening Remarks

    Mr. Walsh. Good morning. The hearing will come to order.
    This morning we would like to welcome Mr. Dan Goldin, the 
Administrator of the National Aeronautics and Space 
Administration for the committee's first hearing on NASA's 
budget and programs.
    Last year the Subcommittee was placed in a very difficult 
position when we started putting our bill together. We were not 
given sufficient funds to provide for the necessary increases 
in veterans' medical and housing certificates and still 
maintain other programs under our jurisdiction at the levels 
requested. We had to make very difficult choices, and that 
included substantial cuts to the NASA budget.
    As the year progressed, we were given more resources, and 
we were able to, in the end, provide NASA with $75 million more 
than the budget request.
    In addition, the fiscal year 2000 supplemental we put 
together last week provides NASA with $75 million to address 
urgent and emergent personnel needs, shuttle upgrades, and 
science program requirements. I hope we don't have to repeat 
what we went through last year, but I am not very optimistic 
based on the proposals coming out of the Budget Committee. So I 
think everyone should prepare for a bumpy ride again this year.
    The fiscal year 2001 budget request for NASA is $14 
billion, an increase of more than 3 percent when compared to 
the fiscal year 2000 appropriation. I am pleased to see that 
NASA has provided an increase of over 6 percent for science, 
aeronautics, and technology programs. Last year the aerospace 
technology component of this account was decreased by about 
$300 million in the President's budget. We thought that was too 
much, and we were able to add back about $120 million for a few 
focused efforts.
    This year's budget request for aerospace technology has a 
further growth of $70 million in funding, but, more 
importantly, the budget includes a well-defined plan for the 
development of space launch vehicles, and we look forward to 
hearing more about that.
    Other major changes in the Science and Technology account 
include an increase of over 9 percent for space science 
programs and 10 percent for life and microgravity sciences. I 
am disappointed that we are still waiting to launch the Russian 
service module. While delays in that launch have afforded us an 
opportunity to complete additional integration testing on 
follow-on components, we need to make progress this year in 
assembly of the International Space Station.
    I hope to go to Russia in the coming months to convey in 
person my wishes to see Russia maintain its position as a full 
partner in the International Space Station. At the same time, I 
will convey that they have to keep their commitments if that 
partnership is to remain intact.
    We cannot continue to have delays, and we need to have a 
firm commitment on the support that Russia will be able to 
provide during the continued assembly and operations.
    I would at this time ask my colleague and friend, Mr. 
Mollohan, if he has any opening statement.

                    Ranking Member's Opening Remarks

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, welcome to the subcommittee. I understand it 
has been an interesting year at NASA. You and your staff had 
some good news and some real achievements. Several new missions 
were launched, Landsat-7, Terra, the Chandra X-ray Observatory, 
and Stardust, among others. The Hubble space telescope has been 
producing valuable scientific results. The Mars Global Surveyor 
continued its mapping and successful shuttle missions were 
flown.
    At the same time, we are all aware you also had some real 
reverses such as the Mars Climate Orbiter, the Mars Polar 
Lander, and its two associated Deep Space probes. The Space 
Station schedule has continued to slip, and wiring and other 
problems were found in shuttle orbiters. Hopefully, that run of 
bad news is nearing an end. The space shuttle is flying again, 
and it looks like Space Station assembly may be getting back on 
track in a few months as the Russians work through their 
problems.
    And I am impressed by the number of independent reviews 
that you have commissioned to try to figure out why things have 
gone wrong, when they have gone wrong, and how to put them 
right.
    You are bringing this subcommittee a budget that calls for 
the first substantial spending increase for NASA in a number of 
years. I think that budget request is a welcome sign of the 
Administration's confidence in NASA, despite recent problems, 
and a recognition of the importance of the scientific and 
engineering work that NASA does.
    I hope that this subcommittee will be able to provide NASA 
with a real funding increase this year, and I think many of my 
colleagues share that hope. However, I am beginning to wonder 
whether we will have an opportunity to do so. As the chairman 
alluded, the cause of my concern is the annual budget 
resolution that the House Budget Committee will be taking up 
later today. As I understand it, the Republican leadership has 
agreed on a budget plan that calls for total nondefense 
appropriations to be lower in fiscal year 2001 than they are in 
fiscal year 2000.
    If the majority leadership is determined to shrink overall 
domestic appropriations and if they are able to maketheir 
decision stick, I don't see how there can be much of an increase in 
appropriations for NASA. Instead, this subcommittee will have a hard 
time preventing another round of cuts in NASA's budget as well as the 
budgets of other agencies under our jurisdiction.
    I fundamentally disagree with the majority leadership's 
attitude toward the domestic budget. In this era of continued 
prosperity and record high budget surpluses, I don't see why we 
cannot have modest growth in overall appropriations so that we 
can provide modest funding increases in a number of areas, NASA 
and other scientific programs among them.
    That is the debate that will be occurring in the coming 
weeks. Frankly, in my opinion, that debate about overall budget 
policy may have as much an effect on NASA's funding as anything 
we do here in this subcommittee. But today we are here to talk 
about the specifics of NASA, and having said just a bit about 
the larger budget context, I now look forward to your 
testimony.
    Mr. Walsh. Mr. Goldin, please proceed with your statement.
    Mr. Goldin. Mr. Chairman, I would like to submit my formal 
comments for the record and just summarize.
    Mr. Walsh. Without objection.

                              nasa budget

    Mr. Goldin. Mr. Chairman, this is a great budget. The 
fiscal year 2001 request of $14,035,000,000 is an increase of 
3.2 percent over last year's appropriation and reflects future 
year increases that exceed the rate of inflation.

                          nasa accomplishments

    With each year, the record of NASA's accomplishment grows, 
and the promise of the future gets brighter. This year is no 
exception. We began the year with the launch of Deep Space One, 
a mission to test 12 revolutionary technologies necessary for 
the future of space science. We began deployment of the EOS 
series of satellites with the launch of Landsat-7 followed by 
Terra, the flagship EOS satellite, QuikSCAT and AcrimSat. We 
launched the first International Space Station assembly 
missions. The Hubble Space Telescope found the value for how 
fast the universe is expanding after 8 years of painstaking 
measurement and debate.

                              nasa losses

    In 1999, we also experienced some severe disappointments 
and problems: the back-to-back losses of the Mars Climate 
Orbiter and the Mars Polar Lander and Deep Space-2 probes, 
wiring problems and a hydrogen leak in the shuttle, and a 
failure of the X-33 composite tank to pass qualification tests.
    1999 was marked by continuing launch vehicle failures that 
directly and indirectly impacted NASA programs. The Russian 
Proton failures have had a significant impact on the readiness 
to launch the service module. The Japanese, Europeans, and the 
United States struggled mightily to achieve safe and reliable 
access to space, and only a few days ago, the Sea Launch 
vehicle experienced another failure.

                          independent reviews

    A number of independent reviews have been commissioned to 
examine these problems, search for root causes, and recommend 
changes. We worked closely with the Department of Defense and 
others on the broad area review of DOD space launch failures. 
And NASA chartered reviews of the shuttle wiring problems and 
the Mars Surveyor program failures.
    I commissioned the Mars program independent assessment team 
led by Tom Young to review and assess the entire Mars program 
architecture, management, content, and recent failures. I 
anticipate release of Tom Young's report by the end of March 
and will refrain from comment on it today.
    An independent review of the X-33 tank failure is scheduled 
to be completed within the next few months. During the last 
week, NASA released reports of the Shuttle Independent 
Assessment Team, the Mars Climate Orbiter Mishap Investigation 
Board, and the Faster, Better, Cheaper review. Some findings 
from these reports are:
    One, there has been too much emphasis upon not breaking 
cost and schedule barriers, particularly in planetary programs 
with hard launch dates.
    Two, in some cases, we have built up programs without 
providing adequate training of our brilliant young employees.
    Three, in some cases where problems have been seen, they 
have not been communicated effectively up and down.
    And, four, in some cases, people have not performed the 
fundamental engineering and management principles proven over 
the years, including the need for thorough, timely, and 
aggressive peer reviews.

                            lessons learned

    As has been the case at various times throughout the 
agency's 40-year history, we are committed to learn everything 
we can from the losses, alter our approach where it is prudent 
to do so, and move on. NASA has undertaken the journey towards 
revolutionary change with unbelievable support from this 
committee, and we are resolved to continue to merit that 
support because we will investigate ourselves with outside 
people and do the right thing and be very open with the 
American people and this committee.
    We should not be prescriptive with the NASA workforce. They 
have to have the freedom to learn and change. However, they 
should abide by proven management and engineering principles. 
As I said to the Congress in 1997, at NASA we do not shy away 
from difficult missions. We have tremendous successes, but we 
also have failures, and we must learn from our failures. Often, 
the learning we do from our failures leads to greater successes 
than we originally imagined. That is why it is important for 
the young people to see NASA take risks. We want them to see 
that we are not afraid of failure and that they should not be 
afraid, either.
    In fact, I want to publicly salute the Mars 98 team in 
spite of their failures. They were pushing the envelope and are 
enabling us to strive for even greater accomplishments in the 
future. And I want to salute the entire NASA team, civil 
servants and contractors, for the incredible job they have done 
in the face of change and transition, the Faster, Better, 
Cheaper.
    As testimony to their performance, since 1993, NASA has 
launched $18 billion in payloads with a total loss measured in 
about a half billion dollars. This is best in world performance 
by any reasonable standard. However, at NASA, we don't look at 
our success. We look at our failures because we learn from 
those failures. We magnify those failures, and we bore in. That 
is the right way to do things.

                         fy 2001 budget request

    Mr. Chairman, NASA's many achievements and specific 
disappointments are foundations upon which the fiscal year 2001 
budget has been built. The President's fiscal year 2001 budget 
request includes a $1.5 billion increase for space shuttle 
safety improvements over 6 years to address space shuttle 
safety improvements through hardware upgrades, personnel, 
facility, and other space investments. These investments should 
improve the space shuttle safety by a factor of 2, and I would 
publicly like to thank the Aerospace Safety Advisory Panel that 
has helped us formulate this and the McDonald Panel, which has 
just released its report. Itgave us visibility into areas we 
did not have.
    In fact, some of the items they pointed out were inherent 
design flaws put into the shuttle over two decades ago.
    Funding is included for additional personnel at NASA's 
Johnson Space Center in Houston, and this committee has been 
generous in providing those funds. We told the committee that 
if we found we had to cut too far, we would come back and tell 
you. After internal and external reviews, we concluded that we 
had cut too far.
    This funding will stabilize and revitalize our workforce to 
ensure that the right skills and staffing are in place to 
operate the space shuttle safely and to launch and assemble the 
Space Station. Thanks to support from the committee, the two 
highest-priority shuttle safety ugrades have already been 
initiated, and we are studying a broad range of other upgrades 
for implementation by 2005. And I might point out in their 
report, the McDonald Committee also zeroed in on one of the 
upgrades that this committee supported. So we are getting a 
head start on some of those upgrades.

                      international space station

    This year will be a landmark year for the International 
Space Station. We have confidence that the first crew will 
begin to live aboard the Space Station. Because of Russian 
Proton rocket failures, launch of the Russian service module 
has been delayed until July.

                      new space launch initiatives

    This budget also reflects robust funding for initiation of 
a new space launch initiative long overdue for the United 
States of America, with an investment of $4.5 billion over 5 
years. The fiscal year 2001 also includes a broad range of new 
initiatives and strengthening of other science and technology, 
including additional funding for the Mars program in 
anticipation of the findings of the various reviews.

                 Administrator Goldin's Closing Remarks

    In closing, thanks to the support of the administration, 
the Congress and this committee, and the hard work of our 
talented employees, we have a budget that gives us the 
opportunity to develop the science and technology for the 
future. Because NASA does not think small, because we plan for 
the long term, this budget is not designed for the next decade. 
It is designed for the next millennium, and NASA and America 
will lead the way.
    Thank you. I will be happy to take your questions.
    Mr. Walsh. Thank you very much. The statement will be 
included in the record in its entirety.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     nasa's successes and failures

    Mr. Walsh. I would like to echo what my colleague, Mr. 
Mollohan, said. Obviously, you have had many, many successes 
this year, and all of your people are to be congratulated for 
those, and also some failures. As you mentioned, we learn by 
our mistakes.
    It is absolutely the right view, because the laboratory 
that space has provided us has given us the ability to test our 
best and smartest people, and the benefits are accruing to this 
country every day. I think it is safe to say that you have 
strong support, certainly from the chairman and the ranking 
member and the other members of this subcommittee.

               shuttle independent assessment team report

    I would like to ask a few questions that the Shuttle 
Independent Assessment Team report provided. They included a 
statement that conversion from the launch processing system to 
the checkout and launch control system could pose an indirect 
risk to shuttle safety if not appropriatly managed. It goes on 
to state that during fiscal year 1999, when there were only two 
launches, many systems engineers were working substantially 
more than eight hours a day and questions the ability of 
systems engineers to cope with the planned eight-launch 
schedule for fiscal year 2000.
    Last week, this Committee put together a supplemental 
appropriation bill for fiscal year 2000 which includes funding 
for about 300 additional end strength primarily for the shuttle 
program.
    In light of the assessment team report, is the augmentation 
of 300 end strength sufficient to deal with the problems 
identified? Could you also address the end strength needs you 
will have in fiscal year 2001, taking into consideration the 
findings of the assessment team?
    Mr. Goldin. We agree with the findings of the assessment 
team, and we recognized this problem earlier in the year based 
on interaction with the Aerospace Safety Advisory Panel.
    We undertook a core capability study that took a look at a 
variety of the areas that we could identify for problems. Based 
on the findings from all these studies, we found we were one 
deep in 87 critical areas, that is, there was one person 
without a safety net underneath them, which created an 
unacceptable condition. And then we also recognized that we 
were going to increase the staffing needs because of the 
shuttle upgrades, and we needed an ability to assign 
engineering to shuttle upgrades without interfering with the 
ongoing activities.
    So it became very clear that we would have to have more 
staff, and as a result, we requested 282 FTEs in fiscal year 
2000, which has 95 allocated to the shuttle. And we feel this 
is the right level of activity. And in fiscal year 2001 in our 
budget request, we ask for 668 FTEs, and the shuttle would have 
278. So the endpoint ends up to be about at the 300 that you 
have included in your bill.
    Mr. Walsh. The Shuttle Independent Assessment Team report 
notes that in the process of correcting problems with wiring in 
the shuttle fleet, visual inspection was used to determine 
where the repairs were necessary. The concern of the team was 
that visual inspection may miss up to 30 percent of the wiring 
problems. What assurances can you give us that you have 
identified all wiring deficiencies and the shuttle flight is in 
a condition which makes flight less risky than was the case for 
most of last year?
    Mr. Goldin. Well, there are a couple of issues we have to 
look at here. Another thing that the team pointed out was that 
you have to be careful of the wear and tear that you have with 
routine maintenance and inspections, and about, as you said, 30 
percent were in areas where there were tight wire bundles, 
which would mean to inspect it you have to takeit apart and put 
it back together. So at the suggestion of the McDonald Panel, the 
Shuttle Independent Assessment Team, what we did is we took a look 
selectively at the Shuttle Columbia, which is in orbiter maintenance 
down period in Palmdale, and when we opened up these inaccessible areas 
just to check and see if we would have problems there, we found 
virtually no problems. And that is logical because the problems we were 
finding were due to all the work that was going on in the shuttle, 
places where open wires could be inappropriately mishandled by people, 
not intentionally, but we have to upgrade those procedures.
    So we have a very high confidence that that will not be a 
problem.

                        major launch initiative

    Mr. Walsh. On another topic, NASA is about to embark on a 
major launch initiative, one that asks this Subcommittee to 
commit $4 billion over the next few years. How do you plan on 
using those funds? Is it for one approach, similar to the X-33 
program, or for numerous approaches?
    Mr. Goldin. Well, this is a very comprehensive program. We 
learned a lot of things on the X-33 and X-34 programs. There 
are a number of key features to this program. There is a broad 
range of competition. We want to have a diversity in technical 
approaches in companies. We want big companies and small 
companies, and we are working to bring the small companies into 
it.
    We want to work on critical technologies, not just 
vehicles, and make those critical technologies available to a 
broader range of companies. We want to build up the whole 
launch industry in America because for too long it has been 
dominated by a few big companies that are still flying 40-, 50-
year-old technology. And we also included in this launch 
initiative an alternate access to the Space Station to get it 
to take a chance--to take a look at some of the emerging ideas 
from these emerging small rocket companies. So this allows us 
to have a broader base.
    It also includes the capability to help start-up companies 
get the credibility of launching low-cost payloads where you 
don't have a big loss so they could become eligible to compete 
on NASA business. So we will take some very low-cost payloads 
and take the risk of launching on these new vehicles so they 
could say they flew a payload successfully and then step up the 
chain. So it is a very broad, comprehensive program. It is 
driving towards significantly improving the safety and 
reliability, and our first goal is to improve the reliability 
of the launch vehicles by a factor of 10 within 10 years while 
at the same time improving the survivability for astronauts by 
a factor of 100.
    In 25 years, we expect to cut the launch costs by a factor 
of 100 and improve the survivability for astronauts by a factor 
of 10,000. So within a quarter of a century, we hope to have 
rockets capable of having the same level of reliability as 
long-haul jet transports.

                        rocket system suppliers

    Mr. Walsh. Right now, as you know, we only have a couple of 
suppliers for rocket systems. What in this program will provide 
for those new start-up companies? What will provide the 
encouragement, and how will you level the playing field between 
the big suppliers and the start-ups?
    Mr. Goldin. Well, recognizing this problem, I personally 
had a meeting with nine of the CEOs of the small rocket 
companies. We actually picked up the bill. And it was a very 
illuminating meeting. They told us about some of the problems 
they were experiencing. They needed access to NASA facilities 
because they can't afford to go build the kind of facilities we 
have. They need better access to NASA technology. They wanted 
to have opportunities for test launches because they can't go 
to the commercial sector if they don't have it, and if they 
could fly a NASA payload successfully, it gives them a leg up 
in the global marketplace.
    So factoring all this in, I have asked Art Stephenson, who 
is the Director of NASA Marshall, to personally visit each of 
these companies, which he has already done, and then put 
together a very aggressive plan for how we could engage these 
small companies very proactively in this new space launch 
initiative.
    And we don't necessarily have to engage the companies in 
building whole vehicles. What we would like to build is a broad 
range of suppliers so we could put advance parts on the shelf 
that they could then sell to other companies, and then 
gradually build up a very aggressive leapfrog capability in 
America.
    Mr. Walsh. Well, that would certainly provide the 
competition and the creativity that I think is needed to reduce 
the cost of delivering projects to space. So we applaud that 
effort.
    I think I will hold my next few questions for the next 
round, and I will yield to Mr. Mollohan. Thank you very much 
for your responses.

                  space station assembly and operation

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, I know you touched on this in your testimony, 
but could you please summarize for the subcommittee just where 
we currently stand with respect to the schedule for assembly 
and operation of the Space Station? If everything goes 
according to the current plan and the Russians get the service 
module launched in July, when would the first long-term crew 
occupy the Station? When would research activities begin? And 
when would the Station be able to accommodate a full-scale crew 
and research operations? So, first of all, when would the first 
long-term crew occupy the Station?
    Mr. Goldin. This year. Late this year.
    Mr. Mollohan. When would the research activities begin?
    Mr. Goldin. Research activities would begin at a very low 
level next year, and then ramp up as the capability went on the 
Station.
    Mr. Mollohan. And when would the Station be able to 
accommodate a full-scale crew and research operations?
    Mr. Goldin. Let me say we have aggressively worked the 
schedule for what we call completion of Phase 1, which gets us 
up to the lab and the airlock, which gives us that first 
research capability, and it gives us the capability to have a 
three-person crew. And that takes us through early next year.
    We haven't worked the details of the schedule after that, 
so I would like to have a chance to go take a look at the steps 
that occur after that. But I can say that we are ahead of 
schedule for all the elements that we have to launch through 
the completion of Phase 2 of the program and that the Russians 
are really done with the service module testing, but that they 
want to test some more software with the available time to make 
it more robust.
    So we believe everything is in place to complete Phase 2, 
and we are focusing on that. And then we want to see if we 
launch the service module on time, and we will use that asa 
point to establish when we will have that full six-person capability. 
So we are trying to do our planning in steps and phases so we don't 
have our people do a lot of exercises until we know for a fact that 
that service module is launched.

                  paying russia for its contributions

    Mr. Mollohan. To what extent has the U.S. Government been 
paying Russia for its contributions to the Space Station? And 
to what extent are Russian contributions being financed by 
Russia?
    Mr. Goldin. We have been buying very specific goods and 
services from the Russians that we need, we negotiate fair 
market value for them, and the Russian Government puts its 
money in. We do not know how to convert rubles into dollars to 
get the effectiveness of how the Russians work. They have a 
system there that we just don't pretend to even understand. But 
they do make significant contributions to that.
    There is one concern that I have, however, and that is, the 
key word is ``fair market value.'' Not cost but fair market 
value, because we are dealing in a global marketplace.
    Recently, the Russians announced that a Russian company--
R.S. Enegia announced that they had negotiated a deal with a 
private U.S. company, and they were offering services for the 
Soyuz vehicle that on the surface appear that they are charging 
them a much lower price than they are charging--that they want 
to charge us for the Soyuz. So until we get resolution of that 
issue, we are not interested, willing, or able to even talk 
about a Soyuz.

                goods and services purchased from russia

    Mr. Mollohan. In cases where the U.S. Government has 
purchased goods and services from Russia, what has been their 
performance record with regard to delivery?
    Mr. Goldin. Their performance has been outstanding. In 
fact, I would say when we buy specific goods and services from 
the Russians, they are equal or better in performance to our 
own U.S. contractors.
    Mr. Mollohan. Can you give us examples of that?
    Mr. Goldin. The functional cargo block was just a 
terrifically designed and tested piece of equipment that just 
did exactly what it was supposed to do on orbit, and they 
delivered to the schedule that they said they would. That is 
equal in size to any of the big modules that we have on the 
Station.
    Mr. Mollohan. So you think that is a good part of the 
story?
    Mr. Goldin. Yes, I think it is an outstanding part of the 
story. I will give you another one. I think then Rockwell, 
which is now Boeing, bought a tunnel for docking the shuttle to 
the Mir Space Station. I think that that tunnel cost about $23 
million, and we calculated it would cost us about $100 million 
if we did it ourselves. It was delivered on time and it worked 
every single time to the performance specification that we put 
to it.
    So, time after time, when we have bought specific goods and 
services from the Russians, we got exactly what we asked for.

                            funds to russia

    Mr. Mollohan. How confident are we that the funds provided 
to Russia for various Space Station purposes have actually 
gotten to the firms and subcontractors doing the work, rather 
than possibly being diverted to other purposes?
    Mr. Goldin. We have a set of audits that we do, and we have 
our NASA team, our Comptroller's office, we have an independent 
consultant--I believe it is Arthur Andersen--the IG, and they 
just returned from Russia a month or two ago, and they traced 
the money from America to the Russian Space Agency, from the 
Russian Space Agency to be converted from dollars to rubles, 
from that funding to the subtier suppliers, and they could find 
no discrepancies. And if you would like, I will submit the 
audit report for the record.

                        space station components

    Mr. Mollohan. Are all the U.S. components for the Space 
Station ready to go when they are needed?
    Mr. Goldin. We believe at this point in time, through Phase 
2, we are ahead of schedule for every single component. We just 
completed about a month or so ago a very significant 
integration test. It was the multi-element integration test for 
all the elements that are going to be up there for Phase 2, and 
we checked out the software and the hardware. We hooked it up 
to Mission Control in Moscow and Houston, and we wrung out all 
the equipment. And now we are in the process of doing final 
checks and installing the equipment in the shuttle for launch.
    The key linchpin is the service module. We believe the 
service module is ready, but our mutual agreement with the 
Russians, we said we did not want that service module launched 
until we had about five Proton launches to make sure that we 
had confidence in the Proton. So far, ever since they had that 
Proton failure, so far they have had two successful launches. 
One occurred last weekend. There will probably be another 
launch of what they call the Phase 1, where they put special 
filters in to prevent contamination in the engine. And then in 
May and June, we will have launch of the Phase 2 engines where 
they built the engines to be more robust and have a higher 
operating temperature capability.
    With the successful launch of those two Protons, we will 
then be ready to launch sometime between July 8th and July 14th 
of this year. So they are moving along exactly doing what they 
said they would do.

                           component problems

    Mr. Mollohan. Have you been experiencing problems with any 
components?
    Mr. Goldin. In fact, our people got back from Russia, and 
they told us they were overwhelmed with the quantity of 
hardware that the Russians use in their propulsion testing and, 
in fact, indicated envy that they wished we could have that 
kind of quantity of hardware here. We have learned some things 
from the Russians and how they do things. So far we do not see 
any problems with their hardware.
    Mr. Mollohan. I actually was talking about our hardware, 
U.S. components.
    Mr. Goldin. U.S. components are in good shape. We had a 
problem with a DC to DC power converter, and we were concerned 
that that would cause some significant schedule delays. We 
found the root cause of that problem. We are fixing it, and we 
are on track. That was the only significant problem that was 
looming over us, and right now, as far as I know, we have no 
significant problems with the Phase 2 hardware or software.

                         international partners

    Mr. Mollohan. Good. We hear a lot about the role of Russia 
in the Space Station, and we may sometimes forget that there 
are numerous other international partners in this endeavor. 
Would you please briefly summarize who those partners are, what 
they are contributing, and the status of their efforts?
    Mr. Goldin. We have an incredible set of partners on the 
Station, and the Europeans, the Japanese, and the Canadians 
have been doing incredible work. But the intensityof focus 
hasn't been on the great things that are happening. It is on the 
problem areas, which is the rightful way to do it. But the Europeans 
are building the Columbus module, which is a very large, significant 
laboratory. It is on track and it looks like the hardware and software 
is in good shape.
    They are also building the Ariane transfer vehicle, which 
is designed to give us another way of getting up to the Space 
Station to complement the shuttle and the Russian vehicles. 
That also is on track and moving forward.
    There is a whole host of hardware like refrigerators and 
Multiple Payload Logistic Module (MPLM). We have multi-purpose 
logistics module. The Europeans and the Italians are supplying 
three of them, and this is a way of getting cargo and other 
materials up to the Station. They have delivered two of them, 
and the third one is on its way. So the Europeans are right on 
track.
    The Canadians are building a very significant robot arm 
that literally has the capability of picking up payloads and 
moving it around the Space Station. But it doesn't stay in one 
place. It is almost like science fiction. This arm, which is 
about 50 feet, is able to walk right across the Space Station. 
It also will have an SPDM, special dexterity--it is almost like 
a human hand. It has the capability of doing things that a 
human hand has. It is really cutting-edge technology, and the 
Canadians will be providing this.
    The actual robotic arm is all done, and now they are 
working on this dexterous manipulator, which kind of simulates 
a human hand. It is beginning to get into the field of what we 
call biomimetics where we mimic biology to be able to do 
things.
    The Japanese are building--I am having trouble with my 
acronyms--the Japanese module, the Japanese Experiment Module 
(JEM), which is similar to the European module except it has an 
outside deck where we could expose materials and do experiments 
in the space environment. They are developing another transfer 
vehicle that will give us alternate access to the Space 
Station, and they are developing a centrifuge experiment which 
we will be installing in the Station to do a lot of life and 
microgravity science.
    All these activities are on schedule, and it is just 
wonderful working with this international partnership. It is a 
major learning experience for America to have to integrate this 
worldwide project, and we are beginning to learn about each 
other, and our people have grown enormously. And I think this 
in the long run is going to help America as we deal in complex 
systems in the global economy, the learning experience of 
managing such an activity.

                 international partners major problems

    Mr. Mollohan. Are there any major problems associated with 
the development by the international partners other than 
Russia, of their particular projects?
    Mr. Goldin. I don't know about any significant--oh, we left 
out the Brazilians. The Brazilians are building some logistics 
equipment in cooperation with American companies that are under 
contract to them.
    No, I don't know of any significant problems. I don't want 
to call it ``problems.'' The issue that we have to deal with is 
how do you bring a team of 15 countries together and have 
everybody working in sequence where we maintain the important 
things to each of the nations. You know, there are technologies 
we have got to protect. There are national positions we have to 
protect. There is constant change of governments, new 
ministers, new heads of agencies, and maintain a core that we 
always keep our eye focused on doing the task. And I am very 
proud of this NASA team and our international partners. They 
are doing that very well, but each and every day we have a new 
challenge.
    Mr. Mollohan. Thank you, Mr. Goldin.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. We will go to the other members of 
the Subcommittee.
    Mr. Knollenberg.

                         successes and failures

    Mr. Knollenberg. Mr. Goldin, welcome this morning. Good to 
see you again, and I will just comment very briefly. I 
recognize that it has been a year that has had some 
frustrations. There have been successes. There have been 
failures. But I don't think--I can't speak for the entire 
committee, but I don't think any of us want you to do anything 
but succeed in some of the things you discussed this morning 
briefly. You indicate that you are moving in the direction that 
I think most of us would applaud.

                  u.s. global change research program

    Let me get into a couple of areas where I am a little gray 
on, a little bleary on, so I would like to have your help in 
terms of the issue, first of all, which is earth science. And 
everybody knows that NASA is a research agency, spends a great 
deal of time looking at outer space, but many people don't 
realize that this agency spends a considerable amount of time 
looking at our Earth. And one of your major divisions is the 
Earth Science Division, which is the function of trying to 
better understand the dynamics, the environmental dynamics of 
our planet.
    What I am concerned about--and it is a concern that maybe 
you can alleviate--you obviously are familiar with the U.S. 
Global Change Research Program, the USGCRP. Your agency has 
responsibility for over, I think, about 60 percent. And what I 
am interested in--and, by the way, it is a multi-agency 
coalition which studies the climate. And since your agency does 
the bulk of the work, you have the unique advantage of being 
able to look at the Earth from space.
    Needless to say, I have some concerns about the fact that 
your fiscal year 2001 budget reduces by $38 million the amount 
from the space-based observations category. What is the reason 
for that reduction?
    Mr. Goldin. We are in the process of taking a look at the 
next generation of Earth-observing systems. But before I say 
that, I would like to provide some context to your statement 
about USGCRP. It is very important to understand we are a 
research agency and we don't make policy. We try and get----
    Mr. Knollenberg. And that is exactly the heart of my 
question, because what concerns me a little bit--you just 
touched on it. I don't want to interrupt here, but I look at 
page 16--and I recognize you don't make policy, but if you look 
at the strategy for achieving those goals that was brought into 
the picture--and it is on 16 of your particular report--there 
is one concern that I have. When I read this, it says, ``The 
selection of scientific priorities and data products responds 
directly to the USGCRP global change science priorities.'' And 
it suggests that maybe the direction is coming down from above 
and that NASA really isn't independent.
    I heard you say just a moment ago that we shouldn't be 
prescriptive about NASA, and I respect that; we should give the 
NASA workforce the freedom to work, to develop. And you have 
done that, I believe, and so my concern is so long as they have 
that responsibility and that independence, fine, but if you 
would, respond to that in that context.
    Mr. Goldin. I thought that was the issue you----
    Mr. Knollenberg. And I may have interrupted you needlessly, 
but I just wanted to make sure.
    Mr. Goldin. No, no, no. That is good clarification.
    We participate in the USGCRP in looking at what are the 
scientific challenges that we need to address. But we don't 
take direction. We work with them, and if we believe it is the 
right objective, we then go ahead and do it.
    What we don't do--we provide the results of that science to 
the entire community. In fact, we put it on the Internet. 
Policy is then take up by the USGCRP and others, but we do not 
make policy. We provide the scientific input. And, in fact, we 
do peer review. We have people on both sides of the issues. For 
example, Dr. Hansen at our Goddard Institute for Space Studies 
in New York is on one side, and Drs. Spencer and Christy in 
Alabama are on the opposite side of the issue.
    We believe it is very important to fund in open competition 
all ideas that are meritorious. So we try and have this 
competition for ideas so all the facts are out there so 
policymakers can then make decisions.
    Mr. Knollenberg. Responding to the US--I get tangled on 
this one--USGCRP.
    Mr. Goldin. Yes, we have a lot of these acronyms.
    Mr. Knollenberg. By the way, that organization has been 
around since 1988, I know, but only of late has it really begun 
to look for money. And I am concerned--my concern is not that 
you provide information back to them, but are you taking 
direction from them? Because it would occur to me that that is 
not NASA's role as an independent agency. They should be 
independent, and the concern I have goes beyond this. It goes 
to the heart of is any activity, is any money being spent to 
implement the Kyoto Protocol within the framework? And I see 
somebody shaking their head back there. I am glad to hear that, 
or see that. But we have had agencies, very honestly, that are 
spending money by sending people to Europe, to various 
symposiums around the country, that quite honestly violates, in 
my judgment, the prohibition on spending for this purpose that 
is in not just this bill but in six other--five other bills, 
appropriations bills.
    So I want to make sure that what you are doing is 
independent of any direction from above, because you should 
have that freedom. There should be sound science that you base 
your activities on and, yes, respond to them, but do they 
respond to you and say this is what we want you to do?
    Mr. Goldin. NASA has no investment in implementing the 
Kyoto Protocol. We do basic research that helps people 
understand what are the forcings to our climate, how do you 
make better climate and weather predictions, how do you use 
space and aircraft resources to better understand our planet. 
That is what we do.
    Mr. Knollenberg. Is the sun a part of that, by the way? I 
saw these pictures. I guess they are up there for a reason.
    Mr. Goldin. You bet. I am glad you asked the question.
    Mr. Knollenberg. That is something I am very interested in, 
and obviously, I am sure you are, too.
    Mr. Goldin. But there is one--before I get to the sun, 
there is one other point I want to make. We go to the National 
Academy of Sciences and ask them to review what we are doing. 
They openly review it and openly put out reports on the quality 
of work we do and the direction of work that we do.
    I was about to answer the issue in our budget. Most of the 
other budgets went up. Earth science did not. It did not 
because we made a decision with the administration that we are 
in the process of launching almost 30 spacecraft in the next 3 
years. That is the first phase of the Earth observation system.
    Mr. Knollenberg. How many this year, how many next year, 
and how many in the third year?
    Mr. Goldin. I think about eight this year. We had four or 
five last year. And we will have 30 up. And before we go put 
additional money in the budget so we will just be spending 
money instead of thinking about it, we have asked our Earth 
Science Enterprise, cooperatively with the administration, to 
take a pause for a year and to take a look at the strategy of 
what are the measurements we ought to make in the second 
generation of Earth observation systems. And then we are going 
to work with the National Academy and ask them to review it. We 
will then come back to the administration after we have an 
independent assessment by the National Academy and then propose 
where the budget ought to go.
    So we are taking a prudent pause because we want to have 
that outside review of what we are doing, and I want you--I 
hope this helps understand the process that we use.

                              terra launch

    Mr. Knollenberg. This may be a little early, but I know 
that Terra was just launched, I think in December. Maybe it is 
early. But maybe you have some data from that. Could you share 
that with us? Or is it too early?
    Mr. Knollenberg. Your name sir?
    Dr. Asrar. Ghassem Asrar.
    Mr. Goldin. Do you want to talk into the microphone, 
Ghassem?
    Dr. Asrar. Good morning. Thank you for the question. Yes, 
Terra is working flawlessly. It is in the same orbit with 
Landsat-7. They are flying in tandem. We can basically bring 
the two spacecraft together and view the same area of the Earth 
by using both spacecraft. That is why it took a bit longer to 
get into the right orbit.
    We have acquired the first set of images, close to 10 
terbytes of information. The scientists want to make sure that 
the results are really checked out properly and verify the 
results before they make them available. Currently we have 
scheduled a science briefing in the middle of April, but the 
first set of engineering results, images, are available on the 
Web.
    Mr. Knollenberg. On the Web.
    Dr. Asrar. Yes.
    Mr. Knollenberg. The Administrator said that. And I don't 
know how much time I have, Mr. Chairman, but I know that we are 
getting close, and I did want to hear your comments, and it may 
have to be reserved for later on the issue of the sun as it 
respects this issue.
    Let mejust get very quickly----

                           living with A Star

    I am glad to hear you say--I think I heard you say that 
science determines your course, not the administration or not 
somebody on high. And----
    Mr. Goldin. We are driven----
    Mr. Knollenberg. That is my question.
    Mr. Goldin [continuing]. By scientific questions. We are 
not driven by preconceived notions.
    Mr. Knollenberg. That is pointed and that is good, period.
    Could you briefly--or would it be appropriate to wait until 
later? Because I would rather hear the story on the sun and the 
recent view of the sun being responsible for climate.
    Mr. Goldin. Well, I could do this in 2 minutes.
    Mr. Knollenberg. Fair enough. Go ahead.
    Mr. Goldin. We proposed a program called Living with a 
Star. Our sun is a magnetically variable system. A few tenths 
of one percent change in the energy coming from the sun could 
have a huge impact on our climate. This is one of the areas we 
want to understand because if we could understand and predict 
the variability of the sun and correlate it with our 
environment, we will get at one of the major forcings that 
drive climate and weather.
    The second forcing is what the human species is doing, and 
the third is the natural forces here on our own planet, like 
volcanoes and the huge biomass that we have.
    This program, the sun right now--the sun puts out enormous 
bursts of energy at different times that could shut down power 
systems. We have brownouts and blackouts. It could shut down 
the paging systems on spacecraft. It could impact our national 
defense systems. And it could represent a danger if we send 
astronauts to Mars.
    So we started this program called Living with a Star to 
understand our sun. Right now the best warning we have is about 
an hour. In the limit, we hope to be able to understand this to 
get as much as a 2-week warning on solar events, so-called 
coronal mass ejections. There is an enormous amount of material 
that comes out. We have just recently seen the back side of the 
sun, but we are going to put spacecraft to look at the top, the 
bottom, and have a set of solar sentinels to better understand 
our sun because it is one of the biggest driving forces on life 
on this planet.
    Mr. Knollenberg. How long have you been into this program 
investigating the sun?
    Mr. Goldin. Oh, we have been looking at it for decades, but 
this is----
    Mr. Knollenberg. Concentrated now, though, right?
    Mr. Goldin. This will be concentrated. We intend to have a 
multi-agency effort. The Department of Defense is very 
interested. The Department of Energy is interested, the 
National Science Foundation, and NOAA, National Oceanographic 
and Atmospheric Administration, and our international partners.
    Mr. Knollenberg. My time has expired. I appreciate your 
response, Mr. Goldin.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Cramer.

                              nasa budget

    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome back to the committee, Mr. Goldin. I have had the 
opportunity to exchange information with you for the length of 
time that you have been NASA Administrator, and that has been 
forever.
    Mr. Goldin. Please, please. [Laughter.]
    Mr. Cramer. We have been through a lot of ups and downs, 
and I want to talk to you about your budget this year. We have 
the opportunity to finally have an increase in NASA's budget, 
the first increase in 7 years, but it will be a challenge for 
us to hold the administration's figures.
    I think one of the primary challenges that NASA is facing 
is reducing the cost of access to space, and this budget, if we 
can maintain this budget, meets that challenge head on. It 
provides an increase in funding for the second and third 
generation launch technologies.
    But I want you to talk to the committee about the 
consequences of another flat budget, if we aren't able to don't 
maintain this level of increase, and especially address the 
impact that a flat budget would have on your employees. I am 
concerned with the Marshall Space Flight Center in my district. 
We have a low unemployment rate, and we have got defense 
contractors and the private sector aggressively competing for 
employees. And I just think Marshall is going to lose some of 
those employees if we endure another year of flat budgets. 
Could you discuss that with us?
    Mr. Goldin. Sure. First let me deal with the technical 
issues. This is the number one development priority for this 
agency. Our priorities are fly the shuttle safely. So the first 
thing we will protect is the shuttle budget and the shuttle 
upgrades. Our number two priority is complete construction of 
the Space Station. Our number three priority is have a 
revolution that will improve the safety and cut the cost of 
access to space. We are dealing with 40- and 50-year-old 
technology today.
    So this budget, if the budget is flat or cut, this would 
probably be the first program to go. And we will have to have 
delays or cancellations. And certainly it would also impact our 
science program.
    It is essential technology. We cannot go on--the space 
shuttle is a wonderful machine. We have a reliability of 
something like one part in 250 or 300 as a probability of 
losing that shuttle. If you go into air combat training, I am 
told by some of my friends in the military, the probability is 
one in 20,000 that you will have--probability for loss of life. 
And if you fly on a commercial airline, it is one in 2 million.
    If we are going to have a space-faring Nation, we cannot 
have this situation. We make the shuttle as safe as possible, 
and we try and address things. But we need a revolution before 
we try and send people into space on a routine basis.
    We also are spending much too much money in our budget on 
access to space, and that is the other reason we want to have 
this initiative. It is crucial for American leadership in the 
world, in the 21st century, not just for space science but for 
commerce and for defense of the Nation. We are working together 
with the Department of Defense on this initiative. We are 
providing national leadership on reusable launch vehicles.
    So this is absolutely essential, but as essential as itis, 
if we get this budget cut again, we are going to lose it, at least for 
this next year.
    Secondly, with regard to the second question you asked, I 
would like to thank you for asking it because we have to 
compete with the dotcom companies. I have talked to presidents 
of major universities who told me their students in computer 
science and engineering are now getting unbelievable offers, 
not just with high salaries but with equity, and people in 
their mid-20s are becoming millionaires. In Silicon Valley, I 
am told that every day there are 65 new millionaires. Sixty-
five. There are a large number of billionaires.
    Now--what?
    Mr. Knollenberg. I just said that yesterday they might have 
dipped.
    Mr. Goldin. They are going to come back. [Laughter.]
    But NASA has something special, and people want to come to 
work at NASA. But when these brilliant young people--and we are 
out hiring them now--see the gyrations in the budget, they get 
a very negative message.
    Now, I understand the pressures in running the United 
States Government, but we have to deal with this day in and day 
out. And forget about the programs. My major plea is, at a time 
when we are going to be hiring almost 2,000 people in the next 
2 years, you are going to take a bucket of cold water and send 
such a chill on--we want top in the class from the top 
universities. We want the most brilliant people with post-docs 
and Ph.D.s and master's degrees. They are going to want to come 
to NASA for the vision, but there will be no vision with the 
gyrations that we see in the budget.
    Now, I understand no one is to blame, but this is a very 
core issue. I am very worried about it.

                            reinventing nasa

    Mr. Cramer. Mr. Goldin, you have had your work cut out for 
you during the faster, better, cheaper days of reinventing 
NASA, and faster, better, cheaper occasionally scares me 
because it sounds like we may have to sacrifice something in 
reinventing NASA. But I want to tell you, on behalf of the 
Marshall Space Flight Center, Joe Rothenberg has been a breath 
of fresh air. As the field centers have tried to redefine their 
roles, their missions during this faster, better, cheaper era, 
it has been very difficult for us to understand who is 
responsible for what. And I think we have come a long, long way 
with regard to those issues.
    Do you anticipate any further redefinition of roles and 
missions for any of the space centers?
    Mr. Goldin. First let me say that sometimes you got to do 
what you got to do. I don't like to be the bad guy. But the 
American public went to the polls in 1992 and 1994 and 1996 and 
said they want Government that does more and costs less. And we 
had to do some very difficult things. I didn't want to do it, 
but I put my hand on the Bible in the Oval Office and committed 
that I would do it. I didn't take this job to win a popularity 
contest.
    Our NASA budget has come down over 7 years while defense 
and other domestic spending has gone up. I am proud of that. 
Now, we have pushed the limits, and we have found--we said we 
would monitor as we came down, and when we came to a barrier, 
we would stop and fix it. But if we didn't push the limits and 
if people weren't in their areas of discomfort, we would have 
been stuck with the old ways. So, in that sense, I can't 
apologize and I will not.
    Now, I feel bad that people felt a level of stress and 
discomfort. But that is the way the world is.
    Saying that, I believe we are at the right level now, and, 
in fact, we are fixing it a bit. But, still, we are down 6,600 
people out of 25,000. We are going to staff back, but certainly 
not to where we were. We are at a level of stability. I have 
asked for this stability and, in fact, this modest increase 
over the next few years. That is what is essential to maintain 
it. We intend to make no significant role changes if we could 
maintain the budget that the President has proposed.
    Mr. Cramer. In the limited amount of time that I have left, 
I would like you to talk about propulsion research 
infrastructure. Did you have something else you wanted to add?
    Mr. Goldin. Yes, there was something else. There is one 
issue that Malcolm just pointed out to me.
    The Glenn Research Center has been hit hard by the change 
in direction in our aviation program, in our aircraft program, 
and we will be working with the director of the Glenn Center on 
their role and mission. Art Stephenson, the Director of NASA 
Marshall, will be working with Joe Rothenberg and Sam Venneri 
to assure that the core competencies that are at Marshall and 
Glenn are maintained and that they work together as a unit, not 
as two feuding warlords. That has been very, very stressful, 
and we intend to assure that that does not go on. So that is 
the one exception.
    Mr. Cramer. I am very familiar with that issue and other 
issues about the feuds that have occurred between the centers.
    Mr. Goldin. They are good people.

                          propulsion research

    Mr. Cramer. And we also thank you for Art Stephenson. He 
has done a terrific job there.
    Mr. Chairman, am I out of time? I have one additional 
question about propulsion research infrastructure, could you 
comment about where we are there?
    Mr. Goldin. We have to take a good, hard look at the 
necessary infrastructure as part of this very broad, integrated 
space propulsion technology program. We have found where we put 
in a center of excellence, and instead of distributing a 
capability across many, many centers that is mediocre, if we 
make the investment and put in a world-class center, we have 
the contractors and the Government agencies coming to that 
place. I believe we are going to have to take some significant 
steps in this infrastructure, and we are working with Art 
Stephenson and Joe Rothenberg and Sam Venneri and the other 
center directors and the Department of Defense to make sure 
that we have the right infrastructure in place, because without 
that infrastructure we will never achieve the vision.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Bud.
    Mr. Frelinghuysen.

                             astronaut team

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Goldin, good morning, and thank you for the work you 
do. First of all, let me thank you for arranging the visit of 
astronaut Rick Husband to my congressional district. His visit 
generated a lot of excitement among students of all ages. I 
know it would be unforgivable to suggest we would endorse human 
cloning, but I would like to see----
    Mr. Goldin. Please don't.
    Mr. Frelinghuysen. I won't. [Laughter.]
    Mr. Frelinghuysen. And I wouldn't have you do that, but the 
men and women you have in your astronaut team, if he is any 
indication, are absolutely superb. They are wonderful 
ambassadors, and they really tell a story in a very personal 
way. It would be nice to see them spread out across the Nation 
doing that type of work, but obviously, their primary 
obligation is to you and your administration. But on behalf of 
my constituents, thank you for that visit.

               space shuttle independent assessment team

    I do have some specific questions. Most particularly, I 
know that Mr. Rothenberg is behind you. You said in your 
comments here, in September 1999, Mr. Rothenberg, your 
Associate Administrator for Space Flight, charted a Space 
Shuttle Independent Assessment Team. What specifically spurred 
the charter of this team?
    Mr. Goldin. There are a couple of issues----
    Mr. Frelinghuysen. I would appreciate, as you can, brevity 
because I have a number of areas I would like to go to.
    Mr. Goldin. The anomalies on STS-93. We had a short that 
caused what could have been a potentially serious problem, and 
we had some injector pins come out of the rocket engine and hit 
the side wall of the nozzle. Those two things were enough to 
say we have some problems, let's find out if it is any deeper 
than what we just saw.
    Mr. Frelinghuysen. When you say independent as part of the 
title of the team, I assume most of your reviews are 
independent in the sense that you want absolutely to have the 
facts, because this obviously involves major investments in 
human life.
    Mr. Goldin. You bet. And, in fact, if you read the report, 
if that report doesn't look independent to you, nothing does. 
It was very tough, very hard-hitting, and to be quite candid, 
some of our people were really----
    Mr. Frelinghuysen. I commend you for the report. I am an 
inveterate clipper, and I have clipped a lot of NASA articles 
over the years, That obviously was one that a lot of my 
constituents read and I think will be interested in seeing how 
you are going to react to those recommendations.
    Just for the record, your workforce has dropped from, I 
think, 25,000 to 17,500 in the last 6 years. Is that correct?
    Mr. Goldin. I think it has dropped to about 18,000 and a 
few hundred. We were going to go to 17,500, but after we took a 
look at the recommendations the Aerospace Safety Advisory Panel 
made, this Shuttle Independent Assessment Team, the core 
capabilities that Joe Rothenberg and the other enterprise heads 
did, we decided to hold our staffing at the 1999 levels and not 
come down that curve and, in fact, go out and hire about 2,000 
people. So our staff is going to end up at something like about 
18,500 or 18,600.
    Mr. Frelinghuysen. Is that what you consider the ideal 
workforce, or are you planning to look for increases?
    Mr. Goldin. We think that that is the right level at this 
point in time. We are going to monitor it. But when we hire 
people--I want to make an additional point. Traditionally, in 
Government, you go out and hire long-term civil servants. We 
want to be a little bit more creative because this is a new 
economy. We are going to look for term employees, people who 
get out of college with a post-doctoral degree and are expert 
in their field, and we will look to them to come to NASA for 2 
or 3 years as a term assignment, learn from us, we learn from 
them, they bring new skills, and then hire a new set of people.
    I think this will be a new trend in Government, and we will 
be more in line with how the high-tech industry works. People 
no longer come to jobs for 30 and 40 years. Now, clearly----

                          institutional memory

    Mr. Frelinghuysen. Though that is a strategy that you may 
have to implement because people won't stay longer because of 
salaries, better salaries in the private sector. What about the 
issue of institutional memory? I mean, that is one of the 
things that we recognize as pretty important.
    Mr. Goldin. We are hiring a balance between long-term 
permanent civil servants and term employees. And I have asked 
our head of Human Relations to work with our enterprise heads 
to get the right mix of those two groups of people.
    Clearly, you need corporate memory, but the point I was 
making is we are not going to go 100 percent long-term civil 
servants. We want to get the right mix.

                       hiring versus investments

    Mr. Frelinghuysen. With the new money, what would you say 
would be the proportion between the hiring of new personnel and 
additional expenditures on new technology, some of which you 
have described in your opening comments? What would be the 
split of the money? The new money, how would you spend it 
between hiring versus investments in new platforms and 
technology?
    Mr. Goldin. The hiring will be measured in terms of a few 
hundred million dollars, and the investment in new platforms 
will be measured in billions.

                  american money for weapons programs

    Mr. Frelinghuysen. That is fair enough.
    Changing the subject briefly, you are aware that yesterday 
the President signed a bill which would stop putting American 
money into the International Space Station if Russian firms are 
found to have helped Iran's weapons programs, weapons of mass 
destruction. From what I can gather from today's paper--and 
this is perhaps a fairly good summary, and I quote from Fort 
Worth: ``The legislation bars extraordinary payments to 
Russia's space agency for the Space Station unless the United 
States confirms that Russia has not transferred missile 
technology or nuclear, chemical, or biological weapons to Iran 
during the previous year. The Clinton administration had 
proposed paying $650 million beyond the original amount pledged 
for Russia's space station.''
    Do you have a reaction to that legislation? And does it do 
anything to change your relationship with our Russian partners?
    Mr. Goldin. First let me say, as an American, I obey the 
law of the land, and we at NASA will obey the law of the land.
    Secondly, I would like to say that legislation came into 
being because the Space Station was the lever for that 
legislation, as compared to anything else going on with Russia, 
because there were errors in the press about the $650 million. 
It never existed, and somehow it made it into the press. Our 
intention was to invest no more than $100 million with Russia.
    The activities the United States has with Russia are 
measured in billions. This is $100 million that we were talking 
about, and at the present time, all we are talking about is $35 
million.
    Saying that, clearly--and the third thing I would like to 
say is Russia is a valued partner in the International Space 
Station. We have clearly indicated to the RussianSpace Agency 
that adherence to international standards relative to nonproliferation 
of weapons is essential. They have worked very hard on this issue. I am 
not in the national security community, but we certainly do talk to 
them and track it.
    I will say that the Russians were very stunned when that 
came out, especially the head of the Russian Space Agency, who, 
from my knowledge, has worked very hard to prevent 
proliferation. He is taking this very, very hard. He is taking 
it as a statement about his agency, and it has caused some 
significant stress between our people and their people.
    We will continue to work with them. We will continue to 
live within the letter of the law. We will not violate the law. 
But we have just increased the degree of difficulty of building 
this International Space Station.
    Mr. Frelinghuysen. I am one who feels that we absolutely 
should be working with Russia as partners. We need to know what 
they are doing. We need to gain their confidence. But at times, 
there is not a lot of transparency in some of our other 
relationships with Russia. But you seem to have set up a pretty 
good relationship with your Russian counterpart.

                         de-orbiting of the mir

    In the time I have left, last year we had quite a lot of 
discussion about the de-orbiting of the Mir. You testified--and 
I made some pretty good notes here--and I quote: ``We believe 
it will come down in August'', quote-unquote. Now Russia may be 
diverting equipment intended for the Space Station, some 
suggest, to maintain the Mir. Do you think that Russia can both 
afford keeping up the Mir and its commitment to the 
International Space Station?
    Mr. Goldin. First, let me say that Russia is a sovereign 
nation and they have to make their own decisions about their 
own resources. But as a sovereign nation, they have to meet 
international commitments that they have signed up to. If they 
choose to keep the Mir up, that is their decision. But it is 
our position that they have to fund the International Space 
Station as a priority. I made it very clear that----
    Mr. Frelinghuysen. Well, are they meeting their timetable 
and their obligations? I mean you were somewhat telling the 
Committee last year that this thing was coming down. It seems 
sort of like the Energizer Bunny, it never stops, it just keeps 
going. But from our standpoint----
    Mr. Goldin. I was shocked that they decided to keep it up. 
Right now, they appear to have the resources in this year to do 
both tasks. We sent a team over to Russia and they just 
reported out to me last night that the Russians have adequate 
Progress vehicles, Soyuz vehicles, to carry through this year 
and they have adequate resources to get the service module 
launched.
    So, for the time being, we believe it is okay. I am not so 
sanguine about 2001 and will continue to work with them on this 
issue.
    Mr. Frelinghuysen. So, you wouldn't subscribe to the notion 
that somehow as a country we are bailing them out of their 
obligations?
    Mr. Goldin. I do not believe that we are bailing the 
Russians out.

                             service module

    Mr. Frelinghuysen. Is NASA requesting $35 million to give 
Russia for equipment that would allow the American-built backup 
service module to dock with the Space Station's main control 
module?
    And, is it the cheapest and fastest way to do it?
    Mr. Goldin. We are building what is called an interim 
control module which will keep the Space Station up in the 
event that the service module is lost on launch. We are also 
building a propulsion module that will make the Space Station 
even more robust over the years. We need to have certain 
equipment to hook up to Russian elements already up there. For 
us to do it ourselves would be almost impossible and cost a 
huge amount of money. And $14 million is a very modest price to 
pay to get this equipment. We believe it is essential to the 
safety of the Station.

                           payments to russia

    Mr. Frelinghuysen. Thank you.
    And, for the record, Mr. Chairman, could we get a copy of 
that audit report that the Administrator offered to give us 
relative to our payments ascertaining whether or not they have 
gone for the proper purposes? If we could just get that for the 
record?
    Mr. Goldin. Mr. Chairman, could I just add one thought 
here?
    Mr. Walsh. Certainly.
    Mr. Goldin. Mr. Frelinghuysen, I just want to give you a 
sense to how open the Russians are with us. When they had the 
Proton failure they invited us into their laboratories and 
showed us things we would never show them about our rockets. 
They wanted to make sure that we knew every, single thing about 
that rocket. We have audited them on numerous occasions. We 
even audited--there was a story in the paper about Biopreparat 
and the possibility that NASA funds were diverted to do 
chemical and germ warfare. I will also submit that report for 
the record, too.
    Mr. Frelinghuysen. Well, the reason I asked you, I sit on 
the Energy and Water Committee and the DOE does quite a lot of 
work in terms of tracking, you know, fissile material. And we 
visited some of these closed cities or formerly closed cities--
they might as well be closed, because they still are closed in 
some respects--and there is not a lot of transparency in terms 
of our working relationship with that Federal agency. There 
appears to be a lot more in yourcase.
    Mr. Goldin. Yes. There is a lot more transparency so you 
can understand the frustration on the Russian side. But saying 
that, we will support the law of the land of the United States 
of America.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Walsh. So, you will provide that audit to the 
Committee?
    Mr. Goldin. Absolutely. We will provide both audit reports.
    Mr. Walsh. Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           personnel at nasa

    Mr. Walsh. Mr. Goode?
    Mr. Goode. Thank you, Mr. Chairman.
    Mr. Goldin, you said, I believe, previously, that your 
number of employees at NASA were 25,000 and you cut back 6,000, 
or so, you have got about 19,000; is that ball park?
    Mr. Goldin. We will go out 2001 with 18,700.
    Mr. Goode. Now, out of your budget, what percentage or how 
much is your personnel costs? Just ball park?
    Mr. Goldin. About $1.4 billion.
    Mr. Goode. And then how much is direct expenditures by NASA 
that is not contracted out?
    Mr. Goldin. I think 90 percent of our budget is contracted 
out. We do a very large percentage of our budget, it is very 
high relative to other agencies.

                            rocket suppliers

    Mr. Goode. And the Chairman asked you--or you were 
commenting on distinguishing between those firms that you deal 
with that have large rocket capacity and, I think, he referred 
to them as 300-pound gorillas. How many firms like that are 
there?
    Mr. Goldin. Two.
    Mr. Goode. Two. All right. And then you have got nine small 
ones that you are working with to try to get them in the ball 
game with the other two; is that correct?
    Mr. Goldin. It is going to be a tough job but we are 
absolutely committed to doing that and I think it will 
strengthen the two big rocket suppliers. There is--you know, 
capitalism teaches you that competition is good. And with 
additional competition I believe these big companies will 
perform better.
    Mr. Goode. Let me ask you this: Who all do the big two, 
what nations do they sell to besides us or do they just sell to 
us?
    Mr. Goldin. No. They sell rockets in Europe, they sell 
rockets in Asia.
    Mr. Goode. To China?
    Mr. Goldin. I don't know. I don't know where they are at 
this point in time in selling rockets to China.
    I do know that they had sold them in the past and given the 
latest set of issues, I don't know what the sales of rockets to 
China are at this point in time.
    Mr. Goode. If you ramp up these other nine, do you think in 
the world of capitalism and free markets that they will be 
selling to China?
    Mr. Goldin. I am not touching that with a 10-foot pole. 
[Laughter.]
    Mr. Goode. Well, let me ask you, do you think that it is a 
good idea that we get more firms up to the 300-pound gorilla 
level so that other nations, besides China, maybe Iran would 
want to buy something from them, some rockets and launch 
vehicles?
    Mr. Goldin. I think that these questions need to be asked 
of the foreign policy community. We do R&D and we want to make 
America as strong as possible. We want to support the 
Department of Defense and their needs, we want to support the 
commercial launch industry and their needs, and we want to 
support our scientific needs. How the licensing becomes 
established on selling to nations that are not friendly to the 
United States is something that we at NASA cannot and should 
not deal with.
    Mr. Goode. Well, I am not saying that you should but if you 
ramp up nine more companies to get into the ball game--and that 
is certainly good as long as they are dealing and playing with 
us and helping us, but I don't know if that is a good idea if 
they are going to be in the free market buying and selling to 
some of the other nations of the world.
    Mr. Goldin. Let me answer it this way. A few hundred years 
ago there were the Luddites that did not want progress to 
proceed in industry and manufacturing. And they wanted to stop 
the forward motion of technology. If we, in America, say we are 
afraid of the possibilities of these companies lobbying to sell 
to non-friendly nations, we are going to put America in a very 
bad place with national defense, we are going to put them in a 
bad place with commerce, with a broad range of very good 
countries and corporations and we will slow down our leadership 
in space.
    I am a strong proponent for moving forward with technology 
and I believe if you talk to my associates in the defense 
community they will strongly support it. We will give up the 
worldwide leadership that we have in projection of power and 
the projection of economic strength and that is why I say we 
got to move forward with technology and the national security 
community has to make those selective decisions about where it 
is appropriate to sell and not to sell.
    But let me point out that I just read in the newspaper that 
the Israelis are selling 1-meter reconnaissance technology to 
South Korea. And if we, as a nation, say, we are going to walk 
off the playing field and hold everything tight, technologies 
are going to go from other countries that we have no control 
over. When America sells and we have some control, we can 
project our influence. So, just because we shut the faucet off 
in America, that won't stop the progression of technology in 
other countries and as I say, this is an issue that we, in 
America, have to think about, we can't walk away from.
    Mr. Goode. Well, I agree with you. I think technology will 
follow the money: don't you agree?
    Mr. Goldin. I believe that we have a nation of laws,we have 
a nation that is a democracy and this nation will always do the right 
thing. I believe in the vision of America. I am not afraid of the 
future.
    Mr. Goode. Thanks for your reply.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mrs. Northup.

                       commercial launch services

    Mrs. Northup. Thank you, Mr. Chairman.
    Other people have touched on some of this, but you hear all 
the time about what the private sector initiatives are and I 
just wondered if you could give me some idea of, you know, 
there are spins that say that the private sector is going to 
pass up what NASA is doing, that the abilities to get 
satellites up and operating. And you do get the feeling that 
there are far more of these launches than many of us 
understand. And I just wondered if you could give me some idea 
about the level of activity, both in the private sector, how 
much you all collaborate--and I don't mean collaborate by 
contracting, you all contracting for somebody to build your 
engine--but, for example, if XYZ corporation wants to get a 
satellite up in the air, do you all, do they come to you, do 
they go to anybody else?
    Mr. Goldin. Absolutely not. NASA is not in the business of 
commercial launch services. In fact, for our own launches, with 
the exception of the Shuttle, we buy them on the commercial 
market place. We buy services. NASA develops technologies for 
launch vehicles that we transfer to the private sector. We are 
not in the commercial launch business.
    It is our policy, if we could buy it commercially, if we 
could help commercial companies, we are not in the business of 
building rockets. One of the very high levels of stress--and I 
inferred it when I talked to Mr. Cramer--is that we are now in 
the process of transferring the Shuttle to a private sector 
company. There are many who believe--there are some who believe 
that only the U.S. Government can make the Shuttle safe. I 
don't proscribe to that. Now, we need to in a very focused 
manner, step-by-step, hand over the Shuttle to a private 
company. But NASA should not be in the business of operating 
normal vehicles that just take cargo and people up and down to 
space. We ought to be on the cutting edge of technology.
    You have to understand that there is a great level of 
anxiety. We need to make the Shuttle safe. But it will be the 
worst thing for our country to say only the Federal Government 
and only Federal employees are committed to safety.
    Mrs. Northup. Oh, I would never say that.
    Mr. Goldin. Well, there are people who do say that and some 
of my own subordinates say that.
    Mrs. Northup. People think that only public employees can 
teach, only public employees can do lots of things. I am really 
on the other side of that argument.
    Mr. Goldin. But our employees are terrific but they need to 
do cutting edge research.

                         cutting edge research

    Mrs. Northup. Well, let me ask you, are there companies 
that are as much or more on the cutting edge of research as 
NASA is? In other words, would there be, what is the 
possibility of a private space station going up?
    Mr. Goldin. Well, let me put it this way. The very minute 
there is a private station, NASA is out of the business.
    Mrs. Northup. But isn't that being discussed right now?
    Mr. Goldin. There has been talk about it for 20 years.
    Mrs. Northup. But nobody that is actually putting 
together--I thought there was somebody that was actually 
putting together an effort to do that.
    Mr. Goldin. Well, there are some American investors that 
are trying to convert Mir into a private space station.
    Mrs. Northup. I see.
    Mr. Goldin. But, again, let me make our policy very, very 
clear. NASA wants to go to Mars. We want to go to asteroids. We 
want to go to comets. We want to go to planets and moons of 
planets. And the very minute the private sector is ready to 
take over low-earth orbit, taking people up and down to low-
earth orbit, building space stations in low-earth orbit and 
they are able to demonstrate they could do it responsibly and 
safely, NASA is out of it.
    Mrs. Northup. Okay.
    Mr. Goldin. And a lot of people start a business by first 
attacking NASA and telling everyone how terrible we are and how 
we are dominating. My position is that we have outstanding 
employees that want to go to Mars, they don't want to go to 
low-earth orbit. Our employees are outstanding. They want to 
make sure the hand-over from the public sector to the private 
sector is safe and it is taking a little bit longer because the 
private sector companies don't have the right skills. But we 
trust them, we will take a little extra time, we will have a 
few more Government employees doing the quality inspections and 
all the other things, but it is our goal that within a decade 
we will have private sector companies taking cargo routinely up 
and down to the Space Station and hopefully they will be able 
to start taking people up and down.

                       regulation of space flight

    Mrs. Northup. Is there any regulation of that or should 
there be? Any, in terms of safety,--I mean, you know, we don't 
let planes take off and crash in the air. I am not talking to 
limit them, I am talking about to protect them, to enhance the 
system or is it--is space so big that we don't need to worry 
about two people running into each other?
    And that is not the only thing. But----
    Mr. Goldin. The Department of Transportation has the 
national responsibility for certification of vehicles, to take 
people and cargo to space and as time marches on--in fact, it 
is the FAA--I anticipate that just as we have the FAA 
overseeing aircraft flight, they will oversee the space flight 
and that is appropriate. NASA should not do it.
    Mrs. Northup. Okay.
    Mr. Goldin. But, again, I want to be sure you understand 
the intent of my question. I think that the NASA employees 
conscientiously want to hand over the Shuttle to a private 
sector company but they gave us feedback that we were going a 
little too fast and we didn't have the right staff level to 
oversee that transition. They want to work on the cutting edge.
    Mrs. Northup. I am not--I really wasn't questioning at all 
what NASA was doing to help or hurt it, I just wondered sort of 
what the level of competence is, in comparison, and how fast we 
might see privatization?
    Mr. Goldin. Well, I will give you another statistic. NASA 
is one of the smartest buyers of rockets in the world. Over the 
last 10 years, our record of success is four times better than 
the commercial purchases of rockets. So, as abuyer, we are such 
a smart buyer, we are able to help commercial companies do a better 
job.
    Mrs. Northup. Okay.

                      applications of technologies

    Mr. Walsh. Thank you.
    We will begin a second round. I would like to begin, 
Administrator Goldin, with some thoughts on the applications of 
some of the technologies that NASA has developed, specifically 
as they relate to municipal governments. I was a local 
government official, city council president, and I worked very 
closely, as most of us do, with towns, villages, State and 
local governments, and city governments. I am interested in 
leveraging NASA's assets, things that the taxpayers have 
already paid for, to help decision makers in State and local 
governments.
    There is a lot of discussion about Smart Growth and urban 
sprawl these days, land use, forest fires, weather forecasting, 
flood mapping, other natural disasters. What does NASA have or 
does NASA have a fully developed and proposed State and local 
applications program?
    Mr. Goldin. First, let me say I salute your focus on this 
issue. You know, Mr. Knollenberg asked me about what we are 
doing in earth sciences as it applies to climate prediction, 
weather prediction and things important to the population of 
the planet as a whole. But when the history books are written, 
I think one of the biggest impacts NASA will have on the 
quality of life is our ability to take this very high-tech, 
very advanced technology that is coming down from space in 
unbelievable quantities of data, process that data and make it 
available to cities, counties, States and the private sector.
    I don't think we are as aggressive as we could and should 
be in this area. We have a limited program right now and I 
think the 2001 budget has about $7 million for this 
collaboration. But when you take a look at 50 States in the 
nation, take a look at the number of cities we have, I don't 
think that this budget adequately gets at what needs to be 
done. Now, we have run some pilot programs in Arizona, we have 
run some pilot programs in Montana, we have run a pilot program 
in Syracuse, the results are breathtaking.
    Now, the question there is how do we encourage this public/
private partnership? If we just have total NASA funding, 100 
percent earmarked, I don't think it will get there. But, if we 
have a robust program where we ask for partnership, where we 
put in some funds, and there is some matching funds, because 
there are also has to be a value. If we are going to bring our 
space technology, we would like to see that people will make an 
investment to impact the constituents in their area.
    So, if there is matching funds and competition I think a 
robust program in this area would be just one of the greatest 
things that this agency could do and we would love to work with 
this Committee and the administration to make that happen.

            other government and private sector applications

    Mr. Walsh. I mentioned a number of applications. What other 
applications might we envision for use by the public sector?
    Mr. Goldin. Just something as simple as, in the Southwest, 
how do you calculate where you should put storm drains? And how 
much should you spend on storm drains? In Scottsdale, Arizona, 
they are saving millions of dollars so that they could design 
it just right for, you know, the worst case flood conditions. 
We are working with grape growers in Northern California to 
improve the quality of their grapes and to get much more 
efficiency out of it.
    We are working with cotton farmers in Mississippi to 
increase the productivity of those farms by 25 percent and cut 
their costs by 10 to 15 percent. The price of commodities is 
dropping worldwide and some countries are building up surpluses 
to control the prices and the U.S. cotton farmers are really 
getting hit bad. And if they are going to stay competitive they 
need to get their operating costs down and their productivity 
up.
    Mr. Walsh. So, you are discerning crop infestation, is that 
it, or moisture content?
    Mr. Goldin. Oh, a broad range of things. When do you lay 
down fertilizer? When do you lay down nutrients? When do you 
lay down pest control? When do you water? When do you leave it 
dry? There is a broad range of things that are very important 
to the operation. How do you put tractors and this equipment 
through a field without damaging crops? You have to sometimes 
look down 10 to 18 inches. How do you get low-cost sensors that 
literally cost dollars that could send a signal up to space and 
then bring it right back down to the ground and integrate that 
processing?
    These are the kinds of cutting edge technologies we use. 
So, when we go to Mars, we develop some of these sensors, we 
bring it back and we install it into the fields.
    Mr. Walsh. One of the best ways to resolve the argument 
that we hear right in this Subcommittee, where we have to 
trade-off expenditures on basic human needs like housing and 
medical care against raw basic science, is to show these 
applications and their benefit to humanity and to the 
structures that govern humanity. Especially at the closest 
level to the people, it is easier to win those arguments in the 
debate.
    Mr. Goldin. Well, I could tell you other things we are 
doing, we are tracking lyme disease.
    Mr. Walsh. Is that right?
    Mr. Goldin. We are tracking malaria. Yes. Vector-borne 
diseases are something we are working on. We are working with 
the National Institutes of Health and the National Science 
Foundation. From the height of space you could begin to 
fingerprint disease in places where malaria and the mosquitos 
that spread malaria might breed. So, we are now looking at 
those kinds of applications, too, that touch everybody.
    Mr. Walsh. This Subcommittee looks forward to working with 
you on those applications. I think there is tremendous 
opportunity for better governance and for a number of broad 
improvements we can make globally.

                           living with a star

    In the area of space science, NASA is about to start a new 
research initiative called, Living With a Star. I think that 
Mr. Knollenberg asked a little bit about that. Could you 
explain the program and the reason NASA is undertaking the 
initiative?
    Mr. Goldin. Yes. I begun to get at it but the sun is a very 
magnetically active star that has variability. So, there is a 
known cycle in sun spots, solar activity, that is about 11 
years. But every so often we have something called coronal mass 
ejections, just billions of tons of material gets thrown off 
from the sun and it travels through space and then it hits the 
earth and creates incredible, incredible damage. We need to 
understand it. We need to be able topredict it.
    We intend to put a series of space craft up over this next 
solar cycle, starting in 2006 to 2016, that will be the most 
comprehensive measurements ever of our own sun. And right now 
we have been looking at the sun from earth but we are going to 
put sentinels up that will look at the top of the sun, the 
bottom of the sun, go behind the sun. We will have sentinels 
with solar sails that will be tacking above the North and South 
Pole of the earth. This is really way out technology. We will 
integrate all this information----
    Mr. Walsh. Tacking, similar to sailboats?
    Mr. Goldin. It is as though it was a sailboat, right. It is 
a sail and it will be able to stay literally perched above the 
North and South Poles where there is a lot of interaction 
between the sun and the earth's magnetosphere. So, as we go 
over a full solar cycle, being able to look at the sun, the sun 
rotates, by understanding what happens on the back side of the 
sun we hope to extend it from hours to days to weeks in terms 
of the prediction to understand how the sun works and interacts 
with our planet.
    And as I told Mr. Knollenberg, a 10th percent change in 
solar energy has a significant impact on our climate. And 
another goal of NASA is to be able to predict climate globally, 
regionally, and locally, initially to months, to years, and 
then to decades. This data is absolutely essential for the kind 
of planning that has to go on in a global economy and to make 
decisions that could have economic impact.
    Getting back to cutting edge R&D, we intend to provide the 
data so policy makers could decide are the human species 
forcing changes in climate and it will be done on an open peer 
review basis. This is a very crucial aspect.
    And, finally, we are going to send astronauts to Mars. One 
of the most serious threats that those astronauts have is the 
incredible radiation damage that could occur while they are in 
space. An hour or two prediction is not good enough. We need 
days to weeks and then we could protect those astronauts.
    Mr. Walsh. This study of the sun will require collaboration 
from NSF, DoD, FAA, and NOAA. What resources are they willing 
to bring to this program?
    Mr. Goldin. We have been having meetings with them. We 
don't intend to have them put money into build a space craft 
but we want them to bring their skills, for example, NOAA has a 
tremendous capacity in taking space craft data and reducing it 
into models that could tell us how the weather is being 
affected and the climate is being affected.
    We are working with the Department of Defense because they 
need early sentinel warning to protect their assets. So, we are 
going to work with each of these areas so they will be able to 
take advantage of what we are doing and broader apply it so 
that the taxpayer wins. So, we don't have duplication of 
resources. So, we don't have each agency putting up space craft 
but we will all do what we do best and not overlap in 
capability.
    And I have to say, Dr. Caldwell, the head of NSF, has been 
really aggressive in working with us, the DOE, the Department 
of Defense, they are very serious about making this a team 
America effort.

                   research and engineering processes

    Mr. Walsh. On another topic regarding engineering. I read 
your article that you wrote in the November 1999 Mechanical 
Engineering Magazine. It was a fascinating. You are at your 
best when you are looking out into the future. You talk about 
significant changes in the way engineering systems are 
designed, produced and operated. Could you explain what major 
changes you envision in research and engineering processes? You 
talked a little bit about that earlier with the collaboration 
with other countries, and why NASA is engaged in trying to 
change the whole engineering culture?
    Mr. Goldin. There is a new technology wave that is sweeping 
across the future. Those that ride the wave are going to make 
it and those that don't ride the wave will be condemned to the 
past. There are unbelievable advancements in three technical 
areas. I call it the triangle for success: Information 
technology, nano-technology and biotechnology. These are the 
three areas that are going to change our world in the next 
decade. Today, in the year 2000, government agencies, private 
corporations, commit 90 percent of their resources to a job 
when they have 10 percent design knowledge. This is what leads 
to cost-growth problems overrun. This is the kind of thing that 
needs the incredible oversight that we have at NASA.
    With advanced thinking software, actually thinking software 
we could design systems that are tolerant to error. We even use 
some of this software to fly planes and simulated the loss of 
aerodynamic control surfaces and the plane was able to recover. 
Think of the implications in the design process.
    We need computers that operate much faster and we need 
computers that take much lower power levels. Virtual reality is 
unacceptable as it is today because you need all these cyber 
tools and at very best you could get a reasonable three-
dimensional representation in cyberspace. What we want is total 
immersion, virtual presence in sight, in sound, and in tactile 
feel.
    Because when you think of simulators, think about a 
simulator where we could train astronauts instead of putting 
them in a pool, if they could go in three-dimensional space and 
simulate how they build that space station, the training will 
be realistic. Right now, there is no force feed back. We hope 
to be able to do it without cyber-goggles, and we help to put 
people in the same environment geographically distributed 
seeing the same things. We want to be able to have common data 
bases.
    Today one of the problems we have with the Shuttle is that 
we have multiple data bases and the independent assessment team 
criticized us for that. Using these modern tools we could have 
a common data base that constantly strobes through to look for 
problems and I will give you an example.
    We took a series of landings at an airport and we plotted 
200 different parameters for all the planes landing and we then 
plotted out the variation in these parameters. And we looked 
for those that were outside the normal operations and we used 
intelligent tools to find out what was wrong and from that you 
could predict incipient failure before it happens. You put that 
into the design tool base.
    So, now you have total immersion, geographically 
distributed, common tools, where you could work in cyberspace 
with realism and you could have a capability to design and 
operate a system before you cut one piece of hardware.
    Now, you have 90 percent design knowledge when you commit 
to a program instead of 10 percent and all of a sudden you will 
then start shrinking the time and the cost and youget much 
better reliability. If we were to break away from the past, these tools 
are absolutely essential and it will revolutionize education which was 
the second article that Sam Venneri and I wrote about. Think about a 
teacher working with a class in cyberspace and the student is working 
on a design problem. The teacher could be in cyberspace and the student 
doesn't even know it and throw in all sorts of problems as they are 
going along with the design, because this is life.
    Mr. Walsh. As you create that culture in NASA, or as that 
culture evolves in terms of engineering and plan design and 
quasi-fail-safe programs, you also talked about getting 
students coming in, Ph.D.s, for two or three years at a time. 
Will they be ready to enter that culture coming from existing 
universities and engineering schools?
    Mr. Goldin. The engineering schools are nowhere near where 
they should be. And we are beginning a very active 
collaboration along those lines. We just restructured NASA.
    I now have a senior advisor, General Sam Armstrong, whose 
main purpose for the next year is to connect up with the 
universities in science and technologies and engage. In the 
1960s, NASA was a leader in shaping directions the universities 
went in the high-tech field and because of cost pressures I 
think we walked away from one of our prime responsibilities, 
the training of the next generation. We will be condemned to 
the past if we don't look into the future so we intend to 
actively engage.
    Sam Venneri has just been appointed the head of the 
Aerospace Enterprise. He and Sam Armstrong will be working to 
encourage universities to come back, not just to scientists, 
but the technical universities to work with us to develop these 
tools, refine these tools, train the people to use them so when 
they go out into the private sector it will strengthen 
everything we do in this country and it is a very high 
development priority.
    And this is why NASA is going to get into nano-technology, 
biotechnology, and information technology and just yesterday I 
met two of our recent acquisitions out at NASA AMES. We are 
hiring people for on the order of $100,000 when they could go 
out and make a half million to a million dollars because we are 
working on this. This is what makes NASA different than any 
place in the world.
    We are not working on technology that is two years out, we 
are working on technology that is 20 years out and with that we 
are going to make a huge difference.
    Mr. Walsh. Your ability to provide that environment for 
these smart young people to come to probably is the best perk 
that you could offer as opposed to the equity positions that 
they could gain in some of these companies.
    Mr. Goldin. If you give us the stability and funding.
    Mr. Walsh. I hear you.
    Mr. Goldin. And by the way I am not saying that to be 
funny. I think that unless we are credible with these young 
people, they don't play games, you know, the budgets go up and 
down. They are either going to come and be committed to us or 
they are going to go make money.
    Mr. Walsh. Well, I am sure you will make them aware that 
this is not rocket science on this Subcommittee. It is a trade-
off, it is a constant and very much living debate about values 
of government services that we don't always control. It is not 
as scientific as what you do but we will do our best to make 
sure you can meet those commitments and attract those young 
people that you need and we believe you need to be successful.
    Mr. Mollohan.

                             mars programs

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, I would like to now touch on the state of the 
Mars Program, if I might. As we all know, there have been two 
major disappointments over the past year, the losses of the 
Mars Climate Orbiter and the Mars Polar Lander. As for the 
Climate Orbiter, it appears from the reports that failure in 
this case was caused in large part by human error and failures 
in software and craft validation.
    We still await the final report of the Mars Independent 
Assessment Team, chaired by Thomas Young, on the failure of the 
Polar Lander. Although this report is not due to be released 
until the end of this month, it is my understanding that 
software verification and validation will be named as a key 
failure in this mission. I know in response to these reports, 
NASA has undertaken a major review of the Mars Program. Would 
you please share with the Committee the current review 
processes you are undergoing with respect to the Mars Program?
    Mr. Goldin. Well, we have three basic studies on the Mars 
Program. One led by Tony Spear, and that has been underway for 
a good portion of a year, to take a look at what we have done 
right and what we have done wrong across the agency in faster, 
better, cheaper programs. And that report is now out.
    Art Stephenson did a report on the Mars Climate Orbiter 
failure and we then asked him to take a look in the broader 
sense, based upon what you learned from that failure and other 
failures we have, how could NASA change the way that it does 
business to be much more effective? And that report is now out. 
And then we await the Young Panel Report.
    Based on recommendations from Art Stephenson and Tony Spear 
I have asked the chief engineer, Brian Keegan, to integrate the 
findings from all these reports, including the Shuttle Report 
and the Report that is going to come out on the X-33 to see how 
NASA ought to change its operating procedures, to work 
collaboratively with all the center directors, associate 
administrators and chief engineers at each of our centers, and 
by mid-summer come out with the recommendations he makes, 
consolidated and action plans to execute them. That is the 
process we intend to go through.
    Mr. Mollohan. It sounds like this is growing into a overall 
review of processes NASA-wide, not only of the Mars Program.
    Mr. Goldin. That is correct. As I indicated, we don't focus 
on our successes which are plentiful, we magnify our failures 
and we learn. We deal with the 5 percent where we have problems 
because when you do that you significantly improve the process.

                        faster, better, cheaper

    Mr. Mollohan. And that is the spirit of my question, not to 
dwell on the failures.
    There has been a great deal of speculation that the two 
Mars failures may have been casualties of ``Faster, Better, 
Cheaper,'' which you initiated in early 1990. I don't want to 
imply that that approach has in any way been a failure. We all 
have seen the great successes in the NASA space program in 
recent years, and a lot of it is due to that approach and the 
energy which you have put behind it.
    However, the Mars malfunctions do seem to raise the 
question of whether the Faster, Better, Cheaper approach 
isalways the best method, or that perhaps it has been given too much 
emphasis in any particular undertaking. And I know you asked Tony Spear 
that question and you alluded to the fact that his report is back.
    I received a copy of it a couple of days ago. In the report 
he did make the point that the second generation missions have 
been too restricted by cost caps while the challenge bar 
perhaps has been raised too high.
    He suggested some fixes to that program. Would you care to 
comment on this report and its implications for the Mars 
program?
    Mr. Goldin. Sure.
    Mr. Mollohan. And NASA, in general.
    Mr. Goldin. First I think, all three were--or two reports 
that are out so far state we ought to continue it past the--but 
there is one issue that I think is a dominating factor, and 
that is, we began a journey almost 8 years ago, and we have 
been pressing tighter and tighter and tighter and tighter. We 
said we were going to monitor as we went along, and when we had 
a problem, we would stop and pause and fix. I believe, although 
it was not the intention, some people treated cost and schedule 
as a holy cow, that you could not come back and ask for more 
money. There is a tension that builds up over that.
    During this time the defense industry was downsizing. There 
was fear of loss of job, loss of role for different centers, 
and there was not terrific communication, especially in the 
second round of faster-better-cheaper in the planetary program, 
Mars especially, with headquarters. So good people were 
violating good common sense, and it is not complicated. So what 
we are going to do is step back and make sure people understand 
that when there is a problem, one or two things have to happen. 
Either more resources get brought--or three things--or we 
reduce the requirements only to acceptable levels. You do not 
want to make the requirements so low that there is no benefit 
to the cost of the mission. Or three, you say, ``Before we get 
into trouble, we will cancel it.'' It is acceptable to cancel.
    Now, the second part of the problem I think is due to me. 
When I opened up the whole issue of faster-better-cheaper, I 
did not want to be prescriptive, and I said, ``We need the 
culture to develop, so I want things to be done more cost 
effectively, and I would like to have faster-better-cheaper 
without sacrificing safety,'' and I gave that as a guidance to 
the people involved. And many of them were able to deal with 
it. But when--others needed prescription. They held on to the 
whole issue, you got to live within the cost and the schedule, 
and then they were over constrained. But then I said, ``Failure 
is acceptable'', and I did not define what failure means. And I 
think some people thought failure is okay if you do not obey 
basic rules. So good people did dumb things. And in a couple of 
circumstances we had a lot of junior people, because we went 
from a few programs a year to more than a dozen a year, and we 
were bringing up a new work force and mistakes were made. So 
the concept of faster-better-cheaper is absolutely sound. The 
fact that we pushed the limits and had some failures is okay. 
But now we have got to step back and make sure our people 
understand what we expect from them, what we expect from them 
on being open and candid and having communications on cost and 
schedule, and I think if we could fix that one issue, the other 
things will fall into place with proper training and proper 
resources.

                         learning from failures

    Mr. Mollohan. You said failure is okay. What failure was 
okay, and is it still okay?
    Mr. Goldin. In my mind, if there is not malice 
aforethought, if there is not gross incompetence, failure is 
tolerable.
    Mr. Mollohan. Mission failure?
    Mr. Goldin. You betcha, you betcha, because if you do not 
challenge people to do tough things, that is unhealthy. If 
people do tough things and then they fail, and you punish them, 
there is a very clear choice that comes after that, that they 
pull back and they do mediocre things, and then they come 
forward and say, ``Look at my report card. I have 100 percent 
success.''
    Now, there is some debate about whether that is going too 
far with failure, but that is where I am right now.
    Mr. Mollohan. But it is only okay if there has been a 
realistic assessment if the resources on task are adequate. I 
do not know how you go through that, but I am sure you are not 
suggesting that a project manager fit the project into some 
arbitrary funding amount, and then if it cannot fit at the end 
of the day its failure is okay. I do not think you are saying 
that.
    Mr. Goldin. No, I am not saying that. I am saying that we 
did not have a system where there were enough open 
communications where people felt comfortable enough saying, 
``The resources do not match''----
    Mr. Mollohan. ``We do not have enough here.''
    Mr. Goldin [continuing]. ``This job.'' And I feel that 
faster-better-cheaper is not there. That is a failing of how we 
implemented it. And all the other problems, I think, to a 
degree stem from that.
    Mr. Mollohan. But that is the critical issue, isn't it? The 
sense of people, wherever they are in the organization, feeling 
comfortable about saying, ``Look, we do not have enough 
resources here to have a mission success, or at least looking 
forward, feel comfortable about having a missing success. We 
need additional resources or we should not go forward'', which 
is a legitimate decision to make. If you say, ``Well, we are 
not going to put any more resources on it, then if we do not 
have an acceptable chance of being successful, we cancel the 
mission.'' I mean, it is almost a cultural question I think 
that I am asking here. The organization has to feel free to 
say, ``Within this mandate of Faster-Better-Cheaper, this is 
too cheap, and we cannot guarantee mission success. Therefore, 
you have a choice, put additional resources on it or cancel the 
mission and do not cut off my head for saying so.''
    Mr. Goldin. You bet. And they have to have a confidence 
that their head will not be cut off. And this is a factor that 
you cannot make go away completely. And you cannot walk away 
from management responsibility because you want people to be in 
that comfort zone. Life is a set of tradeoffs. It cannot be one 
way or the other.
    You know, when I got to NASA, there was never a limit of 
how much money a program needed. The average cost growth on our 
programs was 79 percent.
    Mr. Mollohan. And I intended to start out my questioning by 
complimenting you for instilling that attitude and culture in 
NASA, and I am just exploring, I guess----
    Mr. Goldin. I also have to say----
    Mr. Mollohan [continuing]. The boundaries of that.
    Mr. Goldin [continuing]. I probably pressed too hard on 
that, and now maybe we have to pull back. So I do not blame any 
of our employees. I am personally responsible and accountable. 
I pushed the limits, and now we need to back off.
    There is one other element that needs to enter into this. 
We need to have the leadership in NASA, not just the project 
managers, take responsibility for this. The center directors, 
in my mind, were negligent in holding what I call program 
management councils. We set a program management council. It is 
the job of those program management councils to have a peer 
review of projects. So if the project manager comes in and say, 
``I need more money'', that project manager must stand in front 
of their peers and defend that, and defend the requirements 
versus capability. I think our center directors and the 
administrator let our project managers down in not having that 
aggressive peer review, and they were concerned, and they never 
brought it forward.
    Mr. Mollohan. That is a process failure I guess.
    Mr. Goldin. That was a process failure, yes. But one for 
which I feel bad, but I will not apologize because we had to 
push and see where the limits were.

            independent validation and verification facility

    Mr. Mollohan. I accept that. I was looking for a particular 
reference in that report, but the question I ask relates to it. 
I would like to ask one more question on the Mars Program. 
Before I do, I wanted to thank you for holding a quarterly 
senior management council meeting at the Independent 
Verification and Validation Facility in Fairmont. I appreciate 
your willingness to take that step, as well as your promise to 
fully integrate the IV&V facility into all NASA Centers.
    In addition, the Fiscal Year 2000 VA/HUD Conference Report 
includes language directing you to report by June 1st, in 
conjunction with the Goddard Space Flight Center, on the status 
of your integration efforts. Would you be able to give the 
Committee a preview of this report?
    Mr. Goldin. Well, to the first order, I think we got so 
much interest in the IV&V facility, we are not able to handle 
the load that is now being generated.
    Mr. Mollohan. I would like to have that problem. I would 
like to have Bud Cramer's problem that he laid out to you, that 
he has too much--no, he did not say he has too much--but, I 
could infer that.
    Mr. Goldin. But the key issue here is that was a watershed 
meeting, because it brought into focus two issues, IV&V, 
Independent Verification & Validation, which is done at that 
facility in Fairmont, West Virginia. But before you do that, 
you have to do verification and validation yourself on your own 
projects. And had we held that meeting two or three years ago, 
I do not think we would have seen some of the failures that we 
have just seen. So it brought the awareness up, and now the 
organization is responding to see how they do verification and 
validation themselves on their own projects, and how they use 
the national resources at the center in Fairmont to do the 
independent verification and validation.
    Now, Fairmont will not necessarily do all the IV&V, but 
they will be the clearinghouse to assure that the proper 
contractors are certified to do the work, and that the work is 
being done to the highest standards. So when we come out, I 
think that is the broad direction that that report is going to 
go in.
    Mr. Mollohan. I think progress is being made here. That is 
kind of a clear statement on mission, and I look forward to its 
implementation realization. Is the report on schedule and can 
we expect it to be rolled out on June 1st?
    Mr. Goldin. I believe so, but let me put the person 
responsible and accountable on the record.
    Is Lee Holcomb here? Is the answer yes?
    Mr. Holcomb. We will have a report for you at that time. We 
are going to be reviewing it next month in the senior 
management meeting.
    Mr. Mollohan. I am going to ask for the record that you 
respond to this question for the record. What new activities 
have been initiated with the NASA Centers, and specifically 
with regard to the Mars Program, with the IV&V Center. And I am 
going to ask you to respond for the record.
    Mr. Goldin. I will respond for the record, yes, sir.
    [The information follows:]

    Beginning in March 2000, NASA undertook an effort to define future 
plans for the Agency's Independent Verification and Validation (IV&V) 
Facility in Fairmont, West Virginia. NASA is committed to ensuring a 
substantive role for the IV&V Facility in the Agency's missions.
    The recently released reports concerning the Mars '98 failures have 
heightened NASA's sensitivity to the Agency's increasing reliance on 
software and the requirements for verification of its accuracy to 
achieve mission success. The past decade has brought a four-fold 
increase in the amount of software usage on NASA missions, and the next 
decade is forecast to bring the same or even greater increase. 
Enhancements in software development approaches and practices for 
verification and validation of software performance are imperative if 
NASA is to effectively meet this challenge. In this regard, the core 
capability in software IV&V represented by the Fairmont Facility will 
be pivotal in the Agency's thrust to ensure successful missions.
    NASA has decided to realign the Fairmont Facility to the Goddard 
Space Flight Center as a way of better aligning the center of gravity 
of Fairmont activity with an organization better able to support it. 
Furthermore, NASA's senior management team has approved a NASA Software 
Initiative under the leadership of the NASA Chief Engineer as part of 
NASA's Engineering Excellence process. With safety and quality being 
key aspects, the initiative will include the development of guidelines 
for the performance of IV&V as a mechanism for increasing the attention 
of NASA program and project managers to this area. An Agencywide IV&V 
policy has also been formulated, with the participation of all NASA 
Centers that will require all NASA projects to define appropriate IV&V 
activities as part of their development plan. The Fairmont Facility 
will concur in those plans, manage the IV&V work, and perform it at the 
West Virginia facility, except when performance at the development site 
is required.
    GSFC has completed a final draft business plan for the Fairmont 
Facility. This plan outlines current work and capability at the 
Facility, potential new IV&V-related work, the transition process to 
GSFC management, and the approach for development of a detailed 
Operational Plan. NASA is aggressively developing plans for IV&V of 
flight project software to reduce risk to NASA missions. Using the 
strengthened policies referenced above and specific criteria, IV&V 
requirements and schedules are being developed for NASA flight 
projects. JPL is also performing an internal assessment of software 
verification and validation needs for its missions, including 
independent assessments by the IV&V Facility. Initial agreements for 
IV&V of mission software will be developed with key flight projects by 
August 2000. Consistent with the schedule included in NASA's IV&V 
business plan, an Operational Plan for the Facility, including 
schedules and budgets, is to be completed by September 2000.

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. Mrs. Meek.

                     Remarks of Representative Meek

    Mrs. Meek. Thank you, Mr. Chairman. I had to go to my other 
subcommittee on Treasury Postal, but it is always a pleasure to 
be here to greet Mr. Goldin and the NASA staff. I just think 
Mr. Goldin is a very brilliant leader and has really shown that 
in his performance as head of NASA.
    And I think that there is not any other subcommittee that 
will have the exposure that we have, in that we do have the 
best minds in this country to come to us to present the 
scientific and technological advances that have been made by 
NASA, and I am pleased to be here.
    I am also happy to see, Mr. Chairman, that the President 
this year had the foresight to provide an increase for NASA. I 
have sat on this subcommittee, I think for two years now, and I 
have seen NASA's budget gradually diminished. I would not like 
to see that happen, and that if we are going to keep the 
advancement going in spite of some difficulties that we have 
with all agencies, that this Committee will continue to react 
positively to the President's increase. And if he does not 
increase it, do as the Congress has done several times, the 
Congress will increase it. I think it is well deserved, Mr. 
Goldin, the increase that the President has recommended for 
NASA.
    I am very encouraged by not only your scientific advances, 
but the educational programs which you have provided. I have 
visited the Kennedy Center and I have see these programs 
operate. I have also seen what you have done with business 
incubators, which I think is a great step toward using the 
kinds of expertise which NASA has developed, using it in 
communities and using it for the benefit of people who need 
that knowledge. I want to commend NASA for doing that, and also 
particularly what you've done in minority institutions. I 
really do not know how they would have achieved the scientific 
advancements that they have achieved until you started funding 
minority programs, and it showed that you wanted to see them 
develop the scientific and technological expertise which NASA 
required. And I want to commend you for that. I have seen these 
programs at Florida International University, and I have seen 
them work at Florida A&M University, and I have seen them work 
in communities, seen groups like TRDA work throughout the state 
of Florida, so I have nothing but plaudits for NASA today. I am 
one of the many in this Congress--many people who do not sit on 
this committee have pushed very hard for NASA. And we will 
continue to do so because we see really a product in what you 
do.
    So I do not have too many questions, Mr. Chairman, about 
the launches. I know the last time you had 8 launches the last 
time I asked you a question, and then this time you have 9 
launches, and that shows advancement in itself and that you are 
very optimistic, and hopefully, this Committee will see for to 
do it.
    I think in some aspects, Mr. Chairman, that NASA has been 
sort of punished for their early successes. They did so very 
well, that they sort of got punished and sort of cut back in 
places perhaps where they should not have. But your budget this 
year looks like it is adequate enough to cover the things that 
you need to cover.

                             biotechnology

    These science initiative that I notice in NASA in 
biotechnology, which is going to really, really be an advance 
to all of our sciences. I would like Mr. Goldin to say a few 
words about what you are doing in the area of biotechnology.
    Mr. Goldin. This is a very, very exciting new field. And in 
biotechnology we will be working at the very basic molecular 
level. In fact, we are now working with the National Cancer 
Institute to see if we could build what is called a 
micromolecular sensor, using biological mechanisms and advanced 
nano-technology to build sensors that could be ingested into 
the human being, that could then sense and probe throughout the 
body and detect early signs of disease, feed it out, diagnose 
it, and then perhaps even apply a therapy. This is a 20-year 
vision. We need these technologies if we are ever going to send 
people out on missions for two to four years or longer.
    We are working with biotechnology to make advanced 
materials. We are working with biotechnology to enhance the 
health of the astronauts. We are working with biotechnology to 
even build things like protein motors, protein motors. So there 
is a whole variety of devices. Advanced software, advanced 
computing and information systems. So that is the thrust of 
this area.
    Mrs. Meek. Thank you. I have one more question if I have 
time.

                         remote sensing center

    If you remember last year, Mr. Goldin, the Committee 
included funding for the University of Miami Advanced Tropical 
Remote Sensing Center. That center uses satellites to monitor 
ocean currents, wave motion, temperature, soil properties and 
other environmental data day and night with incredible 
accuracy. I trust that this project is moving forward and that 
you will let me know if problems should come up, and if you 
would like to just explain what that really does other than 
what the university has perceived.
    Mr. Goldin. First, I just looked over to Dr. Asrar, who 
assures me that it is proceeding forward and it is properly 
funded. I only know the very rudimentary aspects, so if it is 
okay with you, I would like to ask Dr. Asrar to come up and 
give a more comprehensive description.
    Mrs. Meek. Sure. Thank you, Mr. Goldin.
    Dr. Asrar. Thank you again for the opportunity. The group 
in Miami is really a world leader in the area of understanding 
the role of oceans in the earth system, and they are one of the 
centers of excellence in taking the satellite data, combining 
them with models to understand the role of oceans and coastal 
regions, as well as helping the fisheries industry. So that 
group is very busy, because they are getting a great deal of 
useful data from the latest satellite that we launched called 
Terra Spacecraft, combined with a number of other satellites, 
generating these products on behalf of the large ocean 
community and making that information available to them as well 
as the fisheries industry. So they had the infrastructure. We 
received a very good proposal from them, and we are working 
with them to extend their facilities through these funds to 
make this information more available to less traditional users, 
primarily fisheries industries and those who are interestedin 
assessing the impact of the coastal changes on the life in the coastal 
regions. So it is a very productive activity, and they are world 
leaders, and they are doing an excellent job.

                  funding for the Kennedy Space Center

    Mrs. Meek. Thank you. Thank you.
    One other question, Mr. Goldin. I notice that your budget 
reduces funding for the--you knew I was going to get to this, 
Mr. Goldin--funding for the Kennedy Space Center, the 
International Space Station Account. For the third year in a 
row you have reduced the funding there for the International 
Space Center from 113.4 million in fiscal year 1999 to 92 
million for your proposed 2001 budget. On the other hand, 
funding for KSC under the Human Space Flight Account increases 
for the third year in a row from 173 million in fiscal year 
1999 to 222.6 million in your fiscal year 2001 budget. I would 
like to know your reasoning for these reductions and increases.
    Mr. Goldin. I believe it is the flow of testing that is 
going on at Kennedy. We did the multi-element integration test, 
MEIT, Phase I at Kennedy. during the last year or so there was 
a large amount of funding, and then it will come down a bit, 
and then it will just ebb and flow with the level of testing 
that is going through. It is not a question of metering money 
to the Kennedy Center, but we have supplied the resources that 
they need to do that specific job.

                            shuttle upgrades

    Mrs. Meek. All right. As a member of Congress representing 
Florida, as all of you know, that is the home of the Kennedy 
Space Center. I am really concerned, in my last visit, at the 
infrastructure at the center and the corresponding safety 
implications for flight operations. Do you have any plans to 
upgrade the facility at Kennedy?
    Mr. Goldin. As part of the shuttle upgrade activity we are 
asking people to take a look at critical infrastructure and 
identify those things that are necessary because of the safety 
issue. We will then put that into the total list of things we 
are doing, and if it is appropriate, we will fund the things 
necessary to guarantee safety.
    Mrs. Meek. So that if these upgrades do not occur, they 
might impact the safety or reliability of the shuttle program 
there?
    Mr. Goldin. Well, Well, we believe that it is crucial to 
make the investments necessary to safely maintain that shuttle 
because human life is involved. So whatever the level of the 
budget is, we will always request the funding necessary to keep 
the shuttle safe. Let me say it a different way. If there are 
cuts, we will not take cuts in the shuttle line.
    Mrs. Meek. Thank you. And there is a timetable for these 
upgrades, Mr. Goldin?
    Mr. Goldin. We have identified a number of upgrades, and we 
are going to ask the NASA Advisory Council Task Team to look at 
it, to validate that they really will be improvements in 
safety, and take a look at the cost effectiveness of each one 
before we commit to them and have a final schedule.
    I might point out that the total budget for NASA Kennedy in 
2000 is 919 million, and in 2001 it is 1,043,000,000. So some 
tasks may go down and some tasks may go up, but it is the ebb 
and flow of the work that we fund, and we do not worry about 
dollars for specific tasks. We want to make sure we are doing 
the right tasks, so I believe we have it funded out properly--
budgeted out properly.
    Mrs. Meek. Thank you, Mr. Goldin. I see why you are a 
doctor in space. [Laughter.]
    Mr. Goldin. My wife thinks I am in space all the time.
    Mrs. Meek. Thank you. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, and thank you for your advocacy for 
NASA. I very much appreciate your helping us to raise the NASA 
budget above the last year's request, and we really have a 
challenge this year to do it again.
    Mr. Frelinghuysen?

                            X-33, 34, and 37

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I would like to cover very briefly five areas. I would like 
to know somewhat the status of some of our rocket planes, X-33, 
34 and 37. I have some questions that relate to your 
relationship with the FAA. Thirdly, some issues that relate to 
the IG's report, recent report. Some questions on alternative 
access, and then lastly, if there is time, on the issue of 
effective communications, and you are a very good communicator, 
if I may say so.
    In your prepared comments you mentioned, and I quote, ``The 
test version of the X-34 rocket plane made its first captive 
carry flight towards certification in preparation for using new 
technologies.'' And that is obviously a positive development. 
What happened to the X-33 and issues that related to the tank? 
You mentioned here also in your comments, ``The X-33 composite 
hydrogen tank did not pass its qualification test and launch 
plans for the assembly of the ISS were delayed.'' Things are 
occurring simultaneously. We are moving ahead with 37 and 34. 
Where does 33 stand, specifically related to these issues?
    Mr. Goldin. The X-33 is, of all three vehicles, the one 
that is pushing the technology the furthest. X-34 goes to, I 
believe almost mach-8 in powered flight. The X-33 will go to 
almost mach-14 in powered flight. The X-33 pushed the limits 
everywhere. In fact, on the good news side of the X-33 we have 
developed and built the first major new rocket engine, the 
first new rocket concept in America in 25 or 30 years, and that 
testing is going great.
    They have hydrogen tanks which are at very cold 
temperatures that are the largest most complex tanks to my 
knowledge that have ever been built, and we had a problem in 
knowing how to build those tanks out of composite material, and 
they failed the test. So this is the kind of thing that 
happens, and we will understand what went wrong.
    It appears now that based on a new configuration change 
they have for the vehicle, we might be able to operate this 
vehicle with aluminum tanks, which it will be simpler and 
easier to build. 20/20 vision a year or two later.
    Mr. Frelinghuysen. Are these the same tanks that would be 
used for the other rocket planes?
    Mr. Goldin. We believe so.
    Mr. Frelinghuysen. So your success with this particular 
venture has a direct relation with the others.
    Mr. Goldin. Oh, yes. A lot of it applies. And these tanks 
are much bigger than the tanks on the other rockets, so we will 
be pushing the boundaries. And we have to make a decision, do 
we stick with the composites for the hydrogen tank or do we 
switch to an aluminum tank? And we will make that decision in 
the next few months.

                        operational venture star

    Mr. Frelinghuysen. In the overall scheme of things, you had 
a target date for an operational Venture Star that had been--
toward the end of 2004?
    Mr. Goldin. Right at this point in time, we, with themutual 
agreement of Lockheed Martin are going to focus on getting the X-33 
built and flown, and I think we need to wait on decisions for the 
Venture Star, because that is a decision that Lockheed Martin has to 
make themselves. There is a lot of technology. This is a really tough 
job, and Lockheed is going to wait to make decisions on Venture Star. 
They are moving in doing system designs, but I think they are going to 
hold on major investment till we see what happens with the X-33.
    The other point I made to Mr. Walsh--we intend to have some 
significant competition, and we at NASA do not want to pick 
winners and losers in the commercial marketplace, so we would 
like to see competition to the Venture Star concept, and we 
want competition to occur from both big and small companies. So 
we are going to cast the net widely in the next range of 
competitions, and Venture Star will be but one of the competing 
approaches.

           relationship with federal aviation administration

    Mr. Frelinghuysen. Shifting gears, what exactly is your 
relationship with the Federal Aviation Administration? You may 
or may not know that Mr. Walsh and my area, the New York/New 
Jersey Metropolitan Area, is first in line for a major redesign 
of the airspace. It is a huge metropolitan area. Many of us are 
unhappy that Jane Garvey says that they need five years to 
complete this study. Are you intimately involved working with 
the FAA? It seems that five years, I mean, given the type of 
technology that you have outlined here, the three pillars, I 
mean, that in and of itself is absolutely fascinating and 
remarkable. One would think as a lay person that somebody at 
the FAA could get off their rear end after two years, rather 
than wait five years to redesign this airspace. Here we are 
talking about public safety issues for the traveling public who 
use airplanes, but we are also talking somewhat provincially 
and maybe nationally, aircraft noise issues.
    What specifically is your relationship with the FAA? You 
appear to have the technology and willpower. I am not sure 
whether you would want to comment on whether they have the same 
resolve, but what is your relationship?
    Mr. Goldin. I think it is a very healthy relationship. In 
1998 I signed a cooperative agreement, memorandum of 
understanding with Administrator Garvey. We support the FAA 
with long-range advanced technologies. We are looking at 
technologies in the 5 to 15-year time frame. We take 
technologies--and let me give you a measurement of scale. We 
have a scale on technologies that go from technology readiness 
level 1 to technology readiness level 10. 10 is in production. 
Technology level 1, readiness level 1 is a concept. So we will 
take things between 3 and 6, and then it needs to be handed 
over to industry, matured and integrated into systems. We do 
not get into taking things that have been verified in 
technology but not put into production, not integrated into the 
system. The FAA will take it from technology readiness level 6 
and put it into the system. So that is where the interface 
between us and the FAA is.
    They have been very supportive of our aviation safety 
program. We are working on a aviation safety program, using the 
technologies that I talked about today, that within 10 years 
will help the FAA and the airline industry cut the crash rate 
of planes by a factor of 5. Now, the specific project you are 
talking about I think is an application of nearer term 
technologies than the technologies I am talking about.
    Mr. Frelinghuysen. But are you weighing in on that redesign 
effort?
    Mr. Goldin. We do not get into redesign effort. We are a 
technology arm to the FAA. They make the decision----

                         aircraft noise issues

    Mr. Frelinghuysen. You have been involved, obviously, and 
according to your testimony, in aircraft noise issues, and from 
what I can gather, you have done some commendable work. The 
public ought to know more about what you are doing.
    Mr. Goldin. Again, we are working with the great U.S. 
aircraft engine companies, Pratt-Whitney and GE, to develop 
techniques to reduce it, and as we develop these techniques, we 
work--and by the way, the FAA is involved with us from day one, 
so when it has to go to certification, we can cut the 
certification period.
    So I really believe it is a good relationship. I have 
tremendous confidence in Jane Garvey's working with us, and I 
think our team is doing a good job to complement what the FAA 
is doing.

             inspector general's top management challenges

    Mr. Frelinghuysen. Well, I am glad to hear that.
    The Inspector General recently submitted a list of this 
year's top management challenges. I assume you are pretty 
familiar with those findings. Do you agree with those findings?
    Mr. Goldin. Let me just review it now. Which document?
    Mr. Frelinghuysen. The IG list of this year's top 10 
management challenges.
    Mr. Goldin. Are these the environmental issues?
    Mr. Frelinghuysen. Well, this relates to cost overruns, 
things of that nature.
    Mr. Walsh. Would it be helpful to have the Inspector 
General to come forward and respond?
    Mr. Frelinghuysen. Well, actually, what I was wondering 
whether----
    Mr. Goldin. I am trying to see the list. Can I just take a 
look at the list?
    Mr. Frelinghuysen. I would be happy to.
    Mr. Goldin. I cannot pull it out of my book right now. I do 
not know where it is.
    Mr. Frelinghuysen. This was directed to the majority leader 
or--yes, to the House majority leader, Dick Armey. Are you 
familiar with this list?
    Mr. Goldin. Yes, is the answer.
    Mr. Frelinghuysen. Have you had a chance to review that 
letter?
    Mr. Goldin. Yes, is the answer.
    Mr. Frelinghuysen. Could you comment on it?
    Mr. Goldin. I believe that we are committed to addressing 
the issues that the IG brought up. People have been assigned to 
tasks, and we will be responding to all of them.
    Mr. Frelinghuysen. Have there been some issues in terms of 
cost overruns?
    Mr. Goldin. Sure there have. And we need to deal with them. 
The IG did a number of studies of the cost overruns. In fact, 
one of the studies she did was at my urging. We were having 
some serious problems with the Boeing Company on their rate 
structure, and she did a very important report on this subject, 
and we are processing the input we got from her. In our 
dealings with Boeing, she made recommendations on where we 
ought to be working with Boeingon fee considerations, and we 
are listening to what she had to say.

                           alternative access

    Mr. Frelinghuysen. Thank you very much. Alternative access. 
I understand that the alternative access line within the space 
launch initiative is designed to pay for commercial resupply 
missions to the international space station. Opening this 
market to vehicles other than the shuttle could stimulate the 
space transportation industry and provide NASA with reliable 
supply alternatives should the shuttle fleet be grounded for 
any period of time.
    What are exactly NASA's intentions?
    Mr. Goldin. We are going to hold a workshop with the 
industry. We want to solicit the very best ideas on the 
subject. We are not going to be prescriptive because there are 
a lot of good ideas out there.
    Mr. Frelinghuysen. A lot of enthusiasts out there too.
    Mr. Goldin. And the one thing we will do is establish the 
safety requirements for docking with the space station, because 
that is a very precious resource up there. And we intend to, in 
the first round, award as many as four contracts to study this, 
and then we will throw a wide open competition and look for the 
very best ideas.
    Mr. Frelinghuysen. Are there qualifications that potential 
providers would be required to fill?
    Mr. Goldin. Safety.
    Mr. Frelinghuysen. Safety?
    Mr. Goldin. The safety issue is going to be our principal 
goal, and then we will let the marketplace decide whether there 
is something to be had here.

                    aerospace technology enterprise

    Mr. Frelinghuysen. And lastly, relative to the three 
pillars you mentioned at the end of your testimony--this has to 
do with the aerospace technology enterprise--how do you 
actually get information about these three pillars out to the 
public? I mean, there is a lot of material in here that may be 
out in the public domain. Is it in the public domain?
    Mr. Goldin. Yes. It comes through our Website. We have 
brochures. We meet regularly with the industry and local 
communities, and we make sure it is available. We are now 
working with the Aerospace States Association because we have a 
new initiative called a Small Aircraft Transportation System, 
which fits into the safety activities, although it is funded as 
a separate focused program, and we want to disburse this 
information to every American that is interested.
    Mr. Frelinghuysen. It is incredibly exciting, all of the 
things that are listed in there. Quite honestly, I am not sure 
a lot of the public knows that this information is there, but I 
am going to work to make sure they do know. Thank you very 
much, Mr. Chairman. Thank you, Mr. Goldin.
    Mr. Walsh. Are there any other questions of Mr. Goldin?
    [No response.]
    Mr. Walsh. Nobody? We will submit some additional questions 
for the record. We thank you for your testimony today. I think 
we had a good hearing, and we look forward to our hearing on 
March 30th to discuss ongoing programs and the Young report 
specifically. We thank you very much.
    Mr. Goldin. Thank you.
                              ----------                              

                                           Thursday, April 6, 2000.

                       Chairman's Opening Remarks

    Mr. Walsh. The Subcommittee hearing will come to order. Mr. 
Mollohan is on his way. He asked that we begin, and he will be 
with us presently.
    This afternoon, we convene our second hearing on NASA's 
budget request for fiscal year 2001. We would like to welcome 
Dan Goldin, the NASA Administrator, as well as the Associate 
Administrators responsible for management of NASA's numerous 
space and aeronautics programs.
    Although NASA continues to pull off some amazingly 
successful missions, the recent Hubble repair mission and the 
spacecraft rendezvous with EROS Asteroid come to mind, the past 
year has been very difficult for the space agency and the 
American taxpayer. Many high-profile programs continue to be 
plagued with problems, but hopefully the worst is behind us.
    The on-again/off-again assembly of the International Space 
Station has been put on hold for a year and a half. I am sure 
you can understand our Committee's skepticism of Russia's 
promise to launch the long-delayed service module in July. We 
remember hearing testimony concerning their intention to de-
orbit the Mir back in 1998 and again in 1999.
    I do not know if there is a communication problem, but I am 
beginning to wonder if we are talking about the same MIR.
    This morning, two Russian cosmonauts docked with Mir with 
what Russian officials are describing as the beginning of anew 
lease on life for the aging space laboratory, something to do with 
turning the place into a hotel for wealthy adventurers.
    I believe Mir will eventually fall from orbit, but only 
after the forces of nature overtake its ability to remain 
aloft, not by the deliberate actions of the Russian government.
    I, along with many of my colleagues, have serious doubts 
about whether a cash-strapped Russia can support both the Mir 
and the International Space Station programs. This week's 
mission to reawaken Mir used the progress and vehicles the 
United States paid for and were originally dedicated for the 
International Space Station.
    If Russia fails to launch the Service Module this summer, 
NASA must be prepared to fly the Interim Control Module in 
December and accelerate the design and construction of the U.S. 
Propulsion Module. We will not allow the program to be held 
hostage indefinitely.
    Space station delays have negatively impacted other NASA 
operations. Much of the space shuttle fleet, which was grounded 
for almost 6 months due to maintenance problems, sits idle 
waiting for Russia to fulfill its commitment to the ISS 
program. Meanwhile, opportunities to fly shuttle research 
missions have been lost.
    For the past 2 years, this Committee has been lectured by 
NASA and the President's Office of Management and Budget on how 
there is no room on the shuttle fleet tight manifest to fly an 
additional research mission or schedule once-a-year dedicated 
research missions. It is time for NASA and OMB to start 
managing the shuttle fleet more effectively by taking advantage 
of the delays in the space station program and filling the gaps 
with research missions. It would seem to be in the interest of 
NASA and the scientific community.
    NASA sold the $60-billion Space Station program to Congress 
promising that valuable scientific research would occur on the 
station. With the shuttle dedicated almost exclusively to Space 
Station construction flights for the next 4 years and no 
science research beyond the flight in January of 2001, I wonder 
if there will be any scientists left who will be interested in 
doing space-based research.
    If the space station is to fulfill its promise of being a 
cutting-edge scientific laboratory, the life and micro-gravity 
programs need to become a higher priority for NASA.
    Another high-profile program is under review. Recently, two 
important missions to Mars were lost, calling into question 
some of the fundamental management practices of NASA and its 
paradigm of faster, better, cheaper. The Mars program 
assessment team chaired by Thomas Young issued its report to 
NASA on March 22 and to the public on March 28. The team found 
significant problems with the management of the Mars program, 
including inexperienced project managers, inadequate budgets, 
and inflexible schedules all leading to excessive risk.
    Let me state for the record that this committee and the 
Congress provided all of the funds NASA requested for these two 
projects, and a review of NASA operating plans for fiscal years 
'95 and '98 indicated that the committee approved increases 
totalling over $19 million.
    If the Mars program has been underfunded, that problem 
originated in the Administration, not in the Congress. Perhaps 
we were not aggressive enough in questioning NASA's cost 
estimates, but we tend to give you the benefit of the doubt 
when you are trying to test the limits. This is clearly a case 
where the limits were exceeded. We look forward to working with 
you throughout the summer to reevaluate the costs of all your 
programs and make adjustments where necessary.
    That may mean we will have to add significant amounts of 
money to the President's budget request, or it may mean that we 
must cancel some projects to ensure priorities are adequately 
funded.
    If your management is spread too thin, we will add people. 
We are trying to do that with the additional funding we put in 
the fiscal year 2000 supplemental appropriations bill which 
passed the House last week, but if the Senate does not deal 
with the supplemental, then we must seriously consider 
canceling some programs or projects so management will not be 
stretched further. We will not allow NASA to be spread so thin 
that projects are not adequately managed or risk is 
inappropriately increased.
    In sum, while NASA has managed to realize its program goals 
of faster and cheaper, it cannot claim the Mars program is 
better. Better cannot be achieved without mastering the basics. 
It is clear to the committee that in its rush to meet 
inflexible schedules, the agency neglected the fundamentals.
    The Young report findings can be distilled to one important 
factor having to do with money, the failure to communicate. A 
lack of honest and frank discussion between JPL and NASA 
headquarters concerning the program's budget, schedule, and 
expectations cost us the Mars Climate Orbiter, the Mars Polar 
Lander, and the Deep Space 2 Probes. This is ironic because 
NASA's Office of Space Science and Jet Propulsion Labs are the 
experts in operating extremely sophisticated equipment allowing 
them to communicate with the Voyager spacecraft over 7 billion 
miles away.
    Before any new programs are started, the piece of 
communications NASA, JPL, and all the centers need to master is 
the telephone. No program should be doomed by fear and 
intimidation.
    We have many questions for NASA and will spend this 
afternoon exploring those questions. For example, why did it 
take two mission failures and an independent review board to 
discover the lack of communications and misunderstanding 
between JPL and NASA headquarters? Does this communication 
problem exist with other science programs at other NASA centers 
and other contractors? Most importantly, is the safety of our 
human spaceflight program at risk?
    I would at this time normally recognize Mr. Mollohan for an 
opening statement. He is not here, but I would at this point 
welcome Mr. Goldin's opening statement and then I will yield to 
Alan when he arrives.

                       introduction of nasa staff

    Mr. Goldin. Thank you, Mr. Chairman.
    Before I start, I would like to introduce the team here at 
the table. The first day of hearings were general discussions, 
and I wielded most of the questions, but, today, I think it is 
appropriate that at given points in the hearing, you hear from 
the staff here.
    Dr. Weiler is the head of the Office of Space Science. 
Brian Keegan is the chief engineer. Mal Peterson is the NASA 
Comptroller. Joe Rothenberg is the head of the Space Flight 
Program. Sam Venneri is the head of Aerospace Research and 
Technology, and Dr. Asrar is the head of the Earth Science 
Program.

                              mars report

    Mr. Chairman, good afternoon. Today, we resume our 
testimony before you on NASA's proposed 2001 budget. Since we 
were here last, the report of the Mars program independent 
assessment team under Tom Young, an in-depth review of the 
entire Mars program commissioned deliberately by NASA has been 
released.
    Before we resume discussion of the NASA budget request, I 
would like to take a moment to address the Young report. Last 
week, I flew to California to discuss with JPL the findings of 
the Young report and their future, and there is one thing that 
sticks in my mind. I spoke to the young people that worked on 
Mars '98, and they said to me, ``Dan, don't let the pendulum 
swing back in the other direction.'' We believed it was going 
to be successful until the very last minute, and on the Mars 
Climate Orbiter, they were that close to success and had 
failure.

                        faster, better, cheaper

    When I was sworn in as NASA Administration in April of '92, 
I set out a new agenda. NASA had outstanding people and 
incredible support from the American people, but NASA had a 
problem. It was clinging very tightly to the past, placing a 
value on large cumbersome missions and infrastructure and not 
enough on cutting-edge R&D in support of our space and 
aeronautics. NASA's missions were taking too long, taking too 
little risk, and costing too much.
    Instead, I proposed empowering a NASA work force asking 
them to tell us how we could implement our missions in a more 
cost-effective manner, how can we do everything better, faster, 
and cheaper without compromising safety, and I might point out, 
I intentionally was nonprescriptive because this is how the 
Federal Government has operated and it is this prescription and 
people who watch people who watch people is what costs money, 
and when failure occurs, it is the punishment of that failure 
that makes people paralyzed.
    Knowing that change is difficult, even when there is little 
or no choice, I pledged to the work force that we would not be 
overly prescriptive and we would not micromanage and we would 
encourage them to take risks, do things differently, even if it 
involved deviation from prior experience, so long as it 
followed sound principles, but I reminded them to recognize 
that in pressing boundaries they would encounter failure.
    In replacing billion-dollar missions with multiple smaller 
missions and flying them more frequently, they would expect two 
to three failures in every 10 attempts, but 10 successes out of 
10 attempts would mean that they were not adequately pushing 
the boundaries, and more than two or three failures out of 10 
attempts would be too many.

                           nasa's report card

    Since that time, the revolution has taken hold, and NASA 
has had spectacular successes, and here is our report card. 
Since 1992, NASA has launched 146 payloads valued at $18 
billion. Of this number, 136 were successful. Our total losses 
amounted to 10 payloads measured at about a half-billion 
dollars, a big number, but less than 3 percent of the total of 
the payloads launched.
    Planetary spacecraft once launched twice a decade at a cost 
measured in billions now routinely are launched each year at a 
small fraction of that cost. This is world-class performance by 
any reasonable standard.
    We also continually monitor our management practices 
evolving our program management instructions to incorporate 
more flexible, responsive, and creative processes to give 
people freedom, and that freedom included freedom to fail.
    We wanted to demonstrate to the world that NASA could do 
things much better, and NASA delivered. Mars Pathfinder, Global 
Surveyor, Deep Space 1, we pushed the boundaries like never 
before and had not yet reached our limit, not until Mars '98.

                             nasa failures

    Then we encountered back-to-back failures of the Mars 
Climate Orbiter, Mars Polar Lander, and Deep Space 2 
Microprobes. We are examining these failures in microscopic 
detail, and let me assure you, Mr. Chairman, we beat ourselves 
more than anyone on the outside can do.
    We established red teams to evaluate the launch readiness 
of all our planned missions for this year, and since we 
launched the Mars '98 missions, we have had 12 spectacular 
successes, FUSE, QuikSCAT, Stardust, Landsat-7, Terra, Chandra, 
the Hubble Servicing Mission, the Shuttle Radar Topology 
Mission, and IMAGE. I might point out on the Shuttle Radar 
Topology Mission, we had a problem and it was communicated and 
it involved the safety of the astronauts and the wonderful 
people at JPL fixed it without any help or supervision from 
NASA headquarters. I do take issue that we are not better, and 
I want to openly state that.
    We have concluded that in spite of our overall success 
rate, we decided, and the fact that we are still roughly within 
the bounds I set, two or three failures for every 10 missions, 
the warning bells of a trend are sounding. So we will take a 
pause, but we will not go back to command and control and 
people who watch people who watch people and detailed 
specifications and requirements that suppress the creative 
thought process.

                              young report

    I agree with the conclusions of the Young report. In fact, 
I told the leader of the Mars '98 team that in my effort to 
empower people, I personally pushed too hard, and in doing so 
stretched the system too thin. As NASA Administrator, I accept 
responsibility, but I cannot apologize for trying to give the 
American taxpayers a real vision and pay less money.
    Mistakes were made that could have been avoided and must 
and should be corrected. The Young report reminds us how 
important it is to have adequate margins in planning and 
executing programs, but that is not a license to turn on the 
funding spigot. This is always the inclination when it comes to 
Federal funds. There is always a temptation for some to freely 
spend hard-earned taxpayer money, but there are many things 
that we can do that do not involve money, and that is going to 
be our first priority.
    Specifically, we know that we had three main areas to work 
on that will not cost money, as you pointed out, Mr. Chairman, 
communication, training and mentoring, and oversight and 
review. We will implement improvements in these areas by 
focussing upon people, processes, execution and advanced tools 
and technology.
    I want to remind this committee how strongly I believe that 
we should not throw money at these challenges. Where it is 
appropriate, we will add funding, but I am not asking this 
committee for a nickel more than our pending fiscal 2001 
request unless there is an overwhelming compelling need, and we 
will be performing an analysis over the coming months, and in 
the event we need more money, we can and will come to you 
because we believe you are fair and balanced here.
    I want the message to go out to our work force and our 
contractors. Do not look to fit yourselves under the umbrella 
of get-well funding. I will continue to hold you fully 
accountable.
    We are already taking additional steps to address the Young 
report. We are streamlining management to the Mars Surveyor 
program at NASA Headquarters and JPL. We are redefining the 
entire Mars program architecture, and we will be able to 
discuss it with you later this year.
    The NASA chief engineer is putting together a matrix that 
will incorporate NASA's responses to all the reports concerning 
program management, to ensure consistency of best practices, 
and update on management processes to take into account what we 
have learned from the Mars mission failures, but undertaking 
these improvements does not mean reversing our course in 
pursuit of revolutionary change.
    Just as a mission failure does not diminish our success, it 
will not deter us from our goals or paralyze us in self-doubt.

                         fy 2001 budget request

    Mr. Chairman, I am compelled one more time to share with 
you how crucial it is for the NASA's fiscal 2001 request to be 
fully funded. It is the first budget in many, many, many years 
with an increase, and it is a modest increase, just about the 
rate of inflation. It is an affirmation what the NASA work 
force has been striving to accomplish for the past several 
years. It includes critical infusion of funding for a shuttle 
safety initiative, including important new hiring, as you 
pointed out, a space launch initiative, and additional funding 
for the Mars program in anticipation of the various reviews 
just completed.
    I am committed to the dedicated and courageous employees 
across the country. Including the wonderful JPL work force last 
week that I talked to, I committed to them that I would press 
NASA's case with you today. Given the sacrifices this work 
force has made in streamlining NASA's budget since '93, I hope 
you will do all you can to make this very good budget request a 
reality.
    Mr. Chairman, my team and I are prepared to respond to all 
your questions. Thank you for listening to me.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              mars program

    Mr. Walsh. Thank you very much, sir.
    Mr. Mollohan, do you have any opening statement you would 
like to make?
    Mr. Mollohan. No, thank you.
    Mr. Walsh. All right. We will begin with some questions, 
then. Since I had such a long opening statement, I will just 
ask in one area and then I will go to Mr. Mollohan.
    In the Young report, of the two Mars programs, either the 
Climate Orbiter or the Lander, the management structure was not 
in place.
    Normally, there is a project manager start to finish, and 
this was not the case with this program. Can you respond?
    Mr. Goldin. Mr. Chairman, I think this is one I would like 
to address.
    Mr. Walsh. Sure.
    Mr. Goldin. I think this gets to the heart and soul of what 
the issue is. The people at JPL had a success on the Pathfinder 
and the Mars Global Surveyor which were launched in '96 and 
arrived in '98. They were very, very upbeat about it. They did 
that in-house. They made a decision that was uncharacteristic 
to JPL. They said they are going to try something new. So they 
said they would have a systems contract that they would let 
with the Lockheed Martin Company. They had not done bottom-line 
systems contracts before, but it was a new attempt.
    The second thing they wanted to do was to do development 
for all the individual Mars programs separately and have a 
combined operating system for all the spacecraft. It was a 
complete management decision saying we think we could save 
money and have more efficient operators and be more capable of 
handling problems in one control center instead of five 
separate centers.
    As a result, we had a break. So we had a development 
manager, and then we handed over to the operations. The problem 
was there was not good communications. This was the first time 
out of the chute for them in handing off from development to 
operations.
    It clearly was an attempt to try and do things differently, 
and I believe in large part led to the problems we had. It 
certainly led to the problems on the Mars Climate Orbiter and 
to a large degree led to the problems we had on the Mars Polar 
Lander because there was a third organization involved. JPL had 
always done things womb to tomb.
    But I want to come back to a very basic principle that is 
important. When I met with the JPL employees 2 months after I 
took office in '92, I told them I wanted them to take risk. I 
met with 50 young people, and they said, ``Mr. Goldin, we will 
take risk. What is the first thing that happens when we have 
failure? We are going to be pummeled. Would you stand behind 
us?'' I said to them, ``Under no conditions will anyone take 
responsibility except me because I am empowering you.''
    So we could go through a lot of detail in this session 
today, but I ask you to keep in mind if we keep focussing on 
two failures when we broke our programs into small parts so if 
we had a failure it would not be taxing on the American 
taxpayer, we are going to dissuade people from trying to do 
these courageous things like having a mission operations 
center.
    I think we will be able to do it, but we have to make some 
fixes.
    Mr. Walsh. I understand that, and I understand that we 
learn by our successes. We probably learn more by our failure 
and mistakes.
    Mr. Goldin. Yes, sir.
    Mr. Walsh. Does NASA go with this new paradigm of a 
management structure that was suggested, or do you go back to 
the one project manager start to finish, womb to tomb as you 
describe it?
    Mr. Goldin. We will have a project manager womb to tomb, 
and that project manager will follow the whole project, butit 
does not mean we still cannot get the efficiency of having an 
operations center.
    The problem was there was not a project manager to be the 
advocate for the Mars Climate Orbiter in this combined project 
center. So we had that mistake, and we will fix it.
    Mr. Walsh. Right. Thank you.
    Mr. Mollohan.

                           additional funding

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, you indicated pretty strongly, if I am 
understanding your testimony right, that additional funding is 
not the answer here. Elaborate on that, and to what extent do 
you really mean that?
    As I understand at least part of the Young report, the one 
lesson learned is that project managers strapped for funds were 
not able to take all of the steps that they should have taken, 
some of which the report indicates would have prevented the 
failure.
    So, when you say there is no more funds needed, how do you 
mean that?
    Mr. Goldin. Sure.
    Mr. Mollohan. No more funds other than your request 
addressed?
    Mr. Goldin. Here is my concern, Mr. Mollohan. We probably 
will need more money. There were some estimates made by the 
Young panel that it is 30 to 50 percent. They did not have a 
lot of time to go through the analysis, but I could tell you 
what is happening right now across the space program. Every 
single program is now coming back and telling us how much more 
money they need.
    I talked to the folks out at JPL, and they told me the 
planetary programs to the outer planets, the budgets are going 
through the roof, and the reason I said the words that I said 
is, I want to see, before we add more money is that we have the 
right kind of mentoring. It does not cost money to assign a 
mentor to an inexperienced project manager. We will have the 
right kind of training. It does not cost extra money to train 
people properly. We will have reviews where instead of people 
having a close circle of their people that they know review 
them, they will pick people that will have different attitudes. 
That does not cost money. It does not cost money to properly 
look at the requirements versus the resources before the 
program goes into a hard start. There is always a temptation to 
start a program without inadequate thought to the requirements.
    In fact, the IG has been very concerned about that at NASA. 
Then, after we do all these things, we will make sure there is 
adequate money for testing, that the programs have adequate 
funding for things that are of interest to you, and I think you 
are right, independent verification and validation of software, 
that there is adequate money for hardware, but all I was trying 
to emphasize is I would like to make sure that each of our 
center directors, each of our contractors addresses those 
important issues where it does not cost money to do the right 
thing before they send a bill in that is going to be 
prohibitive, and if there is not more money for NASA stretch 
our program out too far.
    Mr. Mollohan. I can understand where it might not cost 
money to change attitudes or to heighten caution, but it does 
cost more money to do additional training, for example, which 
you just stated?
    Mr. Goldin. It does not cost 30 to 50 percent of a budget.
    Mr. Mollohan. What do you mean? Where is this 30 to 50 
percent of a budget? What budget are you talking about?
    Mr. Goldin. The Young report indicated they believed we 
would have to spend between 30 and 50 percent more on programs 
like the Mars Climate Orbiter.
    Mr. Mollohan. Each program?
    Mr. Goldin. Each program.
    Mr. Mollohan. That is your whole budget.
    Mr. Goldin. Each program. I do not want to argue with that. 
All I am saying is----
    Mr. Mollohan. You are just saying that is a number that 
needs----
    Mr. Goldin. Fundamental things.
    Mr. Mollohan [continuing]. Verifying.
    Mr. Goldin. I will give you another thing that does not 
cost money. The Lockheed Martin is a good company, but not 
outstanding. Where was their senior management?
    Mr. Mollohan. That is a good question. Where do you think 
they were?
    Mr. Goldin. Engaged in a lot of other issues and problems 
that they have. It does not cost money to do some fundamental 
things.
    Mr. Mollohan. So where were their senior management in 
this?
    Mr. Goldin. They certainly were not engaged in the Mars 
Climate Orbiter and Mars Polar Lander Program. I went out to 
Lockheed Martin a year ago to award medals to some of the 
people out there, and not one senior executive from Lockheed 
Martin was there when the NASA Administrator was at their 
plant.
    I spoke to their people about some of the problems they 
were having with the landing systems, and I passed that along 
to their management and I passed that along to the Lockheed 
Martin management.
    Again, I do not think we have bad people. My only intention 
is--I come from the private sector. When you have a problem in 
the private sector, you do not run to the corporate treasurer 
for more money first. There is a tendency in the Federal 
Government to do that, and if I look at the news stories over 
the last 2 to 3 weeks, the answers seem to be more money, and I 
am saying let's take a deep breath----
    Mr. Mollohan. You would say go through a process first and 
identify where you need the additional money.
    Mr. Goldin. Yes. I can only tell you the NASA Comptroller 
is getting inundated by everybody that thinks they are going to 
fall under this umbrella, and I am taking a very passionate 
emotional position here saying we would love to come back after 
we have taken the time to see what we could do that does not 
cost money and then establish what we have to spend more money 
on. That is the only reason I am a little forceful on this 
issue.
    Mr. Mollohan. These reports did, when we looked at them, 
pretty consistently identify concerns with regard to project 
and program management, did they not?
    Mr. Goldin. Well, let me bring up an issue that the NASA 
Comptroller identified to me. At CDR there were financial 
reserves in the budget, but there was a reluctance to spend 
those reserves.
    Had there been connectivity with senior management on 
theprogram, maybe they would have spent those reserves on things that 
could have been fixed. Again, the people were really committed.
    Could I show you a chart? Because I think this chart tells 
the story. This is where I arrived at the agency at $590 
million a spacecraft. This is where we have developed an 
average cost in '95 to '99, and this is where the Administrator 
pushed too hard.
    I said we were so successful in picking up a factor of 
three in cost per spacecraft, let's push harder, and those 
young people listened to me. That is why they are not at fault. 
I am at fault. I pushed them because we did not know the 
boundary.
    So what I am saying to you today is what we want to do is 
see how far back do we want to come on the goal for the next 5 
years of spacecraft. It used to take 8 years from design to 
launch for spacecraft. We brought it down to five. We were 
shooting for three. Maybe we ought to take that.
    But here is the other part of the issue. We worked on 
average of two free-flying spacecraft a year, and this is '90 
to '94, seven in '95 to '99, and we are planning 11 in '00 to 
'04. Coming up this curve was a learning experience. We did not 
have all the experienced people. The tradition was you have a 
60-year-old project manager that has four decades of 
experience. We had a new team on board.
    So, again, in answer to one of the issues you brought up, 
there was inexperience. It was not malice aforethought. These 
young people said they want to take the Administrator's 
challenge. I am responsible because I pushed them too hard. I 
did not know where the boundaries were, and all I am saying is 
we are going to take 2, 3 months and very systematically 
through the leadership of Brian Keegan and this team here 
understand it and then come back and say what we need.

                    program management working group

    Mr. Mollohan. I think you indicated in your last testimony 
that you were going to assemble some sort of task force to 
address these issues.
    Mr. Goldin. This is the leader of the task force.
    Mr. Mollohan. The task force is appointed and underway?
    Mr. Keegan. I can elaborate on that if you would like. What 
in fact has existed within the agency, an agency-wide team 
called the Program Management Working Group. It consists of 
representatives from key headquarters offices as well as the 
field centers.
    In the process of considering the best course of action in 
response to the recommendations of the many reports, we have 
taken that team as the core and supplemented it with a few 
additional folks in the human resources area and the systems 
management offices which have been newly created at the field 
centers to evaluate the best approach for evaluating our 
generic approach to program project management and ensuring 
that the best practices are more uniformly used across 
programs.
    We will attempt to maximize our lessons learned from the 
failures. At the same time, I think we will capitalize on those 
practices that have made our successes the successes that they 
were.
    The focus of any project team must be in making sure that 
the project team itself is fully prepared to execute its 
responsibilities. Emphasis on good training and communication 
practices is essential and is where we will focus our effort.
    That agency-wide team that has been assembled has been 
tasked to come back with a set of recommended actions by the 
end of May. Following that, then that will be vetted by the 
Office of the Chief Engineer and some key advisors that we 
assemble within headquarters and ultimately be approved by the 
agency senior management team.
    Mr. Mollohan. Has that team or task force been fully 
identified and appointed?
    Mr. Keegan. Yes, it has. It has been identified. Yes.
    Mr. Mollohan. Is it advertised? Is it announced?
    Mr. Keegan. Well, I mean, it has been appointed. They are 
all existing people from within the agency.
    Mr. Mollohan. Has the agency issued a publication about it?
    Mr. Keegan. I do not believe it has been announced in a 
press release, but it certainly has been general knowledge 
within the agency that this team is appointed and functioning.
    Mr. Mollohan. Is this going to be an open process? Do you 
plan to announce the composition of the organization, and what 
its mission is in any detail?
    Mr. Keegan. That can certainly be done. The fact is----
    Mr. Mollohan. I am just asking----
    Mr. Keegan [continuing]. The clear definition of the 
charter of the team is to consider the recommendations from the 
various reports that have generic implications for the way the 
agency manages its programs and projects.
    Mr. Mollohan. What impact is this process going to have on 
future and ongoing space science missions?
    Mr. Keegan. I think the principal intent there is to ensure 
the uniform use of best practices across all the programs that 
we have. In many instances, we feel that those best practices 
are currently being employed.
    Mr. Mollohan. So this is more an indoctrination process 
than it is anything else?
    Mr. Keegan. Did you say an indoctrination process?
    Mr. Mollohan. Well, a sensitizing----
    Mr. Keegan. A lot of it is ensuring that the people who 
populate project teams have the right set of skills in terms of 
their technical competence, their communication ability, their 
team and the support by the engineering institutions of the 
implementing centers, and the support by their management chain 
that they are fully able to implement their responsibilities 
well.
    Mr. Mollohan. Is this process impinging on any of the 
schedules of any of the missions?
    Mr. Keegan. No, it is not. What we have----
    Mr. Mollohan. Nothing is on hold?
    Mr. Keegan. The population of this team represents senior 
project management and engineering management from across the 
agency, and the conduct of this assessment is in no way 
interfering with the ability of ongoing projects to get their 
work done.
    Mr. Mollohan. Do you imagine these problems extend beyond 
the planetary exploration missions?
    Mr. Keegan. I am not sure we are able to make that 
judgment, frankly.
    Mr. Mollohan. Are you exploring----
    Mr. Keegan. I think we can. We have had some failures from 
which we need to learn----
    Mr. Mollohan. Yes.
    Mr. Keegan. Part of that is also looking at the practices 
that have made successful missions.
    Mr. Mollohan. Are you looking at that agency-wide as a 
result of these experiences?
    Mr. Keegan. Yes, yes.
    Mr. Mollohan. You are?
    Mr. Keegan. In fact, certainly once the----
    Mr. Mollohan. In what way?
    Mr. Keegan. The action plan is defined, then we need to 
have each project make an assessment of whether they are 
implementing these best practices correctly and take action for 
training and other activities.
    Mr. Mollohan. Is this kind of a systematic look at the 
whole agency----
    Mr. Keegan. It is, indeed.
    Mr. Mollohan [continuing]. With regard to these issues?
    Mr. Keegan. Right. Recognizing there have been some 
failures and we need to learn.
    Mr. Goldin. Mr. Mollohan, I might add there are two other 
issues. One, it is not Brian's responsibility, but we have 
asked that we have red teams look at each mission prior to 
launch, and we did that when we first had a problem with the 
SOHO spacecraft, just about a year ago. And since that time, we 
have had 12 successful launches of some incredible systems, and 
it is this extra set of eyes that on the margin does not cost a 
lot of money, that caused us to delay launches.
    One of the launches that was delayed was the shuttle radar 
topology mission where we found some significant problems. So 
that is one issue.
    The second is I believe that one of the problems we had was 
people pushed the reserves too hard which comes back to the 
issue that Mr. Walsh brought up in his opening statement, and 
one of the places I expect that we will put some additional 
money is in the reserves. Everyone got too bullish. We had so 
much success that as the budget pressures hit, we squeezed back 
too much on the reserves, and I believe that that was one of 
the areas that the Young committee was concerned about. When a 
design engineer does not have a reserve and has to make due 
without it, that is when the frustration comes in and that is 
when people begin to do dumb things.
    One of the things Brian will be doing with the NASA 
Comptroller and the associate administrators is establishing 
what are the right level of reserves, and that is the area 
where I think we are going to have to do some replenishment, 
and that will then give people a little bit more elbow room so 
when an engineer wants to make a fix, they know they have a 
place to go.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. You are welcome.
    Mr. Sununu.

                            contingency fund

    Mr. Sununu. Welcome, Mr. Goldin. As always, the focus and 
clarity of your testimony is very refreshing, and the 
commitment to the vision you have, whether we agree with you or 
not, it makes our job easier because it does cut to the heart 
of the important issues before us.
    Let me begin by asking you to clarify a little bit about 
the concern you just raised about the reserves. You talked 
about squeezing the reserves, and I would like to know what 
exactly is meant by that. Does that mean that they were 
utilizing them at a higher rate or that the reserves simply 
were not as large? Contrast that to the example you gave 
earlier where there were reserve funds that were not used. Was 
that just an exception, or am I misunderstanding what you mean 
by squeezing reserves?
    Mr. Goldin. First, let me say that one of the points I did 
not make that the Young panel brought out very clearly is we 
have to treat reserves differently for different programs. One 
of the issues that is clear today, and I wish we had this 
clarity before, was on a planetary program where you have to go 
to a specific place in the heavens and be there at a specific 
time. You have less margin. You have an absolute launch window, 
and if you are not ready to launch, you are in trouble.
    That makes an inordinate amount of pressure. So, on a 
planetary program, one of the first things we are going to take 
a look at is we are going to give them extra reserves on cost. 
That was what I considered to be the biggest problem.
    Mr. Sununu. Excuse me. By extra reserves, you literally 
mean a contingency fund?
    Mr. Goldin. Yes. Let's say the program is X. Instead of 
giving them a 10-percent reserve, they would have a 15- or 20-
percent reserve because they could convert schedule into 
dollars, and they have a bigger schedule problem and a much 
more difficult navigation and targeting problems than others.
    So the second part of your question, I believe that what 
happened is we were so successful, we had success after success 
after success. The management team, myself included, we got a 
little heady and said, ``Gee, maybe we ought to take a 15-
percent reserve and cut it back to 10. This gives us more money 
to start a new mission which is why we need to take a look at 
how much dollars per mission and how long we take to do it and 
how many missions we have.''
    That is the kind of thing that Brian Keegan will be working 
on with Mal Peterson. One size does not fit all, and we want to 
make sure we have adequate reserves.
    The third point is sometimes people--the reserves exist in 
different places in the program. For example, NASA headquarters 
could have a reserve. The JPL program office could have a 
reserve, and the Lockheed Martin contractor might not have had 
it , and it was coming back to a simple communication program, 
no malice aforethought, but had one of the front-line design 
engineers known at Lockheed Martin that there were reserves 
available, they might have been able to do something better. So 
the third thing we want to make sure of is we want people to 
know where the reserves are and that the reserves are available 
no matter where you are in the organization. So those are the 
three considerations we need to look at.

                             service module

    Mr. Sununu. Thank you.
    The chairman mentioned in his remarks concerns about the 
July launch date for the service module and our relationship 
with the Russian Space Agency. Can you talk in a little bit 
more detail about that July launch date, the status, confidence 
level, and more importantly what is the budgetary implication 
of missing that date?
    Mr. Goldin. First, let me add something that you did not 
ask, and I want to be on the record. I am highly frustrated by 
the fact that the Russians signed up to a program and put such 
an incredible emphasis on the Mir program, they lostsight of a 
commitment they made to the President of the United States in 
performing on the International Space Station.
    There always seems to be a little extra money available for 
Mir, but not for the International Space Station. This has 
caused a problem. Now coming to the issue we have.

                            mir de-orbiting

    Mr. Sununu. Well, no, given that you raise that point, why 
don't you expand on that first a little bit because that was my 
next question, which is what is NASA's formal position on Mir, 
on the de-orbiting of Mir, and more specifically what has been 
the effect of the Russian Space Agency's focus on maintaining 
it in its current orbit.
    Mr. Goldin. We indicated to Russia--they are a sovereign 
nation. It is not for us to tell them what to do with their own 
program. However, we said before a nickel of Government money 
goes to the Mir Space Station, it will represent a breach of 
the relationship that we have and they have a commitment to the 
International Space Station which they are not funding.
    So long as they funded the International Space Station like 
they were supposed to, like they committed to, we would not 
have any issue with them. We are very concerned about the 
incredible emphasis on Mir, and again they are sovereign, but a 
deal is a deal is a deal, and they need to put some emphasis on 
funding their own program.

                             service module

    Where are we now? The problem we are having for the service 
module, the launch in July, is not financial. They had a 
failure in their Proton rocket, and as it turned out, almost 
every country in the world has had rocket problems. There seems 
to be a little bug going around in the last 2 years.
    They have fixed that problem, fixed it to our satisfaction, 
and they committed to launching two to three Protons with what 
they call the phase-one fix, and they have launched two of them 
so far. There is, I believe, a third one coming.
    We agreed with them that because this service module is so 
important that they would have to make a bigger investment, and 
they proposed a much more aggressive fix to the Proton. We 
asked them to launch two of those Protons, and they agreed, 
before we would launch a service module.
    One is scheduled for launch in May. The second one is 
scheduled for launch in June, and assuming that those two 
rockets are successful, we believe we will be able to hold a 
launch date of July 8 through July 12.
    The service module itself is complete, but they are just 
doing additional testing because they have some time and that 
testing will be done somewhere about April 15th, April 30th. It 
will be put in a packing container awaiting the launch at a 
later date.

                         service module launch

    Mr. Sununu. If you were on this appropriations panel, what 
would your response be to a failure to meet that July launch 
date? How should we respond to that from a budgetary 
perspective? You know better than I and probably better than 
most of the Members of this subcommittee what the controversies 
are and the arguments are against moving forward with the pace 
that we have been moving forward on the space station given its 
dramatic, very significant cost, and the percentage of your 
budget that it takes up every year.
    I do not want to say this is potentially the straw that 
breaks the camel's back, but from a budgetary perspective, how 
should we react? And more importantly, if we were to react and 
from an ideal perspective of providing whatever funds are 
needed--if that was the response, what would it cost?
    Mr. Goldin. First, let me say it would depend on what the 
cause of the delay was. If the cause of the delay was 
inadequate ability to fund what they said they were going to 
do, I would say that that would be a major breach between our 
governments, and that would require some very significant 
discussion at the highest levels of government.
    If the delay was caused to a failure of the rocket, I would 
say this is something that everyone is subject to. The Japanese 
have lost two or three rockets. The Europeans lost two rockets. 
We lost four. This is something that is just the space 
business. So, if it is a rocket problem, we will watch.
    Now, we, because of technology transfer, cannot and should 
not tell the Russians how to fix their rockets. So we have to 
be dependent on them to take those actions, but I could tell 
you they invited our people into their plants, and our people 
feel they do a better series of tests than we do when they were 
going through this rocket fix. So we are satisfied on the 
rocket itself they are doing all the right things, but, again, 
I come back and say we will have a major problem if they come 
back and say they have to delay the launch because they do not 
have adequate funds.
    Mr. Sununu. I certainly agree.
    Thank you very much, and thank you, Mr. Chairman.
    Mr. Frelinghuysen [presiding.] Mr. Cramer.

                         architectural studies

    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome back and thank you for giving us this information 
about NASA.
    Mr. Goldin. By the way, I do feel welcomed back. Really.
    Mr. Cramer. Good.
    Mr. Goldin. Yes, I do. Yes, I do.
    Mr. Cramer. Let me see if I can direct you through some 
space transportation and space launch initiative questions.
    Can you talk about how the space transportation 
architecture studies, the integrated space transportation plan, 
and the space launch initiative are related to one another?
    Mr. Goldin. Could I ask Sam Venneri who is head of the 
Aerospace Technology activity to answer that?
    Mr. Venneri. Yes. We initially did some architectural 
studies with industry that you are referring to which is the 
first set that looked at access to space, and it was primarily 
focused on a commercial closure of the business case studies. 
Those were done. We had mission models structured around that, 
and the commercial bases for some of those outputs really did 
not materialize.
    Mr. Cramer. The commercial bases did not materialize?
    Mr. Venneri. No. So what we are looking at now, with our 
current Pathfinder, the X34, X37, X33 programs, which are 
primarily experimental flight programs to get fundamental data 
on engine performance, thermal protection systems, those 
provide a baseline of a technology base today in this year 
2000.
    What we have started, what we have agreed to with the 
administration, is a strategy that takes us into the next 
century that is based on three parts. The first is a 
restructuring of system trade studies with all the industry, 
not just the large aerospace primes, but in effect going backto 
what the Administration was talking about in terms of understanding 
requirements, understanding the system trades for the next generation 
of systems that go beyond the space shuttle, and meeting NASA unique 
requirements for space access as well as that required for cargo other 
than humans flying the space as part of our program.
    Those studies will be initiated this year with all of the 
industry participation. We have had workshops where we have 
brought the emerging launch companies in along with the 
established aerospace companies, told them how we were going to 
approach those requirement studies this year.
    From those studies, we would put together technology road 
maps looking at what has been referred to as second- and third-
generation systems, advancements in technology that allows us 
to make a down selection decision in the 2003 time frame that 
would move off of the technology baseline we have today, and 
into a demonstration of reusable systems that would allow us to 
work with all of the industry.
    The key tenet to that is we--one lesson that we have 
learned is we are going to maintain competition. So, when we 
look at this down selection in, let's say, the '03 time period, 
we want and we have sufficient resources to look at maintaining 
competition with at least two industry teams.
    Mr. Cramer. Competition with at least two industry teams?
    Mr. Venneri. A minimum of two industry teams.
    We found that when you do not maintain competition, you 
tend to stifle innovation and creativity, and we are looking at 
maintaining the best possible position for the Government being 
a customer for these services.
    The other thing that we included in there is what you see 
alternative access. We are looking at spending $40 million and 
a total of roughly $340 million to again in the same time 
period, in addition to pushing this next generation of 
reusability, to look at alternative access to supplying 
contingency cargoes to the station that would not require 
shuttle flights.
    Again, this is reaching out to what I would refer to as the 
emerging launch industry. So those studies are in parallel with 
the system architecture requirements. It is unique for our 
needs of meeting flights to station, and in the next 2 months, 
we are planning a workshop and again a solicitation of getting 
proposals in to deal with what you see as a separate line 
called alternative access, which is what we are looking at as 
alternative access to the space station.
    Mr. Cramer. So will you down-select to two winners?
    Mr. Venneri. That actually could be more than two because 
we are really looking at, again, competition of what could be 
available, and the requirement would be not just getting 
something to space, but being able to operate in close 
proximity and dock and provide services to the station. So it 
is not just dropping payloads off. It is the ability to do 
proximity operations in the station environment.
    Mr. Cramer. Will this be completed by 2005?
    Mr. Venneri. Yes. We would like to have that capability for 
this alternative access worked and available to us in the 2004-
2005 period.
    Mr. Goldin. Mr. Cramer, could I just add one point here? 
The emerging launch industry had looked towards thousand of 
launches over the next 5 to 10 years, and because of the 
collapse of programs like Iridium and other such programs, they 
lost their commercial market.
    A lot of them have very significant investments. They are 
good companies. Everyone is not going to win. We have heard a 
lot of talk that some of these companies want to be earmarked 
into the program. I am saying this openly in this committee, 
expressing a high level of concern, that we would like to run 
wide-open competitions. There has been a lot of lobbying by 
some of these companies, and I am making this statement not to 
the committee, but to the companies that are providing this 
lobbying. We, NASA----
    Mr. Cramer. Were you pointing behind you? [Laughter.]
    Mr. Goldin. I did this in another hearing, too, but this is 
a message to the industry. If you believe in capitalism, if you 
believe in a free-market economy, you should be strong enough 
to compete and not have an earmark. I just would like to add 
that, and I think it is important that they hear that.

                   alternate access to space station

    Mr. Cramer. If I have any additional time, I would like to 
address alternate means of resupplying the space station--you 
have requested in this year's funding level $40 million for the 
alternate access to space station program. Tell me how that 
fits, and why the $40 million.
    Mr. Venneri. Okay. What we are looking at--and if you look 
at the run-out, it adds up to roughly $345 million over that 
time period, $40 million the first year and the run-out--we 
have it staked out at that level. That is really to deal with 
these emerging launch companies to bring a--first year is a 
requirements definition, development of what our mission needs, 
safety issues associated with what we are looking for, and 
performance, how many pounds of payload we would want to 
deliver and the issues of operating and retrieving payloads in 
the station. If they can meet those requirements, that more 
than meets requirements for commercial payloads going below 
earth orbit or beyond. What we want to do is select about five 
or six companies competitively to do these first rounds of 
system trades for us in the first year. Like I said, we are 
going to have a workshop 2 months from now to bring those 
companies in, down to Huntsville, to start this process with 
them. After about a year of study, we would further refine 
those technology-driven road maps, those mission requirements, 
that would in effect lay out a procurement launch service 
operation.
    Mr. Cramer. Forgive me for interupting, but my time is 
almost finished. Will there be a competition every year?
    Mr. Venneri. Yes. There would be a competition in year----
    Mr. Cramer. Would this consist of multiple phases?
    Mr. Venneri. One phase to be followed by competition for 
launch services which we could integrate within our existing 
launch contracts we have or contracts that do not exist or to 
provide service to us. So it opens many avenues of people doing 
business with us. It does not preclude new launch companies 
that do not have existing business or contract relationships 
with NASA today.
    Mr. Goldin. By the way, it is not just emerging launch 
companies.
    Mr. Cramer. Does it include small to mid-sized launch 
companies?
    Mr. Venneri. It could be all the way from emerging to delta 
to any of the existing launch services today.
    Mr. Cramer. Mr. Chairman, thank you for indulging me. Thank 
you, Mr. Goldin.
    Mr. Frelinghuysen. Thank you, Mr. Cramer.
    Mr. Knollenberg.

                        faster, better, cheaper

    Mr. Knollenberg. Thank you, Mr. Chairman.
    Mr. Goldin, welcome, and gentlemen.
    I know this is probably a little bit overdone, and you have 
been facing the music for a long time, but let me allow you to 
face it again. The tune will be the same pretty much, but I am 
looking for a couple of areas of information here.
    The faster, better, cheaper thing, I think as the chairman 
noted in his opening remarks, suggests that it may be faster 
and cheaper, but it is not better. I think that is a tone that 
is reflective of what we see. We only know what we see.
    The Post has termed this ``Another avoidable mistake for 
NASA,'' avoidable mistake, about lapses in management, about 
four spacecraft. I understand two, but they have got four in 
their column, including the piggy-back apparently on the two at 
a cost of some $360 million.
    The claim that the agency just simply neglected 
fundamentals, this is not just the Young Report that the Post 
is reflecting coming from other sources as well.
    I want to address you directly on this. You and I know each 
other, and we get along. We have a respect, I think, for each 
other, but what bothers me about this particular problem is the 
one specific that has to do with the failure to convert English 
to the metric units. It seems to me that is kind of--the 
analogy might be to tune a race car in every respect except the 
failure to tighten the lug nuts, which is a very, very first 
step in anything.
    Here you have this magnificent extraordinary spacecraft, 
this device, that seems to do everything right except somebody 
did not do a very, very basic thing. To me, as an outsider 
looking in, and it is reflective of the views of a whole lot of 
people I have talked to, it is like who blew it? Who really 
blew it? That to me suggests--and you could say, ``Well, they 
are young kids.'' They are, some of them. And the JPL team, for 
example, had 10 people working 80-hour weeks. Maybe they were 
overstressed. I do not know, but can you just go 
straightforward eyeball to eyeball with me on this and tell me 
how do you stop this from happening in the future?
    Mr. Goldin. First, let me----
    Mr. Knollenberg. Did not stop it here. So how do we stop it 
in the future, and why was this very thing overlooked?
    Mr. Goldin. First, let me say--this will sound funny--we 
will not stop it. This is the space business, and I will point 
out to you some----
    Mr. Knollenberg. You will not stop what?
    Mr. Goldin. We will have problems. We will have other 
problems, but let me point out that some 20, 30 years ago, we 
sent a spacecraft, I think it was, to the moon or to Mars, and 
the software did not have a dash in it, just a little dash, and 
the mission failed. This is how life is. In our individual 
lives, we go through and we make mistakes all the time. When we 
have----
    Mr. Knollenberg. This is a very, very simple matter, I 
think.
    Mr. Goldin. The problem I wanted to get to, it is not the 
fact that someone made an error in the transposition of terms. 
The problem was the system was intolerant of that failure, and 
one of the things we have to do is have systems that are 
tolerant of failure because we have humans that do software 
coding.
    Mr. Knollenberg. Intolerant?
    Mr. Goldin. The system was not tolerant of a failure. That 
was the problem, because failures occur all the time and we 
catch them because the system is tolerant of failures and to 
individual failures at the system level it does not fail. So it 
was not the error coding that was the problem. It was the 
breakdown of the review process, of the process of doing the 
job, not that individual element. That is the area that Mr. 
Keegan is going to be working on to see how we build more 
error-tolerant systems.
    Mr. Knollenberg. So you can do something about that----
    Mr. Goldin. Oh, yes.
    Mr. Knollenberg [continuing]. To oversight it to make sure 
it does not happen again.
    Mr. Goldin. What I was saying is, you get individual 
errors, but you want to build a system that is more tolerant to 
an error so at the system level if a little error occurs in the 
bottom base of the system, the overall system does not fail.
    We will be able to do that to a degree, but I want to look 
at you and say--and I think this is difficult and I had a hard 
time getting it across--we are going to crash other spacecraft. 
We will have problems with other spacecraft. We will have dumb 
problems because that is the very nature of this business.
    Mr. Knollenberg. I know it is difficult frankly for you to 
see this happen. It is your shoulders. It is difficult for us 
obviously to confront you with what is our oversight 
responsibility, but frankly we have to do that and I do have 
concerns about--I still have a problem with this one little 
glitch which I would hope that Mr.--Keegan, is it?
    Mr. Keegan. Yes.
    Mr. Knollenberg [continuing]. There is a way to avoid that.
    I can understand why something would go wrong that was of a 
highly technical nature, and maybe you cannot even find out 
what went wrong until the very end, but when it comes to the 
lug nuts or this kind of thing--and I recognize you have an 
explanation for that--it defies, I think, the proper oversight 
that should be there to avoid this kind of thing.
    Again, I am just quoting the avoidable mistake.
    Mr. Goldin. I want to come back and say it is very 
important. I have worked on--we lost a Mars Observer that was 
$800 million. We had a spherical aberration in the Hubble 
telescope with all the experienced people and all the 
oversight. In fact, we had people who watch people who watch 
people. We still had a problem.
    This is something that has to be tolerated, but I want to 
come to my definition of faster, better, cheaper, and this is 
where I started. This is what I am responsible for, and I would 
like to just point out a few aspects.
    First, a basic issue in faster, better, cheaper is relying 
on individual and organizational commitment to responsibility 
and accountability of doing it right the first time.
    When we go back to incredible oversight, we take away 
personal responsibility, and the analogy I give to you is my 
father was a teacher, and up until the third grade, he worked 
in the post office sorting mail. When he became a teacher, he 
started reviewing my compositions, and my grammar and spelling 
is terrible to this day because he always corrected it.
    One of the things that we have tried to instill in NASA 
that these people out of JPL took up and the Lockheed 
Martinpeople took up is responsibility and accountability and not 
having this oversight.
    In the private sector, you get thrown out if you had all 
the oversight that we have in the Government, but the American 
people expect us to work to a higher level. We can and we will, 
but we cannot work to a high level if we say don't you dare 
fail because I will guarantee you success, but what will happen 
when we tell people don't you dare fail because we cannot 
explain it to the American people, we will set such mediocre 
goals and we will go back in the other direction over there.

                         global climate change

    Mr. Knollenberg. I am not suggesting that you have to 
modify that to a point of being ridiculous in the overlays of 
defensive measures to counteract success, in fact to prevent 
success. I am not suggesting that at all. It just seems to me 
that this is one of those examples that is so simple. Why in 
the world didn't somebody notice that the lug nuts were not 
tight?
    I understand to a point what you are saying, but I have a 
little problem with your explanation because it still looks 
away for what should have been obvious to somebody with an eye.
    You are going to have to help me some other time on this 
because my time is running out. My only other question I would 
have for you, and this is going to be very, very brief, is 
there are three scientists that you have contributed--I beg 
your pardon--that have secured funding from NASA, and this has 
to do with the national assessment or the climate variability 
and climate change issue. These three researchers who do 
receive this funding are Sally Baliunas, John Christy, and Roy 
Spencer. What is NASA doing to ensure that their science is 
presented in the national assessment in some balanced form?
    Mr. Goldin. First, the fact that we are funding these three 
people who disagree with some of the broader inter-governmental 
committee perspectives is a statement in and of itself.
    Mr. Knollenberg. I agree.
    Mr. Goldin. We at NASA want open peer-reviewed science. We 
want to have the free flow of science with people on both sides 
of the issues. So we run open competitions, and we want to 
encourage both sides of the argument because it strengthens us 
and makes us better.
    When we selected the Young panel, we did not pick people 
that are going to be easy on us. We selected people that would 
dig in and they did their job so we would be that way, but we 
are absolutely committed to wide-open peer-reviewed research, 
with people that argued in the court of the intellect.
    Mr. Knollenberg. I do appreciate that answer, and I think 
that is an approach that I would see as being very honest and 
very honorable because that is the only way I think you can get 
there to present a balanced case.
    Mr. Goldin. If you are here for the next round, I would 
appreciate coming back to that issue because you are still not 
satisfied, and there are some points I would like to make that 
may get you there.
    Mr. Knollenberg. I will try to be back, but I have a couple 
of commitments. But we can still do that later. Thank you.
    Mr. Goldin. Okay. It will be my pleasure.

                      international space station

    Mr. Frelinghuysen. Thank you, Mr. Knollenberg.
    I have a few questions that relate to the International 
Space Station.
    The chairman mentioned in his opening remarks, and I quote, 
the ``on-again/off-again assembly of the International Space 
Station that has been put on hold for a year and a half.'' I 
was wondering, Mr. Goldin, were you aware that the Russians 
were going to be docking with the Mir as they did this morning?
    Mr. Goldin. I was painfully aware.
    Mr. Frelinghuysen. You have given us a sense of your 
frustration. I assume that you were as aghast as some of us 
were that they would describe, as the chairman has in his 
statement, that this would be, perhaps in their own words, 
``the beginning of a new lease on life'' for that particular 
laboratory?
    Mr. Goldin. I do not know whether it is a new lease on 
life. I do not know what they intend to do. What I do know is 
what I stated before. If one nickel of Russian government money 
is going to the Mir program to keep it up in the sky and that 
one nickel is not being invested in the International Space 
Station, I have a major problem. It is not for the NASA 
Administrator to tell a sovereign country how to conduct their 
independent business, but it is for the NASA Administrator to 
say to a sovereign nation, if you sign an international 
agreement at the highest levels of government, you must pay the 
bills, and if you cannot, you face up to it and do not put the 
money in a different place. That is my problem.
    Mr. Frelinghuysen. The chairman also had in his opening 
remarks, and I quote, ``This week's mission to reawaken Mir 
used the Progress and Soyuz vehicles, the United States paid 
for and were originally dedicated to the International Space 
Station.'' Is that accurate?
    Mr. Goldin. That is not accurate. What we did is we bought, 
I believe it was, 4,000 hours of crew time that the Russians 
had for the international agreement on the initial phases of 
the build-up of the space station. That is what the money paid 
for.
    We did that to encourage the Russians to keep on track, but 
we got value-added for the money that we paid. We said that we 
would make milestone payments based upon what progress you make 
on Soyuz and Progress vehicles, but we did not pay for those 
vehicles, and that was a misconception.
    Mr. Frelinghuysen. So none of our time and money was----
    Mr. Goldin. Our taxpayer money did not pay for vehicles 
that went to the Mir Space Station.

                         service module launch

    Mr. Frelinghuysen. The question was posed this morning, if 
Russia fails to launch the service module this summer, NASA 
must be prepared to fly the interim control module in December 
and accelerate the design of construction of the U.S. 
propulsion module.
    Mr. Goldin. We are prepared to do that. We have one little 
itty-bitty problem. We wanted to buy two pieces of hardware 
from the Russians. One piece of hardware would allow us to dock 
the interim control module with what is called the Zarya 
module, and we wanted to have some other equipment that would 
help us dock the propulsion module with the space station. That 
is $14 million. If we would have built that equipment in this 
country, it would cost a lot more, and in some cases, we could 
not even build it because it is integral with some of the 
Russian equipment. The only thing that is holding us up right 
now is weabide by the law. 1883 was passed by the House and the 
Senate and the President signed it. So we have to live within the 
letter of the law of that congressional mandate. So we are at the 
present time working that through, and as soon as we could place that 
purchase order, I could look you in the eye and say in December we will 
be able to launch the interim control module.
    We will be having a Delta PDR on the propulsion module 
sometime in May or June of this year, and at that time, we will 
be able to take a good hard look at the schedule for the 
propulsion module and see how we could accelerate it.

                         russia's contributions

    Mr. Frelinghuysen. What have the Russians contributed to 
date to the International Space Station?
    Mr. Goldin. They have built a significant amount of 
hardware. They have been performing the mission control 
function out of the center in Moscow. They have been incredibly 
open with us. They have launched----
    Mr. Frelinghuysen. Out of your budget, we have given you 
approximately $2 billion each and every year, haven't we?
    Mr. Goldin. Yes. I cannot translate rubles into dollars 
with all the way business gets done in Russia, but they are 
building, I believe, hardware equivalent to 50 percent by 
weight and also of the same level of complexity of the hardware 
we are doing. They have built some very, very good hardware. We 
have been following it. The service module looks like a high-
quality piece of hardware.
    Mr. Frelinghuysen. So there is no way to monetarize, if 
that is the proper term, to figure out how much they have 
actually contributed in terms of rubles or dollars and cents?
    Mr. Goldin. I do not know how to convert that.
    It is an amazing thing to see how when we convert rubles 
into dollars and then take a look at the number of hours that 
they get out of their employees how to make that one-for-one 
connection. We have tried real hard. We do not know how to do 
that, but they have thousands of people working.
    Mr. Frelinghuysen. They certainly do. They have a lot of 
unemployment, that and a variety of other errors in Russia, but 
I assume there must be some way to get a dollar ball-park 
figure.
    Mr. Goldin. We have tried. In response to that question, we 
will try once more and get back to you. By the way, I might 
point out they have a whole series of Progress and Soyuz 
vehicles in the construction phase right now for the 
International Space Station to be launched later this year.

                   operational cost of space station

    Mr. Frelinghuysen. Last year, we discussed the space 
station--operating costs of the space station. Subsequently, I 
understand that NASA and the GAO differed on the cost to 
operate the International Space Station. As might be expected, 
the GAO estimate was higher as it included more items and 
reached further into the future.
    Have you and GAO reached a meeting of the minds?
    Mr. Goldin. Joe, could you answer that?
    Mr. Rothenberg. Certainly. The one area where the GAO and 
us really do not differ--it is just that we have not gone 
through and completed what we are calling an operations 
review--and we have right now a committee in place under the 
chairmanship of Dr. John Cox, made up of a number of external 
people, who are looking at what the post-assembly operations, 
logistics, and what the costs really are going to be. We are 
operating on an estimate that was put in place about 5 years 
ago. Now we want to look at it in actuality.
    What the GAO points out is we have not defined or 
incorporated the costs of operations for the propulsion module 
yet, the CRV, and our long-term operations budget. We agree 
with that. We just want to be on firm ground when we update our 
estimates.
    Mr. Frelinghuysen. So there is no operational cost 
estimate?
    Mr. Rothenberg. There is operational cost estimates in the 
budget today of about $1.5 billion a year.
    Mr. Frelinghuysen. How does that compare to the past 2 
years?
    Mr. Rothenberg. Well, these operations costs----
    Mr. Frelinghuysen. Last year to this year?
    Mr. Rothenberg. Well, the costs last year to this year are 
far less, and the reason is that at this point we are not doing 
research onboard the station. We are doing development in 
parallel with the operations of just the two simple modules we 
have up there. Therefore, the cost of operating it is far less. 
The cost of resupplying it and logistics to it are far less 
than it will be in the future.
    However, the other point is that the development work force 
today is supporting operations also as part of the development 
activity. In the future, the focus will be 80 to 90 percent, if 
not all, of the work force on operations, and at that point, 
between that, the spare parts logistics, the cost to operate 
the CRV, maintain the CRV, the propulsion module, those total 
costs right now are targeted to be somewhere within the 1.5-
billion number. However, that estimate was put together 5 years 
ago, and we have not taken a look at it seriously.
    This year, for the first time, we are looking at that now 
that we see the first pieces are up there and we are getting an 
experience base to start from.
    Mr. Frelinghuysen. So we are taking it seriously now 
because the assembly is moving ahead?
    Mr. Rothenberg. We have always taken it seriously. The 
difficulty is it is easy to estimate cost when you have no 
experience base to go from or you do not know what all the 
pieces are. It has become much more difficult to estimate the 
cost because you want to get them correct. They are much more 
important. Let me put it that way, to estimate the cost more 
precisely now that we know the completion, approximate 
completion times. We know the complement of hardware we will 
have on orbit, a propulsion module, a CRV. We did not know that 
5 years ago, and so those estimates were early estimates, and 
all we want to do is make sure that as we go over them next 
year, we understand all of the pieces and include all of the 
pieces and not have an estimate that does not cover all the 
pieces we need to fully operate it.
    Mr. Frelinghuysen. How much is the cost of operation? How 
much of the costs are reduced by international participation 
which, of course, is one of the original selling points?
    Mr. Rothenberg. I do not have a number of how much the 
offsets----
    Mr. Frelinghuysen. We certainly do not have a number for 
the Russians, but who are the other participants?
    Mr. Rothenberg. The Japanese, the Italians, and the 
Brazilians. I can get a number. I just do not have the number 
of what that----
    Mr. Goldin. The number for the other countries is something 
on the order of $9 billion, exclusive of the Russians.
    Mr. Frelinghuysen. If we can get a breakdown----
    Mr. Goldin. Oh, no. I gave you the wrong number.
    Mr. Rothenberg. Right.
    Mr. Goldin. I gave you the development cost.
    Mr. Rothenberg. Right.
    Mr. Goldin. I stand corrected.
    Mr. Rothenberg. He was asking the operations cost.
    I just do not have the number off the top of my head put 
together like that. There are costs. We will not know the cost 
of the number, but the contributions we expect out of the 
Russians with the Progress and resupply vehicle are important 
and the Soyuz to deliver crew are important elements of the 
program.
    [The information follows:]

    The estimate for ISS operations, made in 1994, is 
approximately $1.3 billion per year, averaged over the expected 
ten-year operational life of the ISS. This includes an average 
of $300 million for research utilization and $1 billion for 
other operations. A new review, focused on the post-assembly 
complete operational costs, is being conducted as part of the 
FY 2002 budget formulation process. This estimate for 
operations and research utilization will also include civil 
service costs, consistent with the Agency's full cost approach. 
Shuttle operations and other launch vehicle support to the ISS 
are estimated and budgeted separately.
    The operational costs for the Russian Elements on the ISS 
are covered completely by Russia. The operational costs for the 
non-Russian elements of the ISS, excluding Shuttle and other 
launch vehicle support to the ISS, are estimated at $1.3 
billion average per year. Approximately $300 million of this 
cost is identified as ``common system operations'' and is 
applicable to the sharing agreement between the International 
Partners and NASA. The remaining $1 billion is unique to NASA. 
The agreement states that the International Partners will cover 
23% of the $300 million common cost, or less than $100 million. 
This percentage is proportional to their share of resources 
from the non-Russian side of the station. It is anticipated 
that most of the International Partners' responsibilities will 
be covered through the delivery of resupply to the station 
including propellant from ESA and other logistics from Japan, 
each using their own launch systems.

                         crew transfer vehicle

    Mr. Frelinghuysen. Can we assume that NASA is using the 
delay in completing the International Space Station to 
reevaluate its plan to provide future space station crews with 
a mean of scale? Currently, as I understand it, there are two 
ways to get a crew back to earth. One is a U.S. fleet of four 
space shuttles. Is that right? The second is the Russian-built 
Soyuz spacecraft.
    One approach, as I understand it, a billion-dollar plan to 
build a small fleet of one-way CTVs. The other is to spend a 
modestly larger investment to build a space shuttle back up 
with the ability to put astronauts in space called CTVs. Is 
that correct?
    Mr. Rothenberg. CTV.
    Mr. Frelinghuysen. CTV?
    Mr. Goldin. Crew transfer vehicle.
    Mr. Rothenberg. Crew transfer vehicle.
    Mr. Frelinghuysen. What are the pros and cons and costs of 
each approach?
    Mr. Rothenberg. Right now, where we are is we have an X38 
program which has demonstrated technology that could lead to a 
crew return vehicle. The current estimate we are carrying is 
about a billion dollars to provide four vehicles to support the 
space station.
    We have been asked by the Administrator to look at 
alternatives to that, that might look at for incremental costs 
over what we are spending now for a crew return vehicle to 
develop a crew transfer vehicle, and I will talk about how we 
are doing that in a minute, to develop a crew transfer vehicle 
which will provide two-way services and serve the crew return 
function.
    Where we are right now is as part of the integrated space 
transportation study, we have incorporated in this next phase 
of that a request to the contractors to propose alternative 
approaches to satisfying the crew return vehicle, the crew 
return function, by looking at the crew transfer vehicle as a 
two-way vehicle and provide the crew return function.
    My main concern about that if it adds several years to the 
program or costs above and beyond what we are expecting today, 
we will be adding risk to the program or dependence on the 
Russians for far longer than we would like to. However, we will 
not know where we are until the results of these studies are 
in, and our intent is to have these studies and to make the 
decision before we proceed with full-scale development of----
    Mr. Frelinghuysen. What is your time table, the bottom line 
being how and when will NASA decide what approach best meets 
its transportation needs and the safety?
    Mr. Rothenberg. We are developing the crew return vehicle. 
The crew return vehicle, we are about to enter in this coming 
fall in a phase-one study. It is a phase-one activity which is 
development of the design to the point where we fully 
understand the cost and fully understand the functionality of 
it.
    At the same time in parallel are these advanced 
transportation studies that are looking at the crew transfer 
vehicle. The phase that we are looking at will be about 18 
months from the start of contract which will be October 1st, 
from that time before we initiate the second phase, which is 
the development of the full-scale vehicle. So over the next 18 
months or 18 months from October is when we hope to resolve 
that question.
    Mr. Frelinghuysen. Mr. Mollohan.

                 integrated financial management system

    Mr. Mollohan. Thank you, Mr. Chairman.
    What is the status of your integrated financial management 
system?
    Mr. Goldin. Arnold? Could we have the chief financial 
officer, please?
    Mr. Mollohan. Whoever is to implement it.
    Well, you had your name tag already. It would have been a 
shame if you had not been called to answer some questions.
    Mr. Holz. Well, he said that is what it was for.
    The status of the Integrated Financial Management System, 
on January the 10th, NASA issued a cure notice or a show-cause 
notice to KPMG alerting the firm that the system they delivered 
to NASA to support its IFMP did not meet the Government 
requirements as outlined in the contract.
    The notice required KPMG to provide any facts that they 
could regarding whether their failure to perform arose from 
causes beyond their control. KPMG was provided a 10-calendar-
day period during which they were required to either cure the 
problems or provide assurances that they could. The date was 
extended, and KPMG's response was provided to NASA on January 
28th, 2000. On March the 10th, theparties agreed to cease 
performance on the contract. NASA is pursuing alternatives for 
achieving the goals of the program. However, the alternative courses of 
action may include fulfilling the program requirements without the 
support of KPMG. Until the course of action is outlined, it is 
premature for us to lay that out before you at this precise moment.
    Mr. Mollohan. This is a second effort to stand up this 
system, isn't it?
    Mr. Holz. It is a second effort, but the approaches were 
different. I do not know exactly the year NASA took its first 
steps, but there was a system called NAFIS which was strictly 
an accounting system. It did not integrate with the other 
business processes, a little narrower definition of the 
requirements, and it was accounting only and it was an in-house 
development effort which was ground-up design, writing program 
code and what have you. After a substantial investment, it was 
clear they were not anywhere near reaching the goals and it was 
way off target.
    Mr. Mollohan. What went wrong----
    Mr. Holz. We determined that this--I beg your pardon.
    Mr. Mollohan. No, I'm sorry.
    Mr. Holz. The second effort, the one that we are now 
involved in was different in that our approach was to contract 
with a firm to deliver a fully integrated COTS-type products 
that would enable us to do all our business processing, but 
that did not happen.
    Mr. Mollohan. How long has KPMG been working on it?
    Mr. Holz. 1997 is when we started the contract, and----
    Mr. Mollohan. How much money have they been paid?
    Mr. Holz. They have been paid approximately $10 million for 
a couple of things they actually did deliver, but it was not 
the software. It was some business process flow charts, 
transactional flow-type things, and an early budget module that 
we are currently using. It is an isolated piece that will feed 
the accounting system, and that early budget module is in place 
and we are currently using that.
    Mr. Mollohan. Where do you go from here?
    Mr. Holz. Well----
    Mr. Mollohan. You are addressing this question in part of 
your budget request?
    Mr. Holz. Yes, we are, and the costs are a little too early 
to find on the alternative approach yet, but we are diligently 
working away at that and that will work into our budget process 
and will work through the month of July as we begin to assemble 
the agency budget process. We currently have some funds 
available to continue the effort.
    Mr. Mollohan. What does that mean? What are you going to 
do?
    Mr. Holz. Well, when I say continue the effort, we are 
going to move forward with an alternative plan, and the work on 
that can begin as we prepare the out-year budgets for the 
remainder of the program.

                          full-cost accounting

    Mr. Mollohan. Are you under a time constraint to get this 
full-cost accounting capability in place?
    Mr. Holz. I think the time constraint on that is the agency 
has indicated very much a desire to and the accounting 
standards require to a certain extent to implement full-cost 
accounting, and we are going to take a phased approach using 
existing systems which are not as timely and efficient as an 
integrated approach would be, but we are going to use that 
initially. The time constraint on this, I think, is one we can 
internally determine and control ourselves. We are not on an 
externally mandated deadline. It is all part of our plan and 
how we are going to implement and roll this out, and it is one 
in which I think we can control those dates.
    Mr. Mollohan. Have you thought through this enough since 
you have taken this action with KPMG to have an estimation of 
when you will have this system in place?
    Mr. Holz. I would love to give you that information. The 
plans are in an early stage of development, and I think it 
would be bad for me to do that right now. One of the things we 
want to make sure of is that as we proceed, we want to make 
sure that we have a system that will work, and we are going to 
follow a process of proving it before we establish expectations 
which may not be met. So we want to make sure we can deliver on 
promises. It is a little premature at this time to give that 
information.

                          kpmg non-performance

    Mr. Mollohan. Just curious. Has KPMG been paid for 
nonperformance in your estimate?
    Mr. Holz. Oh, I can factually state that they have only 
been paid for things that they have actually delivered. This 
was mostly a fixed-price firm delivery contract, and they have 
not been paid for work they have not performed.

                           propulsion module

    Mr. Mollohan. Thank you.
    Why has the cost of the Propulsion Module increased so much 
over so little time, and do you need two of them?
    Mr. Goldin. Joe?
    Mr. Rothenberg. On the FY00 budget, which was the first 
time we put that into the budget was generated--we had at that 
point just completed the systems requirements review which we 
laid out the full set of requirements on the propulsion module. 
At that time, we took the best estimates from the contractor, 
the Boeing company as well as our own in-house and non-prime 
costs and factored that with some reserves and put it into the 
budget.
    Subsequent to that, we went through to what the first stage 
of a preliminary design review--which got us through last 
December, and we used that input for the 2001 budget process. 
In that, we identified a number of integration costs with the 
shuttle that were not included in the initial set of budget 
inputs from the consideration.
    At this stage, in fact, until we complete the PDR in May or 
June, I am not sure we fully understand the cost of the 
propulsion module. So we have to watch that carefully.
    Mr. Mollohan. You mean yet?
    Mr. Rothenberg. Yes.
    Mr. Mollohan. Do you need a second propulsion module?
    Mr. Rothenberg. I think it would be highly desirable. 
However, when they started down this path, it was an awful lot 
of single-stream redundancy in the system, and that is part of 
what went into the increase in cost that significantly has 
increased the reliability on lifetime of the single propulsion 
module. We still need to revisit whether we need a second 
propulsion module, and we have not come to terms with that yet, 
but the increase in redundancy and reliability offset some of 
the risk of not having it at the initial start.
    Mr. Mollohan. So you do not have a good cost number yet?
    Mr. Rothenberg. I do not believe we do.

                            shuttle flights

    Mr. Mollohan. How many shuttle flights in Fiscal Year 2000 
were assumed in the 2001 budget request?
    Mr. Goldin. Joe?
    Mr. Rothenberg. There were six shuttle flights in the year 
2000 assumed and the 2001----
    Mr. Mollohan. I'm sorry?
    Mr. Rothenberg. There were six flights in the fiscal year 
2000 budget. In the FY 2001 budget request, currently there are 
five actually planned within that budget.
    Mr. Mollohan. You have dropped one.
    Mr. Rothenberg. Yes, that is correct.

                     shuttle upgrades and new hires

    Mr. Mollohan. You know the House passed a supplemental 
appropriations bill which includes $26 million for shuttle 
upgrades and $20 million for new hires. Should that funding not 
be provided, which is a possibility, why would it not be 
possible to use funds freed up as a result of this dropped 
flight?
    Mr. Rothenberg. The algorithm----
    Mr. Mollohan. You cover the $40 million NASA is seeking for 
shuttle upgrades and new hires, rather than using the $40 
million that Congress directed for the research mission funding 
in December 2001.
    Mr. Rothenberg. Unfortunately, the way the process works is 
that the hardware we need for the flights this year is bought 
in the preceding 3 years and paid for in the preceding--so what 
we have effectively done is deferred some launches into next 
year, and obviously there is a ripple effect that defers it 
into the following year, such that in the year of the budget, 
the year of the delegation, you only save about $16 million.
    The second point is we recognize that when we put together 
our budget each year that things like that happen, and one of 
the first places that we suffer with that recognition is in the 
reserves.
    Our reserves are less than 3 percent for the whole program, 
and the slip accommodates us and provides us with about $16 
million of additional reserve to deal with things like extra 
work because of the wiring problems we have had, things like 
the ongoing alternate turbo pump development which we hope to 
have flying this year. Principally, that $16 million is what we 
count on to use towards our reserves.

                             eosdis status

    Mr. Mollohan. Thank you.
    Can you provide us a status report regarding EOSDIS? I 
understand there have been some issues with the program, 
including a renegotiation of the contract.
    Dr. Asrar. Yes, sir. Good afternoon.
    Mr. Mollohan. Could you identify and explain the problem?
    Dr. Asrar. Yes. Basically, EOSDIS on technical grounds has 
been very successful, and it is functioning. It is delivering 
all the services and products that it was intended to in 
support of the four successful launches that we have had in the 
past year. It is currently supporting the full capacity, the 
operation, archive, and distribution of land-site data. It is 
currently supporting the operation and data processing and 
handling of the Terra spacecraft, and also the ACRIMSAT which 
was a small satellite. As of late, we also completed the 
Shuttle Radar Topography Mission.
    So, on the technical grounds, there are no issues in 
EOSDIS. However, as you stated, we had to renegotiate the 
contract because the initial contract was established back when 
EOS was started. Then we had only two major spacecraft. Since 
then, the number of spacecraft in EOS has grown to more than 
20. The structure of the contract really fundamentally changed 
because of the type of services and the type of missions that 
they had to support.
    So we successfully renegotiated the contract, and the total 
value of the contract currently is $957 million. The total 
growth in the contract value from its initial phase to the 
current is about $88 million, which includes added scope to 
accommodate new capabilities that we are requiring for support 
of the new missions or the added missions that I talked about. 
However, there is also some growth on the year-to-date cost 
overrun and, of course, the delay which was caused by not 
having the flight operating system----
    Mr. Mollohan. Not having what?
    Dr. Asrar. Not having the flight operating system, FOS, to 
support the Terra spacecraft. So it is a combination of 
basically cost growth and added scope to accommodate the new 
requirements which were options on the contract, the initial 
contract.
    In addition, we also had to give up some requirements to 
fit the total contract within the envelope that we have. All in 
all, the current value of the contract is below the initial 
estimates that were negotiated with the contractor.
    So, in sum, we believe we have a very good arrangement with 
the contractor to accommodate all of our requirements, albeit 
if we gave up some requirements to fit it in the budgetary 
envelope.
    Mr. Mollohan. You gave up requirements.
    Dr. Asrar. We did, yes. We faced some of the requirements. 
We gave up some of the requirements as well as, as I stated, 
including new high-priority requirements and----
    Mr. Mollohan. And the contractor got $88 million more.
    Dr. Asrar. Which is a combination of--again, recalling 
that, initially it was supposed to support only two spacecraft. 
In the current arrangement, we are having roughly about more 
than 20 spacecraft that are going to be operated and managed.
    We also came up with some innovative methods of handling 
some of the functions that the initial contractor had to 
accommodate. For example, the processing of the data was 
supposed to be handled by the contractor, and we provided that 
as an option to the principal investigators who had the 
facilities and the expertise. We allowed them to bid on that 
activity, and that helped us to reduce the cost of those 
activities significantly.
    The only remaining issue at the moment is that within the 
current fiscal year and the next fiscal year, the total amount 
required to basically fulfill all the tasks that we have 
identified, there is a shortfall of about--there was a 
shortfall of about $36 million this year which we have managed 
to reduce it substantially to half that amount within the 
program, and there is about a $12-million shortfall next year. 
So that is basically the status of the EOSDIS.
    On the technical ground, it is really sound. Just on the 
budgetary front, we have some challenges that we have been 
trying to work out within existing budget for this year andnext 
fiscal year.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh [presiding]. You are welcome.
    Mr. Hobson.

                    Representative Hobson's Remarks

    Mr. Hobson. Thank you, Mr. Chairman.
    First, let me say I just want to thank you for your 
collaborative efforts with DOD, and working with NASA, Glenn, 
and Wright-Patterson. I think that it is a good synergy, and it 
is a good commitment for both of you to make. I think you can 
help each other. I want to thank you for that, and I know that 
you plan to continue that and I appreciate it.
    You might be interested in that last night I spoke to a 
class at George Washington University. We talked about the 
Government and people in Government and people who run federal 
agencies.
    Somebody asked about some of the problems with NASA and 
some of the missions. I said I think you have brought the best 
of the private sector to this agency, and I think you had 
really taken over programs that had struggled somewhat. You 
have tried to bring to it a good private sector management and 
that you were looking at the Mars program. One of testimonies 
you had given before is you had been maybe a little too strong 
in some ways and needed to let it breathe a little bit, but 
that is all management. So I pointed out to them that I thought 
you were probably the premier administrator of all the agencies 
we talk to. So, if you hear anything back from those kids, I 
hope they get something out of it, and I hope NASA gets----
    Mr. Goldin. It is good to hear some good news in the last 3 
weeks. [Laughter.]

                   ultra-efficient engine technology

    Mr. Hobson. Running these agencies, it looks a lot easier 
from the outside than it is in the inside. Some of us who run 
businesses before can understand that a little bit.
    I want to talk about a couple of things that I might have 
some concerns about. I am concerned about the Ultra-Efficient 
Engine Technology Program and aeronautics. I want to make sure 
that we keep the first ``A'' in NASA as a priority. I was 
pleased to see substantial resources committed to aeronautic 
activities in your '01 budget request which will make our 
planes safer, our skies quieter, and our atmosphere cleaner. 
One of the key programs is the Ultra-Efficient Engine 
Technology Program. You requested $35 million for the UEET 
program compared to $68 million which was appropriated for UEET 
in '00. This decrease is 48 percent. I would like you to 
explain the decrease in the program which I think you referred 
to as ``a high national priority'' in your budget 
justification. Would you like to respond to that?
    Mr. Goldin. Yes. I would ask Sam Venneri to respond.
    Mr. Hobson. This guy from the end, I understand, is the 
right guy.
    Mr. Venneri. The $68 million that was in the congressional 
budget, what we did--and this is not sleight of hand. It is 
really recognition of aero propulsion. It should be worked with 
the airframe. The money was actually reduced down to 55, and of 
that amount----
    Mr. Hobson. And not 35?
    Mr. Venneri. It was 55, and the 35 came from us breaking it 
into two pieces. One is the UEET efficient program. The other 
one was $20 million that we put under the quiet aircraft 
technology. The quiet aircraft technology was actually a $20-
million earmark in 2000. This is probably the only time you are 
going to hear me say earmarks are a good thing because that 
earmark was actually the right program. We are continuing that 
$20 million into 2001 and 2002. That $20 million, though, 
breaks down to mostly at Glenn. $15 million of that 20 under 
quiet aircraft program is really at Glenn Research Center. So 
you really have to look at the 35 that you are referring to 
under the ultra-efficient engine and the noise activity 
associated with propulsion is under the quiet aircraft program. 
The reason we are doing that is that the engine and airframe 
itself together represents the technology thrust that we have 
to solve. When we talked to you a few months ago, I told you we 
were going to try to bring the airframers and engine companies 
together. The Glenn people moved out at light speed. We have 
contracts in place now with General Electric, Pratt & Whitney, 
and Boeing looking at this integrated problem as one team.
    We are looking at generic airplanes. We are not picking a 
777 or a Boeing proprietary design, but we do have an industry 
team and a Glenn-Langley team addressing the total integrated 
package of advanced propulsion into advanced airframe concepts. 
So, really, if you wanted to say how much is down at Glenn, it 
is more like $5 million.
    Mr. Hobson. I want to ask it a little deeper than that. Are 
you committed to the UEET program? Is it the right program? Is 
it the wrong program? What is your overall commitment? I am 
talking about the UEET part now.
    Mr. Venneri. Your statement about propulsion being critical 
is absolutely right on. What we are working with Glenn now on, 
in addition to what I have described in terms of this industry 
team which brings the airframe business in, is working with 
them and establishing a long-term core competency strategy in 
aeropropulsion at Glenn and more importantly a program baseline 
that brings the engine companies in with us as a partner.
    We had that in place when we had adequate funding at Glenn 
under what was kept under the high-speed research program which 
went away. What we are in the process of doing now is 
recovering those critical technology areas that are absolutely 
crucial for the aeropropulsion industry and our research at 
Glenn to move forward. That is being done over the next few 
months this summer. So we are really looking at this not as a 
2001 problem, but really as part of our structured 2002 budget 
structure that we are pulling together now. So the simple 
answer is we are absolutely committed to support this area 
correctly in the Nation.
    Mr. Hobson. Can I ask a couple more questions?
    Mr. Walsh. Yes.

                        reusable launch vehicles

    Mr. Hobson. I want to talk a little bit about reusable 
launch vehicles, that same guy. [Laughter.]
    Mr. Hobson. If we look at the aerospace technologyrequest 
for 2001 and the outlook for the next 5 years, it is apparent that 
aerospace-focussed programs are going to concentrate on second-
generation reusable launch vehicles.
    Again, speaking for the Members for Ohio, I guess, and 
really across the country as we look at this, how is Glenn 
going to fit into the reusable launch vehicle program?
    Mr. Venneri. Glenn is on our agency-wide team of looking at 
advanced propulsion concepts that go beyond today's rocket 
engines. We are looking at the breakthrough areas sometime in 
mid to late this century or moving towards alternative cycles. 
So Glenn's expertise that is going to be brought to bear in 
this is dealing with looking at not just conventional rockets, 
but combined cycles where you take the best elements of air-
breathing and combining it with rockets. Also, where we get 
into traditional rockets that do not have rotating components, 
like air turbo ramjets, we are structuring activities now in 
the systems trades that would bring really the expertise from 
the aeropropulsion world and bring that into what we are 
looking. What we would look at would be the next generation of 
rockets beyond today's.

                             nanotechnology

    Mr. Hobson. Let me ask you about that a minute. I heard 
some stuff, about nanotechnology--I heard Newt give a speech 
the other day, and he was talking about these new technologies 
coming in and it is just going to change the types of materials 
you have. Nanotechnology is going to have a lot of effect on 
the types of materials that you have to make vehicles out of 
and to move into space further and not just in medical 
research, but in the types of propulsion and things that you 
do.
    Do you have people looking at this technology?
    Mr. Goldin. You bet, and in fact, the Speaker was invited 
by us to visit our Ames Research Center----
    Mr. Hobson. Yes, he was thrilled.
    Mr. Goldin [continuing]. To review that material. We have 
in this year's budget a very significant start-up activity in 
nanotechnology. Let me help you just a little bit with 
nanotechnology. When you build normal materials, you buy them 
by the pound and you work on a very large scale. With 
nanotechnology, you build it up an atom at a time. So it is 
possible to have materials 100 times stronger than steel at 
one-sixth the weight if we are successful. The other thing that 
is incredibly exciting about nano materials and nano devices is 
that if you build it up an atom at a time, you could have super 
conductors, semi conductors, thermal conductors, electrical 
conductors. You could even integrate nano materials with 
proteins and integrate literally biology with the hard physical 
world. Now you begin to get into an area when NASA is going to 
have an announcement next week with the National Cancer 
Institute to seek out micromolecular sensors that hopefully 
will have a capacity of probing individual cells, and we would 
have nano explorers and nano therapists, if you will, if we are 
successful. It is an area----
    Mr. Hobson. It is a whole new world.
    Mr. Goldin. I would like to make a point that I started on 
this morning. I have been incessant in pressing the NASA 
employees and the contractors to get more efficient in building 
the spacecraft and the products we have in operating them, so 
given a tight budget we have money to invest in 
nanotechnologies and information technologies and 
biotechnologies, because with these three technologies--I call 
it the ``golden triangle'' with an ``e-n,'' not an ``i-n,'' but 
with these three critical technologies, within a decade we will 
just revolutionalize the way we are going. Instead of having 
spacecraft that costs $600 million on average or $210 million 
on average or $800 million on average, we are looking to put 
spacecraft on a chip.
    This is a revolution that is going to be important not just 
to NASA. This is the reason I have the passion I have. For too 
long, NASA spent too much money with too many people, with too 
many people who watch people on things that did not get us to 
the place that nanotechnology might get us. I apologize if my 
passion spills over, but it is very, very important to 
understand this issue.
    Mr. Hobson. It is a whole new world.
    Mr. Goldin. In fact, we are working with Mr. Walsh on a 
whole new revolutionary way of spreading information technology 
to better educate our engineers.
    Mr. Hobson. I thank you. We want to get that in before we 
go, but I also just want to thank you for the SEMMA program. It 
is working extremely well, with about 270 kids, young kids 
getting excited about science in Springfield, Ohio, and I thank 
you very much for that program.
    Thank you, Mr. Chairman.
    Mr. Walsh. Hear. Hear.
    Mr. Cramer, you will wrap up.

                         architectural studies

    Mr. Cramer. I'd like to get back to what we were talking 
about before, including RLVs. I understand that phase three of 
the space transportation architecture studies was finished in 
December 1999?
    Mr. Venneri. We finished those up in December, and we are 
about to start.
    Mr. Cramer. Can you quickly give me some of the technology 
prioritization that resulted from those studies?
    Mr. Venneri. In the areas of what we are emphasizing?
    Mr. Cramer. Yes.
    Mr. Venneri. We looked at requirements that were dealing 
with NASA requirements in terms of crew safety, crew escape 
systems. We laid out some of the needs in terms of thermal 
protection, airframe design, tank design issues, as well as 
what would go beyond today's propulsion systems of conventional 
rockets today.
    We are referring to things that could be combined cycles. 
Those things have translated now into road maps that we have 
shared with industry which really provides us a baseline of 
where we need to go in technology. What also came out of those 
studies is the closure of where industry needs to be in terms 
of business case models, where their needs would be in terms of 
investments, what they need for returns on investment, and we 
have some graphs that we could supply to you that explains 
where those trade spaces are and what industry views now as 
requirements for commercialization of access to space.

                         second generation RLVs

    Mr. Cramer. Thank you, I would like to have those graphs. I 
would like to get more information about how you obtained that 
information from the industry.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cramer. After 2005, what role will NASA play in the 
commercial development of the second generation RLVs?
    Mr. Goldin. That is an open issue. One of the biggest 
variables that we are concerned about is how robust will the 
commercial space launch industry be in 2005.
    There were projections of thousands of commercial launches 
when there was a thought that these low-orbiting space systems 
will be working. With Iridium failing and problems with ICO, 
there has been a concern, and it may just be cyclic.
    If there is a very robust commercial market, that will 
provide motivation and financial incentive so that these 
companies could go out and produce the vehicles without the 
Government involvement.
    If that is not the case, there will have to be some 
significant Government involvement, but we will really hope for 
the best.
    Now, our goal is to purchase launch services, not rockets. 
NASA has been very successful with expendable launch vehicles 
and purchasing services, but it all depends on where is the 
commercial market going to be at the middle of the first decade 
of the century.

                     shuttle upgrades and new hires

    Mr. Cramer. Mr. Goldin, would you talk about the 
supplemental bill and what would happen if you do not get the 
funding for the shuttle upgrades and the new hires included in 
that bill?
    I had the benefit of speaking with Dr. Mulville before our 
chamber group this week, and we discussed the schedule lags 
that could be involved and the damage that would result, but 
could you briefly give me your assessment of that?
    Mr. Goldin. Joe.
    Mr. Rothenberg. Thank you. Yes, the first thing I wanted to 
do, and I failed to mention that before, is to thank the 
committee for their support in that supplemental. That is very 
important. We will have to look for other programs to cut or 
other sources of funding. Both of those are very important. 
Without a robust work force, we should not take on any new 
work, and we need to fix the work force issue. That 
supplemental will help that. As far as the shuttle upgrades, 
they are also equally important. We cannot continue to fly 
people when we know we can remove risk from the vehicle for a 
relatively modest investment. So we will have to look for other 
sources of funding for that.
    Mr. Cramer. What could be the consequences of that? Can you 
speculate?
    Mr. Goldin. I will jump in. We are hopefully optimistic 
that the supplemental will pass, and we are very reluctant to 
go off and start thinking about what hypothetically we may cut. 
I think the key point here is we are trying with a limited 
budget to prioritize, and our number-one priority is safety. We 
are committed to adding back some people on the safety issue, 
and we are committed to making the shuttle as safe as possible, 
and that $25 million is absolutely essential. So we are 
committed to investing in those things. We will wait and see 
what happens with the supplemental.
    Mr. Cramer. It is very important that we preserve that 
funding.
    Mr. Goldin. And we also appreciate working with this 
committee and their tolerance they have with us on this issue.
    Mr. Cramer. Mr. Chairman, that is all I have. Thank you.
    Mr. Walsh. There is a little bit of time remaining. Mr. 
Frelinghuysen had another question he wanted to get in.
    Thank you, Mr. Cramer.

                          mars climate orbiter

    Mr. Frelinghuysen. I just had a question on the Mars 
Climate Orbiter, its loss. Some people whose opinion I respect 
had suggested that the conversion of English to metric should 
have been caught earlier because the orbiter had to have three 
course corrections during the trip to Mars. Why didn't someone 
ask why we had to make these course corrections?
    Mr. Goldin. We had a real problem here. We were talking to 
Mr. Knollenberg. The error in itself was not as bad as the fact 
that we did not have a system that was tolerant to error and 
would pull that error out.
    We believe that one of the problems that we have to address 
is the fact that they did not do independent verification and 
validation of the software, and this is a thrust that we are 
going to be undertaking.
    Mr. Frelinghuysen. What about the course corrections? 
Didn't they signal something?
    Mr. Goldin. The course corrections, there, there was a real 
problem. The navigator was a very mild-mannered fellow, and he 
kept pointing out he was seeing problems, but in his 
communication with the people in the operations center, he did 
not quite get the message across. He would send an e-mail, and 
they did not quite understand. There was a real gap in the 
knowledge between the two.
    The Stevenson panel talked about the fact that there just 
was a bad communication problem between good people that did 
not communicate well.

                           mars polar lander

    Mr. Frelinghuysen. Lastly, are all the facts out on the 
table relative to the loss of the Mars Polar Lander?
    Mr. Goldin. Absolutely.
    Mr. Frelinghuysen. I have read the letter that went to Dr. 
Weiler, and I just wonder if there are more facts to come out. 
Obviously, there are a lot of signatories to that letter, but I 
just wonder if there are more facts to come out.
    Mr. Goldin. I called the chairman of Lockheed Martin and I 
asked him to have his people go through the 3 feet of documents 
one more--once he told me they went all the way back to 1975. 
They did not just stop with this program. They went all the way 
back to 1975. We have asked every person we know of to look at 
this. We have had what we consider some of best propulsion 
people in the country and the best program managers in the 
country look at this.

                        progress/soyuz vehicles

    Mr. Frelinghuysen. Lastly, getting back to a reference I 
made to the chairman's initial remarks relative to the 
Progress, in Soyuz vehicles, weren't they specifically 
earmarked for the International Space Station?
    Mr. Goldin. Yes, sir.
    Mr. Frelinghuysen. To a certain extent, they were used for 
other purposes.
    Mr. Goldin. Unilaterally, without asking----
    Mr. Frelinghuysen. With all due respect, all the money is 
fungible, and we do a lot to provide them money for work time, 
don't we?
    Mr. Goldin. The answer is it was inexcusable. Without 
consultation, it was not something a true partner would do, and 
there is a high degree of frustration on our side about the 
unilateral action taken by the head of the Energia Company to 
just move it out.
    Mr. Frelinghuysen. Now that they are used, are there 
replacements ready to fly? Is this delay such that they will 
have additional time to build and provide new ones?
    Mr. Goldin. They have an adequate number of Soyuz and 
Progress vehicles to cover us for the year 2000.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.

                       human space flight program

    Mr. Walsh. I will give you the last word. Can you assure us 
that the communication problems that you discovered through 
this Young report and to the NASA program analysis is not the 
problem in the human space flight program?
    Mr. Goldin. I believe there is not a communication problem 
in the human space flight program. In fact, it is outstanding, 
and we have the Aerospace Safety Advisory Panel which is 
enabled by the Congress constantly watching over it. I just met 
with them, with their annual report, and they feel we have good 
communications.
    Mr. Walsh. Thank you very much.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               I N D E X

                              ----------                              

             National Aeronautics and Space Administration

                                                                   Page
Additional Funding...............................................   122
Administrator Goldin's Closing Remarks...........................     6
Aerospace Technology Enterprise..................................   109
Aircraft Noise Issues............................................   107
Alternate Access to Space Station................................   132
Alternative Access...............................................   108
American Money for Weapons Programs..............................    50
Applications of Technologies.....................................    91
Architectural Studies..........................................130, 149
Astronaut Team...................................................    49
Biotechnology....................................................   103
Chairman's Opening Remarks.......................................1, 109
Commercial Launch Services.......................................    88
Component Problems...............................................    40
Contingency Fund.................................................   127
Crew Transfer Vehicle............................................   140
Cutting Edge Research............................................    89
De-Orbiting of the MIR...........................................    51
EOSDIS Status....................................................   144
Faster, Better, Cheaper....................................97, 112, 133
Full-cost Accounting.............................................   142
Funding for the Kennedy Space Center.............................   104
Funds to Russia..................................................    39
FY 2001 Budget Request...........................................5, 114
Global Climate Change............................................   135
Goods and Services Purchased from Russia.........................    38
Hiring Versus Investments........................................    50
Human Space Flight Program.......................................   153
Independent Reviews..............................................     4
Independent Validation and Verification Facility.................   100
Inspecter General's Top Management Challenges....................   107
Institutional Memory.............................................    50
Integrated Financial Management System...........................   141
International Partners...........................................    40
International Partners Major Problems............................    41
International Space Station......................................5, 136
Introduction of NASA Staff.......................................   111
KPMG Non-Performance.............................................   142
Learning from Failures...........................................    98
Lessons Learned..................................................     4
Living with a Star...............................................44, 92
Major Launch Initiative..........................................    36
Mars Climate Orbiter.............................................   152
Mars Polar Lander................................................   152
Mars Program....................................................96, 121
Mars Report......................................................   112
Mir De-Orbiting..................................................   128
Nanotechnology...................................................   148
NASA Accomplishments.............................................     3
NASA Budget...................................................... 3, 45
NASA Failures....................................................   113
NASA Losses......................................................     3
NASA's Report Card...............................................   113
NASA's Successes and Failures....................................    35
New Space Launch Initiatives.....................................     6
Operational Cost of Space Station................................   138
Operational Venture Star.........................................   106
Other Government and Private Sector Applications.................    91
Paying Russia for its Contributions..............................    38
Payments to Russia...............................................    52
Personnel at NASA................................................    87
Program Management Working Group.................................   124
Progress/Soyuz Vehicles..........................................   152
Propulsion Module................................................   143
Propulsion Research..............................................    48
Ranking Member's Opening Remarks.................................     2
Regulation of Space Flight.......................................    90
Reinventing NASA.................................................    47
Relationship with Federal Aviation Administration................   106
Remarks of Representative Meek...................................   102
Remote Sensing Center............................................   103
Representative Hobson's Remarks..................................   145
Research and Engineering Processes...............................    94
Reusable Launch Vehicles.........................................   147
Rocket Suppliers.................................................    87
Rocket System Suppliers..........................................    37
Russia's Contribution............................................   137
Second Generation RLVs...........................................   149
Service Module.............................................52, 128, 129
Service Module Launch..........................................129, 137
Shuttle Flights..................................................   143
Shuttle Independent Assessment Team Report.......................    35
Shuttle Upgrades.................................................   104
Shuttle Upgrades and New Hires.................................144, 151
Space Shuttle Independent Assessment Team........................    49
Space Station Assembly and Operation.............................    37
Space Station Components.........................................    39
Successes and Failures...........................................    41
Terra Launch.....................................................    44
U.S. Global Change Research Program..............................    42
Ultra-efficient Engine Technology................................   146
X-33, 34, and 37.................................................   105
Young Report.....................................................   113

                                <greek-d>

</pre></body></html>
